<html>
<title></title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                                    

                         [H.A.S.C. No. 116-17]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2020

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

                     THE FISCAL YEAR 2020 NATIONAL

                      DEFENSE AUTHORIZATION BUDGET

                 REQUEST FROM THE DEPARTMENT OF DEFENSE

                               __________

                              HEARING HELD

                             MARCH 26, 2019

                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                    
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-878                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------



                                     
                      COMMITTEE ON ARMED SERVICES
                     One Hundred Sixteenth Congress

                    ADAM SMITH, Washington, Chairman

SUSAN A. DAVIS, California           WILLIAM M. ``MAC'' THORNBERRY, 
JAMES R. LANGEVIN, Rhode Island          Texas
RICK LARSEN, Washington              JOE WILSON, South Carolina
JIM COOPER, Tennessee                ROB BISHOP, Utah
JOE COURTNEY, Connecticut            MICHAEL R. TURNER, Ohio
JOHN GARAMENDI, California           MIKE ROGERS, Alabama
JACKIE SPEIER, California            K. MICHAEL CONAWAY, Texas
TULSI GABBARD, Hawaii                DOUG LAMBORN, Colorado
DONALD NORCROSS, New Jersey          ROBERT J. WITTMAN, Virginia
RUBEN GALLEGO, Arizona               VICKY HARTZLER, Missouri
SETH MOULTON, Massachusetts          AUSTIN SCOTT, Georgia
SALUD O. CARBAJAL, California        MO BROOKS, Alabama
ANTHONY G. BROWN, Maryland, Vice     PAUL COOK, California
    Chair                            BRADLEY BYRNE, Alabama
RO KHANNA, California                SAM GRAVES, Missouri
WILLIAM R. KEATING, Massachusetts    ELISE M. STEFANIK, New York
FILEMON VELA, Texas                  SCOTT DesJARLAIS, Tennessee
ANDY KIM, New Jersey                 RALPH LEE ABRAHAM, Louisiana
KENDRA S. HORN, Oklahoma             TRENT KELLY, Mississippi
GILBERT RAY CISNEROS, Jr.,           MIKE GALLAGHER, Wisconsin
    California                       MATT GAETZ, Florida
CHRISSY HOULAHAN, Pennsylvania       DON BACON, Nebraska
JASON CROW, Colorado                 JIM BANKS, Indiana
XOCHITL TORRES SMALL, New Mexico     LIZ CHENEY, Wyoming
ELISSA SLOTKIN, Michigan             PAUL MITCHELL, Michigan
MIKIE SHERRILL, New Jersey           JACK BERGMAN, Michigan
KATIE HILL, California               MICHAEL WALTZ, Florida
VERONICA ESCOBAR, Texas
DEBRA A. HAALAND, New Mexico
JARED F. GOLDEN, Maine
LORI TRAHAN, Massachusetts
ELAINE G. LURIA, Virginia

                     Paul Arcangeli, Staff Director
                 Katy Quinn, Professional Staff Member
                Jason Schmid, Professional Staff Member
                          Justin Lynch, Clerk
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Chairman, 
  Committee on Armed Services....................................     1
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Ranking Member, Committee on Armed Services....................     5

                               WITNESSES

Dunford, Gen Joseph F., Jr., USMC, Chairman of the Joint Chiefs 
  of Staff.......................................................     8
Shanahan, Hon. Patrick M., Acting Secretary of Defense, 
  Department of Defense; accompanied by David Norquist, 
  Comptroller and Chief Financial Officer, and Acting Deputy 
  Secretary, Department of Defense...............................     6

                                APPENDIX

Prepared Statements:

    Dunford, Gen Joseph F., Jr...................................   100
    Shanahan, Hon. Patrick M.....................................    79

Documents Submitted for the Record:

    [The information was not available at the time of printing.]

Witness Responses to Questions Asked During the Hearing:

    [The information was not available at the time of printing.]

Questions Submitted by Members Post Hearing:

    Dr. DesJarlais...............................................   114
    Mr. Gallego..................................................   113
    Mr. Garamendi................................................   112
    Mr. Kim......................................................   114
    Mr. Langevin.................................................   112
    Mrs. Luria...................................................   116
    Ms. Sherrill.................................................   115
    Mr. Smith....................................................   111
    Ms. Speier...................................................   113
    Ms. Trahan...................................................   117
                 
                 
                 THE FISCAL YEAR 2020 NATIONAL DEFENSE

                   AUTHORIZATION BUDGET REQUEST FROM

                       THE DEPARTMENT OF DEFENSE

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                           Washington, DC, Tuesday, March 26, 2019.
    The committee met, pursuant to call, at 10:00 a.m., in room 
2118, Rayburn House Office Building, Hon. Adam Smith (chairman 
of the committee) presiding.

  OPENING STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM 
       WASHINGTON, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Thank you. A couple of process issues to 
start. The Secretary has said that he can be here till 3:00, 
which calls into question, you know, just how big of a 
masochist he is, but we do appreciate the ability to be here 
that long. We are going to take a break at 12:15, from 12:15 to 
12:30, and then we will resume. We don't have to go to 3 
o'clock, but we want to try to give members as much time as 
possible, understanding the importance of this hearing.
    With that, I call the hearing to order. I want to thank the 
Honorable Patrick Shanahan, Acting Secretary of Defense; 
General Joseph Dunford, Chairman of the Joint Chiefs of Staff; 
and the Honorable David Norquist, who is performing the duties 
of the Deputy Secretary of Defense.
    First note, I believe this will be the last, probably the 
last time that General Dunford testifies before our committee. 
He has held many roles within the military. And I just want to 
say, on a personal note, is that it has been a great pleasure 
working with you. You have served your country incredibly well, 
do an outstanding job, and we have always had a very open 
dialogue. We all know that there are tensions between the 
Pentagon and Congress, but you have done an outstanding job of 
truly, you know, letting us know you care what we think, you 
want to work with us, you want to make this process work. I 
really appreciate your leadership.
    And Mr. Shanahan and Mr. Norquist, this is both your first 
hearings in your current acting roles. As I discussed with the 
Secretary yesterday, there is getting to be sort of a Bud Selig 
joke here. For those of you who follow baseball, he was made 
the baseball chairman and then he was the acting chairman for 
life, because he kept in that spot but they never made him 
permanent. So we are hoping that doesn't happen in your case as 
well, but we appreciate your service and look forward to your 
testimony.
    These are, as always, very challenging times. As we have 
said on this committee for quite a few years now, it is hard to 
imagine a time in American history when we have had such a 
complex threat environment. Certainly, there have been times in 
our history where we have been at greater peril, but here the 
dangers come from a multitude of different sources. And it 
really takes an incredible amount of work and understanding to 
figure out how do we meet all of those threats in a 
comprehensive way. We cannot do everything we would like to do. 
How do we make sure we do what we have to do? So we have to 
meet that threat environment.
    And the basic task, as I see it, of the Department of 
Defense and our committee is, number one, clearly, meet our 
national security objectives, figure out what they are, and 
make sure we are meeting them. And one of the biggest there is 
to deter our adversaries, and that can come in many forms. At 
the moment, it is primarily Russia, China, transnational 
terrorist groups, North Korea, and Iran. What are we doing to 
deter them from their actions?
    And then lastly and most importantly, is to make sure that 
the men and women who serve in our military are trained and 
equipped and 100 percent prepared to carry out whatever mission 
we ask them to do. Those missions will change as the threat 
environment changes, as our resources change, but the one thing 
we never want to do is create a situation where we are asking 
them to go into a fight that they are not prepared for. We are 
incredibly well served by the men and women in our military. 
Without question, the best, strongest, most capable military in 
the history of the world, and it wouldn't happen but for the 
people serving. We need to make sure that we give them the 
tools they need to do their job.
    As I go forward, the greatest challenge to all of this is 
somewhat, you know, surprising in that it is the budget and the 
uncertainty that comes with it. Ever since the Budget Control 
Act in 2011, the entire discretionary budget has gone through a 
number of shutdowns. At this point, I forget if it was three or 
four, countless other threatened shutdowns, countless 
continuing resolutions, and a level of budget uncertainty that 
has made it impossible to plan. From one month to the next, you 
do not know how much money you are going to have and you don't 
know where you are going to be able to spend it. And that 
created an enormous number of problems.
    Now, we have made progress on that. We also, because of the 
wars in Iraq and Afghanistan, had a readiness shortfall, which 
I know you have worked very hard on and it is getting better. 
We look forward to hearing the specifics about how we have 
improved on that.
    And then also, when we got the budget deal for 2018 and 
2019, we finally put in about 18 months of, while certainty is 
too strong a word, but predictability. Now, 2018 wasn't 
perfect, because you didn't get it until 6 months into the 
fiscal year and then had to figure out how to spend that money 
in a very short timeframe. But for 2019, on October 1, the 
Department of Defense knew what its budget was going to be for 
the full year. And I believe that was the first time in 7 years 
that that was the case. That is enormously helpful.
    Now, unfortunately, as we head towards 2020, we are now at 
risk of falling back into the old ways, which is really too 
bad. We have 2 years left of the Budget Control Act. And I know 
there is bipartisan consensus in the House and the Senate to 
get a deal for those last 2 years. Unfortunately, the budget 
that was submitted by the President and the Department of 
Defense dramatically undercuts our ability to get that deal.
    First of all, it sticks--well, it claims to stick to the 
Budget Control Act numbers, but it does two things that are 
incredibly problematic. One, it cuts all nondefense 
discretionary money by 5 percent, and that is by 5 percent 
below the Budget Control Act number for 2020. It is an even 
greater cut from what we put into those programs last year. And 
then it uses the overseas contingency operations [OCO] fund as 
a slush fund. It takes that money and says because it is off 
budget, we can pump I think it is well over $90 billion into 
base budgeting out of the OCO and claim that we have stuck to 
the Budget Control Act numbers. That is breathtakingly 
irresponsible. And no greater authority on that subject than 
current chief of staff Mick Mulvaney said exactly that.
    Now, he said it 3 years ago when he was a Member of 
Congress and not trying to weasel his way around the budget 
problem as a chief of staff. But he made it clear that OCO 
should not be a way to sneak around the budget caps, and yet 
that is the heart and soul of the budget going forward.
    And there are a couple of problems with this, the biggest 
one of which that budget is not going to pass. There is 
bipartisan opposition to it, and I can assure you the 
Democratic-controlled House is not going to pass a budget that 
creates $174 billion OCO and guts every other aspect of 
funding.
    So how do we get back from there? How do we get to the 
point where we were, I believe, in November and December where 
we were just this close to a budget deal for 2020 and 2021 that 
gives us a degree of certainty, that can give us that 
predictability and get us to the end of the Budget Control Act. 
There is no good reason to do this.
    Artificially sticking to those budget caps has almost 
nothing to do with fiscal responsibility. I know that is the 
thought. Well, gosh, we can say we stuck to the budget caps. We 
can claim that we are being fiscally responsible.
    The discretionary budget is 25 percent of the overall 
budget and has nothing to do with revenue. It is only a tiny 
portion of our overall debt and deficit picture. And to 
jeopardize all of that to get no particular gain on fiscal 
responsibility is, to my mind, incredibly irresponsible.
    And the last problem with all of this is we constantly talk 
in this committee about a whole-of-government approach. We have 
had many people from the Pentagon, most notably and most 
articulately, as is often the case, with Secretary Mattis, who 
said, if you are going to cut the State Department, you better 
give me more ammunition. The State Department gets cut by 25 
percent in this budget, Development gets cut by just about the 
same, Homeland Security. Every other piece of this whole-of-
government approach gets gutted in this budget, except to make 
sure that we can have a 10 percent or 8 percent or whatever it 
is increase in military spending.
    And I just--I can't have people from the Pentagon come up 
here and wax nostalgic about how much they love the State 
Department while we gut their budget. You know, a whole-of-
government approach requires that. And we get into a self-
fulfilling prophecy if we don't fund these other tools. And by 
the way, the military is not the only way to deter our 
adversaries. We can work with partners. We can use diplomacy. 
There are a ton of things we can do so that we don't have to 
rely on the blunt instrument of the U.S. military. But it will 
not work if we gut that budget.
    Just two final points I have to make. You know, the comment 
that funding a border wall out of the Department of Defense is 
also unbelievably irresponsible. And I won't even get into the 
debate here about the wisdom of that border wall. We can do 
that at another time. But what everyone feels about the border 
wall, to look at the Pentagon as sort of a piggybank/slush fund 
where you can simply can go in and grab money for something 
when you need it really undermines the credibility of the 
entire DOD [Department of Defense] budget. Because if you have 
got $5- to $10- to $20 billion just lying around at the 
Pentagon for any particular purpose, then what does that say 
about whether or not you really need the money that you come up 
here telling us that you need?
    So this committee, and I know there has been bipartisan 
expression to this, is unalterably opposed to taking money out 
of DOD to fund the border wall. And in particular--well, I will 
get into the reprogramming issue in my questions.
    But the last point that we want to emphasize: the audit. We 
need the Pentagon to start spending the money more wisely than 
it has been spending it. And I really want to thank my partner 
on this committee, Ranking Member Thornberry, for his work even 
before he was chairman of the committee. His understanding of 
acquisition and procurement is second to none in this 
committee. And he has worked very, very hard to try to put 
legislation in to improve the efficiency, to make sure that we 
are spending the money wisely. Too much money has been wasted 
at the Pentagon. We need the audit. At a minimum, we need to 
know where you are spending your money. We don't know that, 
there is really no way to get to efficiency. So we are going to 
keep pushing on that.
    And then we need to get better about the systems that we 
fund. The F-35 is unbelievably over budget. We have the 
aircraft carrier, even now as it is delivered, it is having 
problems with elevators and launch systems. The tanker, you 
know, they are finding debris inside of the tanker from when it 
was made. There is just a lack of efficiency. And there are 
programs throughout the nineties, the Future Combat Program, 
that spent billions of dollars towards no particular end. The 
expeditionary fighting vehicle where we spend $8 billion before 
deciding that we weren't actually going to build it.
    I believe that the Pentagon can get by with a lot less 
money if we had a full audit and we spent that money better. 
And we want to make sure that we are moving in that direction.
    With that, I thank you for being here. I look forward to 
your testimony, and I yield to the ranking member.

      STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
 REPRESENTATIVE FROM TEXAS, RANKING MEMBER, COMMITTEE ON ARMED 
                            SERVICES

    Mr. Thornberry. Thank you, Mr. Chairman.
    Secretary Shanahan, welcome to the House Armed Services 
Committee. You have met with the committee in other places in 
other capacities, but this is the first time you have testified 
in this way, so welcome.
    General Dunford and Mr. Norquist, welcome back.
    General Dunford, I am not quite ready to let you go yet, so 
just be warned that you may be back in some way or another, 
given what the chairman said the complex nature of the threats 
and security environment in which we all operate.
    Mr. Secretary, you may find yourself the target of a lot of 
criticism for decisions that you had nothing to do with today. 
I hope that is not the case. I, for example, share the 
chairman's view that we should not take Department of Defense 
resources and use it for other purposes. I know that that was 
not a decision you made, but I hope that most of what we can 
talk about today are those things within the purview of the 
Department of Defense. Because I agree with much of the 
chairman's comments that budget uncertainty, largely because of 
Congress and the previous administration, has caused enormous 
problems for the Department of Defense and the men and women 
who serve. And yet we have started to make some real progress.
    We have started--had a good start in improving readiness of 
our forces. And all of us who have been on the committee 
previously have been concerned about the number of casualties 
and other things because of accidents, which were unfortunately 
increasing at an alarming rate. It was not just because of the 
pace of operations, that certainly contributed, but it was also 
because of about a 20 percent cut in defense funding starting 
in 2010.
    We have started to make progress on improving our position 
versus peer competitors. Now, we haven't caught up where we 
need to be yet, but--and in key areas, they are still ahead of 
us, but we have started to make progress. And we have even 
started to make progress in treating our people right.
    I think you are going to--for example, this committee is 
going to focus on housing issue. There are some spouse 
employment issues. There are still a lot of things we need to 
do. But when you look back the last few years on pay, health 
care, retirement, et cetera, we have started to make progress.
    My bottom line is we need to keep making progress. We can't 
slide backwards. And I am very conscious of the fact that 
repeatedly, Secretary Mattis and you, General Dunford, have 
testified that a minimum of 3 to 5 percent real growth in the 
defense budget is necessary to continue to make progress, both 
on readiness, in holding our own at least with peer 
competitors.
    I also note that the national strategy commission, which 
was composed of an equal number of Republicans and Democrats, 
looked at this for some time and they endorsed that 3 to 5 
percent real growth. That is exactly what the President's 
budget--just about what the President's budget comes in at. I 
share the concerns about other parts of the budget. And I 
completely agree we are not ever going to pass $174 billion 
OCO, but that goes back to decisions that were made somewhere 
else other than the Department of Defense.
    I appreciate all three of you and the work that you put in. 
We need to be your partners to continue to make progress on 
readiness, on treating our people right, on the peer competitor 
issues that concern us all. So we will get into a lot of those 
today.
    Thank you all again for being here. I yield back.
    The Chairman. Mr. Secretary.

  STATEMENT OF HON. PATRICK M. SHANAHAN, ACTING SECRETARY OF 
DEFENSE, DEPARTMENT OF DEFENSE; ACCOMPANIED BY DAVID NORQUIST, 
  COMPTROLLER AND CHIEF FINANCIAL OFFICER, AND ACTING DEPUTY 
                SECRETARY, DEPARTMENT OF DEFENSE

    Secretary Shanahan. Chairman Smith, Ranking Member 
Thornberry, distinguished members of the committee, thank you 
for this opportunity to testify in support of the President's 
budget request for fiscal year 2020.
    I am joined by Chairman of the Joint Chiefs of Staff, 
General Joseph Dunford, and the Department's Comptroller and 
Chief Financial Officer, Mr. David Norquist.
    It has been a great privilege and honor to serve alongside 
the men and women of the Department of Defense. And it was a 
pleasure to work with Secretary Mattis to craft the 2018 
National Defense Strategy.
    Released in January 2018, that strategy laid the foundation 
for restoring military readiness and modernizing our joint 
force for an era of great power competition. I now oversee the 
continued execution of that strategy, which is the undisputed 
driver of today's budget request.
    It was extremely helpful for the Department to receive 
authorization and appropriation bills on time and at the 
requested top line last year. With 87 percent of Congress in 
bipartisan support, last year marked the earliest signing of an 
authorization bill in four decades.
    The strategy you supported last year is the same strategy 
we are asking you to fund this year. The $750 billion top line 
for national defense enables DOD to maintain irregular warfare 
as a core competency, yet prioritizes modernization and 
readiness to compete, deter, and win in any possible high-end 
fight of the future.
    This budget is critical for the continued execution of our 
strategy, and it reflects difficult but necessary decisions 
that align finite resources with our strategic priorities.
    To highlight some of those decisions, this is the largest 
research, development, testing, and evaluation [RDT&E] budget 
in 70 years. The budget includes double-digit increases to our 
investments in both space and cyber, modernization of our 
nuclear triad and missile defense capabilities, and the largest 
shipbuilding request in 20 years, when adjusted for inflation. 
It also increases our total end strength by roughly 7,700 
service members, and provides a 3.1 percent pay increase to our 
military, the largest in a decade.
    Now to the specifics. The top line slates $718 billion for 
the Department of Defense. Of that total, the budget includes 
$545 billion for base funding and $164 billion for overseas 
contingency operations. Of the overseas contingency operation 
funds, $66 billion will go to direct war and enduring 
requirements and $98 billion will fund base requirements. To 
round out the numbers, $9.2 billion will fund emergency 
construction. That includes an estimated $2 billion to rebuild 
facilities damaged by Hurricanes Florence and Michael; up to 
$3.6 billion to support military construction projects that 
will be awarded in fiscal year 2020 instead of fiscal year 
2019, so we can resource border barrier projects under 
emergency declaration this year; and $3.6 billion in case 
additional emergency funding is needed for the border.
    Military construction on the border will not come at the 
expense of our people, our readiness, or our modernization. To 
identify the potential pool of sources of military construction 
funds, DOD will apply the following criteria. No military 
construction projects that have already been awarded and no 
military construction projects with fiscal year 2019 award 
dates will be impacted. We are solely looking at projects with 
award dates after September 30, 2019. No military housing, 
barracks, or dormitory projects will be impacted.
    Decisions have not been made concerning which border 
barrier projects will be funded through section 2808 authority. 
If the Department's fiscal year 2020 budget is enacted on time 
as requested, no military construction project use to source 
section 2808 projects will be delayed or canceled.
    I appreciate the inherent intra-government complexities of 
the southwest border situation. I also want to emphasize the 
funds requested for the border barrier amount to less than 1 
percent of the national defense top line.
    As this committee fully understands, no enemy in the field 
has done more damage to our military's combat readiness in 
years past than sequestration and budget instability. And there 
is no question today, our adversaries are not relenting.
    The instability of a continuing resolution [CR] would cost 
us in three important ways. First, we would be unable to 
implement new initiatives like standing up the Space Command or 
accelerating our development of hypersonic capabilities and 
artificial intelligence. Second, our funding will be in the 
wrong accounts. We are requesting significant investments in 
RDT&E for cyber, space, and disruptive technologies, and at O&M 
[operations and maintenance] for core readiness. Third, the 
incremental funding under a CR means we lose buying power. This 
translates to higher costs and uncertainty for industry in the 
communities where we operate.
    We built this budget to implement our National Defense 
Strategy, and I look forward to working with you to ensure 
predictable funding so our military can remain the most lethal, 
adaptable, and resilient fighting force in the world. I 
appreciate the critical role Congress plays to ensure our 
warfighters can succeed on the battlefield of both today and 
tomorrow. And I thank our service members, their families, and 
all those in the Department of Defense for maintaining constant 
vigilance as they stand, always ready to protect our freedoms.
    Thank you.
    [The prepared statement of Secretary Shanahan can be found 
in the Appendix on page 79.]
    The Chairman. Thank you.
    Chairman Dunford.

STATEMENT OF GEN JOSEPH F. DUNFORD, JR., USMC, CHAIRMAN OF THE 
                     JOINT CHIEFS OF STAFF

    General Dunford. Chairman Smith, Ranking Member Thornberry, 
distinguished members of the committee, thank you for the 
opportunity to join Secretary Shanahan and Under Secretary 
Norquist today. It remains my privilege to represent your 
soldiers, sailors, airmen, and Marines.
    While much of our discussion this morning is going to focus 
on the challenges we face, it is important I begin by assuring 
you that your Armed Forces can deter a nuclear attack, defend 
the homeland, meet our alliance commitments, and effectively 
respond should deterrence fail.
    I believe today we have a competitive advantage over any 
potential adversary, defined as the ability to project power 
and fight and win at the time and place of our choosing. But as 
members of this committee well know, 17 years of continuous 
combat and fiscal instability have affected our readiness and 
eroded the competitive advantage we enjoyed a decade or more 
ago.
    As the Secretary highlighted, China and Russia have 
capitalized on our distraction and restraints by investing in 
capabilities specifically designed to challenge our traditional 
sources of strength. After careful study, the developed 
capabilities intended to contest our movement across all 
domains--sea, air, space, cyberspace, and land--and disrupt our 
ability to project power.
    With the help of Congress, starting in 2017, we began to 
restore that competitive advantage. Recent budgets have allowed 
us to build readiness and invest in new capabilities, while 
meeting current operational commitments. But we cannot reverse 
decades of erosion in just a few years.
    This year's budget submission would allow us to continue 
restoring our competitive advantage by improving readiness and 
developing capabilities to enhance our lethality. It proposes 
investments in advanced capabilities across all domain: sea, 
air, land, space, and cyberspace.
    This year's budget also sustains investments in our nuclear 
enterprise to ensure a safe, secure, and effective strategic 
deterrent, the highest priority of the Department of Defense. 
We have also taken steps to more effectively employ the force 
we have today and build a force we need for tomorrow. We have 
implemented fundamental changes in our global force management 
process to prioritize and allocate resources in accordance with 
the National Defense Strategy, while building readiness and the 
flexibility to respond to unforeseen contingencies.
    We have also refined our process for developing and 
designing the future force. A joint concept, threat-informed 
approach supported by a wide body of analytic work allows us to 
more deliberately evaluate and prioritize warfighting 
requirements. This also enables us to pair emerging 
technologies with innovative operational concepts.
    In closing, I would like to thank the committee for all you 
have done to support the men and women in uniform and their 
families. Together we have honored the solemn obligation to 
never send our sons and daughters into a fair fight. And with 
your continued support, we never will.
    [The prepared statement of General Dunford can be found in 
the Appendix on page 100.]
    The Chairman. Thank you both. I appreciate that.
    Keeping in mind and acknowledging Ranking Member 
Thornberry's point that you don't make the policy necessarily 
that you are sent up here to defend, regrettably, neither 
President Trump nor Chief of Staff Mulvaney are going to 
testify before our committee, so we have to ask you about it 
and get your defense/explanation.
    And one of the biggest areas in the wall funding that is 
problematic for this committee and for the relationship between 
the Pentagon and Congress is the reprogramming requests. And it 
is, you know, a bit of sort of arcane policy that even I didn't 
fully understand. But by and large, the Pentagon is not allowed 
to simply move money from one account to another, without 
coming back through the full legislative process.
    But given the amount money at the Pentagon and given how 
much things change, we have given, through the congressional 
process, the ability to reprogram, I think it was $4 billion 
last year. But one of the sort of gentleman's agreements about 
that was if you reprogram money, you will not do it without 
first getting the approval of all four relevant committees: 
Defense Appropriations in the House and the Senate, and Armed 
Services in the House and the Senate.
    For the first time since we have done that on the 
reprogramming request to help fund the wall, basically you are 
shifting money from the MILPERS [military personnel] account 
into the drug safety account, whatever it is, drug enforcement 
account, so that you can then take it out of the cap and put it 
to the wall, and you are not asking for our permission.
    Now, you understand the result of that likely is that the 
Appropriations Committee in particular will no longer give the 
Pentagon reprogramming authority. Now, I think that is 
unfortunate, because they need it. And I guess my question is 
what was the discussion like about in deciding to break that 
rule, and what is your view of the implications for it going 
forward in terms of the relationship between the Pentagon and 
Congress in general? And specifically, how much is it going to 
hamper you to not have reprogramming authority after this year?
    Secretary Shanahan. Chairman, what was the second part of 
that? What was the----
    The Chairman. How is it going to hamper the relationship if 
you--I am sorry. How is it going to hamper your ability to do 
your job if you don't have any reprogramming authority going 
forward?
    Secretary Shanahan. Right, yeah. Well, the discussion, I 
think--you know, I have also been party to this discussion--is 
that by unilaterally reprogramming it was going to affect our 
ability long term to be able to do discretionary reprogramming 
that we had traditionally done in coordination. It was a very 
difficult discussion. And we understand the significant 
downsides of losing what amounts to a privilege.
    The conversation took place prior to the declaration of a 
national emergency. It was part of the consulting that went on. 
We said, here are the risks, longer term to the Department, and 
those risks were weighed. And then given a legal order from the 
Commander in Chief, we are executing on that order. And as we 
discussed, the first reprogramming was $1 billion. And I wanted 
to do it before we had this committee hearing, because we have 
been talking about this for some time. And I have been 
deliberately working to be transparent in this process, fully 
knowing that there is downsides, which will hamper us.
    The Chairman. And ultimately, you asked for--you asked for 
$1 billion yesterday. Is it still the plan to ask for $2.4 
billion out of the drug enforcement account?
    Secretary Shanahan. We haven't made the assessment of 
what--consider these increments or tranches, however you want 
to phrase them, potentially we could draw $2.5 billion, when we 
look at the total general transfer authority. We think beyond 
that would be too painful to being able to continue [to] 
maintain readiness and operations, but we don't know what that 
next increment of funding would look like.
    The Chairman. One final question on this piece. You are 
getting the money because I believe it is the Army or is it the 
Army and the Marine Corps that did not meet their end-strength 
goals?
    Secretary Shanahan. Let me ask David Norquist.
    Mr. Norquist. So the source of the money as you point out 
at the beginning is the military personnel account. The Army 
was falling short of its recruiting targets by about 9,000, 
9,500. And so funds that would have gone to pay those soldiers 
had they been on board is no longer needed for that purpose. 
That military personnel account is more like a mandatory, in 
the sense that if there is no purpose, there is not a lot of 
other uses. And so it is available for reprogramming under 
those circumstances.
    The Chairman. Understood. And so for the fiscal year 2020 
budget, does your personnel request reflect that inability to 
recruit? Do you sort of factor in, okay, we would like to have 
this many, but we are not? Does it make sense to give you the 
same amount of money for MILPERS if it is just going to wind up 
in the drug enforcement account and then go to building a wall?
    Secretary Shanahan. I believe we did that.
    Mr. Norquist. Yes. So we went ahead and planned the 2020 
budget off of the--the Army revised its expectations for next 
year accordingly, and that is the number that is in the 2020 
budget, sir.
    The Chairman. Okay. Final question. So when it comes to the 
budget, overall budget number--and I do have a slight quibble 
with the idea that somehow this is all a problem because the 
Obama administration cut defense. I think to the extent that we 
rely on that political talking point it undercuts the fact that 
this all happened because of the battle over the budget. I 
mean, the Budget Control Act wasn't passed because the Obama 
administration decided they wanted to do it. It was passed 
because we were literally 2 days away from not paying our 
debts. There was a refusal by the then Republican-controlled 
Congress to raise the debt ceiling. And the only deal to be 
able to raise the debt ceiling was to agree to sequestration in 
the Budget Control Act. It was a bipartisan act of--well, self-
flagellation, if you will, in terms of messing up our budget 
for 10 years to come just because we didn't have the political 
courage to live with the consequences of the money we had 
already spent. And that led to no end of problems, but it was a 
bipartisan problem.
    And really, it is a bipartisan unwillingness to address the 
reality that you can't balance the budget while cutting taxes 
and increasing spending. A choice has to be made. We decided 
not to make that choice. We decided to punt it into the 
artificial Budget Control Act, Sequestration Act. So a little 
greater honesty about the budget choices we face is the best 
way out of this, not, you know, any fault of the Trump 
administration or the Obama administration.
    But the question I have--and, General Dunford, take a stab 
at this--the President at one point, I don't know, several 
months ago said that he felt a $700 billion defense budget made 
sense. Several days after that, you know, they had settled on--
well, before that, there was the $733 billion number, which 
people had talked about as I think what was reflected in the--
you know, plus inflation, the 5 percent number that a 
bipartisan group had come up with. So, you know, it had been 
733, the President said, you know, I think we can do 700. And 
there was back and forth, a bunch of people talked to him, and 
then it became 750. Okay?
    And, you know, one of the things on the credibility here is 
we always hear from you guys, we absolutely have to have this 
money. I think that way one general testified, he said, 
anything below 733 creates an unacceptable amount of risk. I 
kind of find that hard to believe. Is now the statement 
anything below 750 becomes an unacceptable amount of risk? 
Where is the rigor in terms of what that number is to make sure 
that it is truly funding what our national security needs are, 
if that number can move $50 billion in the space of a few 
tweets?
    General Dunford. Chairman, I can address the specific part 
of the budget that talks to joint warfighting capabilities, and 
that represents, as Ranking Member Thornberry pointed out, 
about a 2.9 percent real growth increase over last year.
    In the terms of analysis, going back to 2015, we did a 
detailed analysis at the top secret level of all of what we 
call competitive areas: space, cyberspace, electronic warfare, 
maritime capability, land, and so forth. So we looked at 
ourselves and then we looked at what we had in the plan going 
out to 2025. And then we worked with the intelligence community 
and we did a similar study of China and Russia, the benchmark, 
if you, will for our path of capability development. Then we 
looked at the trajectory of capability development that Russia 
and China were on. And we looked at what should our force look 
like in 2025 to make sure that we had a competitive advantage. 
Again, that competitive advantage defined as the ability to----
    The Chairman. As a result of that process, you came up with 
the $733 billion number. Correct?
    General Dunford. That number is completely informed by the 
analysis we did for the path of capability development. Yes, 
Chairman.
    The Chairman. Okay. It is just worth noting that the 
President's request was for 750, despite all that analysis that 
said 733. So that is the type of rigorous analysis I think we 
need to get to a number, not just deciding we want to spend 
more money for the sake of spending more money. So I appreciate 
that.
    I want to get to some other people here, so I am going to 
yield to Mr. Thornberry.
    Mr. Thornberry. Let me just mention that I completely agree 
with the chairman, both parties are responsible for the 
irresponsible approach we took to funding defense. And I also 
agree with the chairman that changing decades of reprogramming 
practice is going to have difficult consequences for the whole 
government, but especially for the Department of Defense.
    Mr. Secretary, you heard me reference testimony that we and 
the Senate have repeatedly received from Secretary Mattis and 
also from General Dunford about the need for at least 3 to 5 
percent real growth through 2023, and that that figure was 
endorsed by the bipartisan national strategy commission. I 
don't recall that you have ever weighed in on what sort of 
topline growth. And there is lots of discussion underneath the 
top line. I am just talking about a top number. What sort of 
topline level is necessary for us to continue to repair 
readiness and also deal with the complex threats posed by 
Russia, China and others?
    Secretary Shanahan. Thank you, sir. You know, quite often, 
people will not kind of pick a number, they will look over time 
and say, you know, an aggregate, what should a number be or 
what should a trend be. But going back to Chairman Dunford's 
comments on rigor and analytics behind the way we have put 
together the National Defense Strategy, there are three trends 
that are very important that factor into the rate of growth. 
This is a real growth rate, so adjusted for inflation.
    First, the world continues to get more dangerous, and so 
that really manifests itself in troop strength. The second 
component is we are still recovering readiness. Those are, you 
know, real accounts that we have to restore and sustain. And 
probably the biggest driver for our growth is modernization. 
With great power competition and a focus on Russia and China, 
we haven't modernized in three decades. And the investment 
required to do that in parallel with those three other 
activities drive 3 to 5 percent real growth, if we want to do 
it in a timely manner. This is all about how much risk and how 
much time we want to, you know, assume. I don't think we have 
enough time to address these issues. That is why you need the 
greater growth.
    Mr. Thornberry. And so I guess the flip side is without 3 
to 5 percent real growth, we are taking increased risk. We 
cannot accomplish the three things that you talked about.
    Secretary Shanahan. Yeah, I think, you know, it is--
sometimes risk gets too broadly characterized. I look at the 
risk really into kind of two elements. You can take operational 
risk or risk on modernization. So the difference between the 
$700 billion number and the $733 billion was deciding where you 
want to take risks. So do we want to invest in modernization 
and have a smaller force or do we want to have a larger force 
to deal with the threats of the world and forgo some of the 
great power competition? I believe we have to do both. And when 
I think of the risks, those are the two we have to manage.
    Mr. Thornberry. General Dunford, I am not sure that you and 
the chairman were exactly communicating. When you talked about 
the analysis that y'all performed, did that result in a defense 
request--actually, it is national security request of $733 
billion? If so, where did the 3 to 5 percent real growth come 
from? Because $733 billion is not 3 percent real growth.
    General Dunford. Thank you, Ranking Member Thornberry, for 
allowing me to clarify. What I was speaking about is inside the 
budget, the piece that I provided recommendations on were the 
military capabilities inside the budget, those things that will 
directly contribute to joint warfighting. And in that area, I 
am confident of the analysis that we did, and I am confident 
that the budget reflects a 2.9 percent real growth in joint 
warfighting capabilities.
    Mr. Thornberry. Okay. So do you have any amendments or 
change to the testimony that you have given us before that 3 
percent real growth is necessary to stay even, 5 percent real 
growth is necessary to catch up on China, Russia, and readiness 
problems?
    General Dunford. I don't have any change to that at all. 
That is exactly what our analysis highlights.
    Mr. Thornberry. Okay. Thank you. I yield back.
    The Chairman. Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman. And thank you to all 
of you for joining us today. And particularly to General 
Dunford, it has been a privilege and really an honor to work 
with you over the years.
    I had a visit to the border and to our troops really a few 
days ago. And in light of that, I wanted to just address some 
of the issues that the chairman just mentioned, because I think 
there has been some confusion. And as you are talking about the 
need to really, you know, focus more on national security 
needs, of course, and readiness, you know, that raises the 
question of why we are not trying to really answer the issue 
that is in front of us when it comes to the personnel at the 
border. Because the situation that we are in right now is just 
not sustainable. I think we all acknowledge that.
    So having been on the border, we are about 3,000 short in 
terms of personnel there. And that makes the situation 
difficult, as you can well imagine, in part of what we are 
trying to deal with. Can you speak a little more specifically 
to what is happening, what just happened in terms of the 
transfer of money? And when is that going to be done? Is that 
done? Is it still in process?
    Secretary Shanahan. David, do you want to give the status 
of the reprogramming?
    Mr. Norquist. So the reprogramming went to the committee 
yesterday. And that is the notification of the intent to move 
the money from one account to another. It wouldn't be used 
until it was obligated onto a contract. Those, of course, take 
some amount of time. We want to make sure the committee is 
aware of this, so we are not trying to rush things. We just 
want to do it in deliberation. But that will move at the point 
when it is necessary to award another contract. We just want to 
make sure the committee has the notification that we are moving 
it from one to the other, and that----
    Mrs. Davis. Could you speak to the nature of those 
contracts as well?
    Mr. Norquist. Oh, those are construction contracts for 
border barriers.
    Mrs. Davis. Okay. And, as you said, you haven't started 
that process yet?
    Mr. Norquist. In terms of?
    Do you want to talk about the process or do you want me to? 
Okay.
    So just to go back through the overall process for 284. 
With the authority of the 284, we received a request for 
assistance from the Department of Homeland Security. It was 
received by the Secretary. He then tasked out to the Department 
to do our analysis, Joint Staff, general counsel, comptroller, 
and others, and to come back with identifying which of those 
construction projects are appropriate.
    One of the requirements is interdicting drug corridors. 
That analysis has been done. He has identified a set of 
projects to use those fundings for. And one of the steps before 
we can move the money is to send a notification to the 
committee. The date when the money literally changes colors 
inside the financial system depends, but it needs to be moved 
prior to any contract being awarded.
    Mrs. Davis. Okay. And you said that the money is coming 
from the unallocated end strength for the Army?
    Mr. Norquist. It is coming out of the military personnel 
account. It was provided for end-strength recruitment that 
didn't happen, and that is why it is available.
    Mrs. Davis. And is that something that goes forward? Are 
you not worried that that is going to make a difference down 
the line?
    Mr. Norquist. Well, that money is only available till 30 
September. So it is not one of those accounts that would carry 
over from one year to the next. So the amount of funding the 
Army needs in fiscal year 2020 is a number that is requested in 
the fiscal year 2020 budget and this committee would need to 
access separately.
    Mrs. Davis. But you spoke of making adjustments, though, 
down the line since you see that that is--you are not able to 
meet those targets.
    Mr. Norquist. The Army made adjustments, as the chairman 
asked earlier, in its 2020 budget reflecting the fact that it 
was not meeting its original 2019 target. So we are not asking 
for more money in 2020 that we would not be able to use again. 
We made sure we accounted for those concerns.
    Mrs. Davis. Okay. But we also know that, basically, 
Congress had denied President Trump's request for the dollars 
to build the border wall. And here we are. I know you said it 
was a difficult decision because it sets precedent. How are we 
going to address these issues?
    Mr. Norquist. So when we receive the, in this case, the 
request from DHS [Department of Homeland Security], we go 
through the evaluation process. We understand that there are 
other issues going on with the Congress. But this is the 
direction we received from the administration regarding the RFA 
[request for assistance] and this is how we evaluated and 
responded to that request for assistance.
    Mrs. Davis. Thank you. I have to say, I mean, I am very 
concerned that we are not able to meet our needs on the border 
in terms of our Border Patrol agents. But there are reasons for 
that, and we can deal with them in our budget and we can deal 
with them in a way that we respond to this issue.
    The Chairman. The gentlewoman's time has expired.
    Mrs. Davis. I am afraid we are not going to get to the 
real----
    The Chairman. Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    Mr. Secretary, we are asking the Department of Defense to 
do three major things that we don't usually ask them to do all 
at once. And the first is, is rebuild the military as a result 
of our readiness crisis. The second is to complete the 
modernization that is currently on our books. And the third is 
to look to the future, to already say that our near-peer 
adversaries are beginning to threaten our superiority and to 
plan for modernization.
    Now, we have given you in fiscal year 2018 and 2019 the 
beginnings of rebuilding the military. We are planning, of 
course, for 3 to 5 percent real growth. But we have a number of 
things to do.
    I want to associate my comments with the chairman on a 
number of areas in which we have bipartisan support. We have 
bipartisan support for the fact that our military budget should 
not be cannibalized for our border security needs. However, we 
have bipartisan disagreement on how to accomplish that, because 
I believe that Congress needs to fund closing the border, and 
certainly the House voted last year to do so.
    I agree with the chairman with respect to we have 
bipartisan support that OCO should not be used. And I 
appreciate his comments that hopefully we will have a 
bipartisan budget agreement for 2 years to see specs, because I 
know it has effects on your operations. And then thirdly, his 
statement that bipartisan support for an audit and making 
certain that the Department of Defense can effectively tell us 
how the funds are being used.
    But all those things, managing them, whether it is 
bipartisan support of constraints on you still translate to we 
need you to be able to effectuate modernization, rebuilding, 
and at the same time ending our crisis on operations.
    So I am ranking member on the Strategic Forces 
Subcommittee. I am going to ask you both, General Dunford and 
yourself, issues concerning nukes. We have had on the books 
nuclear modernization that is needed, not just because our 
adversaries are beginning to bypass us in their own 
modernization, but because of the aging inventory or aging 
capabilities.
    Mr. Secretary, even if Russia and China were not 
modernizing, could you please articulate why we have a need to 
modernize our nuclear weapons stockpile and that creates a 
current threat for our nuclear stockpile to remain an active 
deterrent? Mr. Secretary.
    Secretary Shanahan. Sure. The first most fundamental issue 
is obsolescence. You know, we look at the Minuteman III program 
at the end of the decade it simply times out. The bomber 
program, capacity and capability to deliver nuclear weapons. 
So, you know, first and foremost, this is really about a 
nuclear enterprise that has run its course in time. There is 
another very critical element to this and that is the nuclear--
the NC3 capability--command, control, and communication--which 
is even, you know, more complicated than just replacing the 
ballistic missiles.
    Mr. Chairman.
    Mr. Turner. General Dunford, if I could add as you are 
beginning to answer, could you please also add to your answer 
the issue of the triad and the issue that we have with the 
vulnerability as an effective deterrent? Because, you know, 
currently, obviously our subs have some ability to avoid 
detection. Tomorrow that could not be the case, and we would be 
in a very tough situation if we did not have the triad. 
General, could you explain that to us?
    General Dunford. Congressman, thanks. First, just to 
reinforce what the Secretary said, we use three adjectives to 
describe the nuclear enterprise: safe, reliable, and effective. 
And so your question was even if Russia and China weren't 
modernizing, which they are, we would still have to modernize 
to make sure that we had a safe, reliable, and effective 
nuclear deterrent. And a particular area of concern, again 
notwithstanding what the Chinese and Russians are doing right 
now, is the aging nuclear command, control, and communications 
system. So we absolutely would have had to get after that.
    Your question of triad is somewhat related. We have done 
two nuclear posture reviews since I have been the chairman. One 
during President Obama's administration, one during President 
Trump's administration. In both cases, we looked--people went 
into that with an open mind to see do we need to continue to 
maintain a triad to have an effective deterrent, and it was 
concluded that we needed to do that. Each leg of the triad has 
a unique capability, and it also complicates the adversary's 
ability to have a technological breakthrough that would 
undermine the credibility and the ability of our nuclear triad. 
So that is a big piece of it.
    You talked about the submarines specifically, so I will 
address that. That gives us the most secure, the most safe leg 
of the triad, a reliable second strike. If you look at the 
bomber, it is an option that can be recalled. And if you look 
at the ground-based element of the nuclear deterrent, it is an 
element that complicates the adversary's targeting. And so 
again, each of those has an operational role but it also, in 
the aggregate, prevents a technological breakthrough that would 
undermine the credibility of our deterrent.
    Mr. Turner. Thank you, General.
    Mr. Secretary, do we want Turkey in the F-35 program?
    Secretary Shanahan. We absolutely do. We need Turkey to buy 
the Patriot.
    Mr. Turner. Thank you.
    The Chairman. Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    Mr. Secretary, welcome before the committee in your current 
capacity. And, gentlemen, thank you all for your service and 
the work you are doing.
    Mr. Secretary, I am going to start with you, if I could. 
The National Defense Strategy focuses on great power 
competition and places less emphasis on countering violent 
extremist organizations. USSOCOM [U.S. Special Operations 
Command] has been primarily focused on counter violent 
extremist organization missions since 9/11, and geographic 
combatant commanders continue to have an insatiable appetite 
for SOF [special operations forces] and CT [counterterrorism] 
security cooperation and other missions. So I remain concerned 
about the demands placed on U.S. SOF and believe that we need 
to rethink our reliance on this force for every mission to 
ensure that it doesn't break from overreliance.
    So, Mr. Secretary, has the Department considered a major 
force restructure review of USSOCOM to underscore and in order 
to determine what it needs to look like to fulfill title 10 
core mission sets, maintain sustainable counterterrorism 
campaign, and also to ensure readiness for future conflict?
    Secretary Shanahan. Thank you, Congressman. The focus of 
the Department has not been in separate title 10 capability but 
in capacity. Do we have sufficient capacity? As you described, 
there is constant tension to address a variety of global 
missions given the violent extremist organizations that 
continue to propagate around the world.
    The chairman's role as the global integrator is to 
determine what is the risk balance that we need to maintain and 
what is the appropriate capacity. So our budget is really 
focused on do we have the right capacity, not necessarily the 
right structure, which is what I think you were alluding to.
    I would just ask the chairman maybe to comment on how he 
prepares his global campaign plans into sizing the 
counterterrorism effort.
    General Dunford. Congressman----
    Mr. Langevin. I am primarily concerned about getting----
    General Dunford. Yeah. I think we share your perspective 
about both the overuse of special operations capability and the 
need for special operations capability to be relevant across 
the range of military operations. And so with that in mind, 2 
years ago, it really is a force management issue. We adjusted 
deployment of special operations to be at a more sustainable 
rate. That does two things: One is addresses the human factors 
associated with overemployment, but the other is it allowed 
them then sufficient time to train for some of the high-end 
tasks associated with operations in the context of great power 
competition.
    Mr. Langevin. And how is the Department looking across the 
conventional forces to determine what missions and requirements 
could be filled by forces such as the Army Security Force 
Assistance Brigade versus SOF?
    General Dunford. No, Congressman, a great question. And 
that is part of what we call the global force management 
allocation process. So we look at all the requirements that are 
identified by the combatant commander and we try to come up 
with the right sourcing solution for the combatant commander's 
task. But completely informing specific allocation decisions is 
the need for us to get to a sustainable level of operational 
deployment.
    And again, over the last 2 years, we have pulled back the 
throttle, so to speak, to make sure that our forces are being 
employed at a more sustainable deployment to dwell rate.
    Mr. Langevin. I continue to remain concerned about 
overreliance on SOF, and we want to make sure we get that 
balance right.
    Let me turn to another topic, Mr. Secretary, climate 
change. The fiscal year 2018 NDAA [National Defense 
Authorization Act] contained a provision that I authored that 
was supported by bipartisan majorities in this committee and in 
the full House, and instructed each service to assess the top 
10 military installations likely to be affected by climate 
change over the next 20 years. Unfortunately, the report that 
was delivered in January ignored the clear instruction provided 
by law, failed to provide a ranking of installations, and not 
just looking at CONUS [continental United States] but 
worldwide, and lacked the methodological rigor required to 
adequately evaluate risks. In response to the concerns I 
raised, the Department came back yesterday with what I 
considered to be a half-baked rejoinder using the same 
methodology, a list of CONUS installations as the initial 
report.
    Secretary Shanahan, I repeatedly made myself available to 
clarify the intent behind the language and the statute. No one 
from the Department has taken me up on the offer. Do you agree 
that climate change poses a threat to our readiness, to our 
ability to achieve military objectives?
    The Chairman. And I am sorry, this is going to have to be a 
really quick answer because we are about out of time, but go 
ahead.
    Secretary Shanahan. I believe we need to address resilience 
in our operations and our design and how we build out our 
facilities.
    The Chairman. Thank you. And I should have said this at the 
beginning for the purpose of the witnesses. We try to keep it 
within 5 minutes, questions and answers, so try not to cut you 
off in mid-sentence if we can avoid it, but we want to make 
sure we get to as many people as possible.
    Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman. And I thank all of 
you-all for being here and for your service to our country.
    Secretary Shanahan, I appreciate you taking the lead in the 
effort you put into the development of a Space Force in the 
Department of Defense.
    The administration's Space Force proposal is very--the one 
that you sent over is very comprehensive. How would you 
prioritize the reform efforts within the DOD? Given the choice 
between a Space Force, U.S. Space Command, or Space Development 
Agency, which one do you think is most importantly pushed 
through today?
    Secretary Shanahan. I would push for standing up of the 
U.S. Space Command, because it is the easiest and most 
impactful, followed then by the Space Development Agency.
    Mr. Rogers. Excellent. We have heard it argued that 
creating a space-centric force is anti-joint, that it flies in 
the face of the effort to make things more joint within the 
Department over the last 30 years. I would argue that the 
fragmented leadership in space has equally existed for the past 
30 years. So my question is, how do you reconcile these two 
trains of thought? Does creating a Space Force go against the 
basic principles of jointness or how do you believe that such a 
move can contribute to a more joint-effective lethal 
warfighting in future conflicts.
    Secretary Shanahan. No, I think it is enormously powerful 
to be able to create jointness. Two areas--and the chairman 
brought this up particularly around a procurement and 
delivering capability. We have 10 different architectures going 
on in the Department in a variety of capabilities. Command and 
control is one of them. This is an opportunity to have 
commonality across the whole of the Department, something we 
have never been able to achieve. Space Force is that uniting 
construct. And then we also have a chance with the singular 
focus to drive much greater integration into the combatant 
commands.
    Mr. Rogers. Great. And can you elaborate on why you chose 
to put the Space Force in the Department of the Air Force as 
opposed to SOCOM-type structure?
    Secretary Shanahan. The Air Force is where the skill is for 
space. So, I mean, most fundamentally as we reshape and 
reconstruct, you want to be where the people are that have the 
background. This is really more about a structural change. The 
SOCOM model, very different, the types of equipment and 
capabilities they develop are, I will say, much less complex 
than what we put on orbit. Air Force inherently has the skill 
set to manage and lead the Space Force.
    Mr. Rogers. Great. Thank you.
    General Dunford, there has been a lot of debate over the 
value of the air, land, and sea legs of our nuclear triad. What 
is your best military advice as to how to balance these 
priorities?
    General Dunford. Congressman, just for clarification, 
balance the priorities across the triad or across the 
Department's portfolio----
    Mr. Rogers. Across the triad.
    General Dunford. Across the triad, Congressman, we have 
done, as you know, two nuclear posture reviews in the past 8 
years; in fact, two since I have been the chairman. And both of 
those have indicated the need to modernize the triad. So we 
have in the program right now a plan to modernize all three 
legs of the triad. And to do that in a way that allows us--and 
that will represent, at the peak, 7 percent of the Department's 
budget, which means 93 percent of the Department's budget will 
be spent on other things other than the most important element 
of our Department's mission, which is nuclear deterrence.
    Mr. Rogers. Great. And can you tell the committee, in your 
best military advice, would you advise the adoption of a no-
first-use policy?
    General Dunford. I would not recommend that. I think 
anything that simplifies an enemy's decisionmaking calculus 
would be a mistake.
    I am very comfortable with the policy that we have right 
now, which creates a degree of ambiguity. And I thought the way 
that it was articulated in our nuclear posture review is 
exactly right for the security environment that we find 
ourselves in right now.
    Mr. Rogers. Excellent. Thank you.
    I yield back.
    The Chairman. Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    Chairman Dunford, you mentioned, I think perhaps in 
response to Chairman Smith's comments, a series of assessments 
you developed, in your words, as baselines to determine the 
state of what the competitive advantage is of the joint force.
    I was curious, though, how we can articulate what a 
competitive advantage is by way of the Joint Military Net 
Assessment process if we haven't determined what competition is 
by way of investments and resourcing. And we have an idea of 
who we are competing against, but we don't seem to be 
necessarily choosing between all the tools that we can use 
versus the ones that won't be as successful in this 
competition.
    Can you talk a little bit more about the science versus the 
art of this competitive advantage and these choices you make in 
investment and resourcing?
    General Dunford. Oh, I absolutely can, Congressman.
    First, in terms of the what we are trying to do, we went 
into this to say that Russia and China are the benchmark 
against which we measure our capabilities, and against Russia 
and China we want to be able to do two fundamental things: One, 
we want to move forces into the theater to meet our alliance 
commitments and advance our national interests, whether it is 
in Eurasia or it is in the Pacific; and then we say we want to 
be able to operate freely across all domains--sea, air, land, 
space, and cyberspace.
    And so I think we actually have a fair degree of analytic 
rigor in looking at the challenges currently posed by China and 
Russia to our ability to project power and then achieve 
superiority in any of those domains at the time and place of 
our choosing to accomplish our mission.
    And so this is very much benchmarked against campaign 
outcomes against those two peer competitors across all domains 
in the context of meeting our alliance commitments and 
advancing our national security.
    So I would be happy to come up and spend more time talking 
to you about it. But, actually, I think we have a very clear 
target that we are shooting on. I think we have a very clear 
assessment of where we are today relative to where we need to 
be. And although we will refine the path along which we will 
maintain our competitive advantage in the future, I think we 
have a pretty clear sight picture of where we think we need to 
go over the next 5 to 7 years.
    Again, it will be refined by war-gaming and exercises and 
so forth, but I think we have a pretty clear vision now of the 
cardinal direction that we need to go on to be able to do the 
kinds of things we anticipate needing to do.
    Mr. Larsen. I think I would like to take you up on that 
offer----
    General Dunford. Sure.
    Mr. Larsen [continuing]. To come up and brief a little more 
on that.
    I want to poke at this a little bit as well, though, 
because we get testimony from the Department on the 
advancements in supercomputing and AI [artificial 
intelligence]. And so we have set up the JAIC [Joint Artificial 
Intelligence Center] and are moving forward.
    The RDT&E budget, I understand, is $9 billion more than 
last year--is that right?--but most of that increase is 
actually not in the base budget, it is in the base OCO budget. 
Is that true as well?
    Mr. Norquist, do you know that?
    Mr. Norquist. No, I don't believe that it is predominantly 
in the OCO budget. The things that generally moved are like 
weapons systems sustainment. I think the R&D--well, it is a 
spread account. I think----
    Mr. Larsen. Well, I think you are going to have to take a 
look--the increase, I think--go back and take a look at that, 
that it is in the base OCO as opposed to the base.
    So I am wondering, if these things are priorities, how you 
make a choice between putting them in the actual base budget 
versus this fake base that is in the OCO.
    Mr. Norquist. I would not assign any higher or lower 
priority to something in the base versus the OCO for base. We 
did it in a way----
    Mr. Larsen. Well, I would, because I have been here since 
the early 2000s and this is exactly the problem with OCO. It 
started off as the global war on terrorism, and we could 
actually define some things that were specific to GWOT. And 
what is happening now is exactly what we thought would happen, 
using the OCO budget for something that it is not supposed to 
be used for, things that are supposed to be in the base.
    So I guess I would disagree with you, although we sit in 
different spots in making these decisions. And now we are stuck 
with a budget that is not really based on a base. It is based 
on shoving things in an OCO budget because it is available, not 
because you are supposed to be doing it.
    Mr. Norquist. So we built it according, as was mentioned 
earlier, to the direction we were given. What we did to try and 
make it easier for the staff that we work with is to separate 
in the way the budget is submitted those things that we would 
think of as traditional OCO--direct war costs, enduring costs. 
And those are in the budgets listed separately from the OCO----
    Mr. Larsen. That is an OCO budget. That is what it is for.
    Mr. Norquist. Understood.
    Mr. Larsen. It doesn't seem like it.
    Thank you.
    The Chairman. Thank you, Mr. Larsen.
    Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    Gentlemen, thank you for your continued emphasis on 
auditing the books and records at the Department of Defense. It 
is a stunningly difficult task. And I know that the men and 
women who are actually trying to do that day in and day out 
must feel like Sisyphus each day, but it really is important. 
Good progress being made this past year.
    Please express to all of them my thanks, officially. I know 
I have spoken to some of you about it to continue to do that, 
but this is really important work for the men and women in 
uniform and the civilians who are trying to get this work done.
    Thank you for continuing to budget the requisite resources 
necessary in a period where budgeting is really difficult. So I 
thank you for that.
    Mr. Norquist, thank you for your attention to the notices 
of findings and recommendations, actually assigning specific 
people to those tasks and then holding them accountable for 
getting that done. That will pay dividends moving forward. So 
no real comment from you necessary, other than thank you for 
keeping up the good work, and we will finally get that done.
    The Army end strength was dropped, 480,000, down from 
487,500. Is that a reflection of the needs of the Army, or was 
that a reflection the Army's inability to recruit to that 
higher number? And if that is the case, can you talk to us 
about the drivers for why the Army can't meet its end strength 
from fiscal 2019?
    Secretary Shanahan. I will speak to the total number, the 
recruiting challenge, and what the Army is doing to address 
that.
    So it really is a shortfall in recruiting. The Army has now 
gone forth and--what David described earlier was, we did reset 
the top line to adjust for lowering the total end strength 
because we failed to recruit what we had projected.
    The Army has doubled down on changing where they are 
recruiting, how they are recruiting, so that they can start to 
recover growth in the end strength. It is several thousand in 
this budget.
    Chairman, I don't know if you have any comments on the 
specific recruiting and retention, but what we have seen is----
    Mr. Conaway. Are there drivers in the population they are 
trying to recruit from? Is it the economy? What is causing the 
shortfall?
    Secretary Shanahan. Yeah, the fundamental shortfall, it is 
a very competitive economy. I mean, we are all in this 
worldwide competition for talent. So, you know, fundamentally, 
it is a very competitive market. It is a good side of a strong 
economy.
    General Dunford. Congressman, I would add just one point. 
Only about 29 percent of the demographic from which we draw are 
physically, mentally, and psychologically capable of service. 
To put a finer point on it, just slightly over a quarter of the 
population from which we typically recruit are actually 
eligible for military service.
    That combined with the current environment we find 
ourselves now, a pretty competitive economic environment--it is 
always tough recruiting. It is particularly tough right now.
    And I think the Army's challenges are kind of a bellwether 
for the future without some adjustments. And I know all the 
service chiefs are looking very carefully at recruiting and 
retaining high-quality people as being a core mission for us.
    Secretary Shanahan. Of the 7,700 increase in end strength 
in this year's budget, 2,000 of those are Army.
    Mr. Conaway. Well, from where they wound up, yeah, I 
understand. But it is down from where the fiscal 2019 number 
was.
    Secretary Shanahan. Right.
    Mr. Conaway. Well, General Dunford, I know that it is not 
your job or the Department of Defense's job to look at why we 
have so few men and women who are physically and mentally 
capable of doing that, but I think our society does need to 
address that issue.
    And, then, appropriate attention being given to the impact 
the Army has on being short from what they would normally be if 
they had to stick with the, you know, the 487,500 that was 
authorized in 2019, the impact on the Army's ability to do what 
they need to do, I assume somebody is looking at that.
    The conversation about OCO. The budget cap is law, and that 
is what you are required to go to. Is that distracting, to have 
that artificial, unrealistic number in law that has no basis in 
any kind of buildup of where we ought to be hanging over your 
head? Is that the real driver for trying to adjust the OCO 
number to fit what the military needs of $750 billion?
    Secretary Shanahan. It hampers the way we budget. So if you 
look at how we budgeted last year and how we built the budget 
up this year, the underlying process is exactly the same, the 
strategy is exactly the same, how we put it together is exactly 
the same. How we presented it to you is different.
    Mr. Conaway. All right.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Mr. Cooper.
    Mr. Cooper. Thank you, Mr. Chairman. And thanks to each of 
the distinguished witnesses here today.
    Acting Secretary of Defense Shanahan, I would like to focus 
on you and on the space capabilities that we are anticipating 
having, whether you call that a force or a corps.
    First of all, I am assuming that the President's budget 
proposal is not written in stone. We are a coequal branch of 
government, and we, of course, have the right to change that, 
right?
    Secretary Shanahan. You do.
    Mr. Cooper. So if there are certain poison pills in that 
proposal, we have the right to remove those poison pills, 
right?
    Secretary Shanahan. I am not aware of any poison pills.
    Mr. Cooper. Well, things we might view as poison pills.
    Secretary Shanahan. Okay.
    Mr. Cooper. Mr. Secretary, I know that you are very 
familiar with the committee's prior work on a space corps and 
the fact that this committee had, at one point, a 60-to-1 vote 
in favor of a corps.
    Secretary Shanahan. Uh-huh.
    Mr. Cooper. So I heard your answer in response to my friend 
Mr. Rogers that the most important part of your proposal is the 
Space Command, that that is what we need to kind of lead the 
charge toward enhancing our space capabilities.
    Secretary Shanahan. Yeah.
    Mr. Cooper. Is that correct?
    Secretary Shanahan. Well, I answered the question, of the 
three pieces, which is the most important. I assume we are 
going to do all of it.
    Mr. Cooper. Uh-huh. Well, I would like to do all of it too, 
but we have to make sure we can navigate it through Congress.
    Secretary Shanahan. Right.
    Mr. Cooper. I am not asking you to judge this. I am going 
to give you my appraisal.
    It seems like that the proposal we received on our space 
capabilities is actually much closer to what this committee 
passed 2 years ago than it is to what had been mentioned in 
other press conferences.
    For example, when the Secretary of the Air Force gave a 
budget estimate of $13 billion to stand up a space capability, 
this proposal is $2 billion, which is much closer to Mr. 
Rogers' and my proposal, which was essentially to spend as 
little money as possible just to reorganize the Air Force.
    Secretary Shanahan. Uh-huh.
    Mr. Cooper. So that is my judgment, not yours.
    Secretary Shanahan. Uh-huh.
    Mr. Cooper. Another key judgment is this: We never called 
for a separate military department. We wanted it to be 
underneath the Air Force. And that, in fact, is what is in the 
latest proposal from the Pentagon. Some people make the Marine 
Corps analogy. That is why we called it a corps as opposed to a 
force. It is easier for people to understand, like the Marine 
Corps.
    Secretary Shanahan. Right.
    Mr. Cooper. Another key element is that we had already 
passed into law the fact that the new Space Command would be a 
subunified command, and now that you all are asking that it be 
upgraded to a full command. That shouldn't be a problem, it 
would seem to me.
    Secretary Shanahan. Right.
    Mr. Cooper. But in these various ways, both the keeping it 
under the Air Force, not spending much money, and in having a 
Space Command, we are pretty much in sync on these priorities, 
right?
    Secretary Shanahan. We are, very much so.
    Mr. Cooper. Well, I hope that we can work constructively 
together to smooth out any rough edges in the proposal and to 
keep things on track not only to pass this House but also pass 
the Senate. Because I certainly feel a lot of urgency in 
enhancing our space capabilities. And even in your 5-year 
transition approach, that is 5 years that we may or may not 
have vis-a-vis certain near-peer adversaries.
    Secretary Shanahan. Right. I fundamentally think we can go 
faster. And I appreciate your leadership, and Representative 
Turner was a catalyst to move more quickly.
    I think, to your earlier point, the basic elements are in 
place. I think the chairman would say we have too much 
bureaucracy and too much cost. In the areas where we should be 
taking cost out, I am feeling aligned.
    The capabilities we have really allow for growth. And if we 
had more time to go into how we have put together the proposal, 
technically we are aligned with the intelligence community, so 
down the road that integration can take place.
    We also are provisioned if we wanted to set up a separate 
department sometime long term. But the kernels to get this 
started are very sound, and I think we have a really good, 
strong proposal.
    Mr. Cooper. I see my time is about to expire. I thank you, 
Mr. Chairman.
    The Chairman. Thank you.
    Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Gentlemen, thanks so much for joining us today, and I 
appreciate your service.
    Acting Secretary Shanahan, I want to talk to you 
specifically about aircraft carriers. As you know, the 
President's plan has us retiring CVN 75, the USS Harry S. 
Truman, without going through the complex refueling. The Navy 
says that they need 12 carriers. Naval warfare doctrine says 12 
carriers to generate on station continuously and to surge.
    The question is, has there been some change in naval 
warfare doctrine that says that now going to nine, where we 
won't get back up above that until 2027? Is there a change in 
that doctrine? And can we generate carrier presence 
continuously and surge capacity with only nine?
    Second question is, last Thursday you told Senator Inhofe 
that the retirement of the USS Truman was offset by the two-
carrier block buy. We understand that the early retirement 
saves $3.4 billion. And while this might be true, you are 
losing 25 years of tested and capable presence with that 
aircraft carrier by retiring it early. And we have invested a 
lot of money in that carrier.
    Secretary Shanahan. Right.
    Mr. Wittman. You have also already spent $500 million in 
purchasing reactor cores to refuel that carrier. Reactor cores 
don't work in other submarines. They only work in carriers, and 
they are designed specifically for the carrier at hand.
    So the question is, does it make sense to retire this 
carrier early? And is the $3.4 billion in savings worth the 25 
years of loss of presence that we will have by retiring this 
carrier early?
    Secretary Shanahan. So my answer to your question there is, 
I think it is a strategic choice we need to make. And this was 
a difficult choice. We spent a year making this decision. And 
under no certain terms, aircraft carriers are vital now and 
vital into the future.
    The Truman decision was made in concert with the two-
carrier buy. We looked at how to increase lethality. There 
isn't a drawdown of capacity until mid-2020, so it is not like 
this is an irreversible decision, but we took the savings to 
invest in the future force. And all of this was very mindful of 
the industrial base. So the other consideration here was, how 
do we invest in the supply chain, and there is actually growth 
in employment.
    We can change these decisions, but I think as the Navy 
updates its 355-ship strategy and looks at its force structure, 
I think we may--back to your original point around doctrine, 
let's see what they come back with.
    Mr. Wittman. The question still is, does nine allow us to 
generate continuously on station and in surge?
    Secretary Shanahan. Yeah.
    Chairman, I am going to ask you to answer that.
    General Dunford. Congressman, it would be difficult to do 
that.
    Mr. Wittman. Let me follow up on that, Chairman Dunford. 
You know, every combatant commander that I talk to indicates 
that they are not sufficiently supported by the Navy based on 
their plans. And, listen, I understand their plans always 
request a lot and that we are able to give a finite amount.
    But I know that, in carrier force structure, when it comes 
to being able to project power, that is the framework and the 
strength of our ability to project forces around the world and 
to project presence around the world.
    I wanted to know, in your professional judgment, what would 
the net operational impact for the Navy be of deactivating CVN 
75 and a carrier air wing by fiscal year 2024?
    General Dunford. Congressman, an important assumption that 
if it doesn't obtain we will come back to that reversibility-
of-the-decision issue--an important assumption is that the 
money that was saved by not refueling the Truman would be used 
to develop new ways of conducting maritime strike. So when we 
look at the carrier, we are looking at it from a maritime 
strike capability. And a more diverse way of providing maritime 
strike is among the initiatives inside the Department.
    So, from a force management perspective and a joint 
warfighting perspective, if the path of capability development 
for a new way of delivering maritime strike in conjunction with 
the carriers that we have in place today and will have in place 
in the future, if that assumption doesn't obtain, then we will 
have to go back to the Secretary and have a conversation about 
reversibility of the decision. Because new programs combined 
with the programs of record today won't meet our aggregate 
maritime strike capability by the mid-2020s.
    Mr. Wittman. And, listen, I am all for those unmanned 
systems, but it is a big leap, where we are only with Sea 
Hunter in its initial trials, to say we are going to completely 
replace a carrier that has that presence without having a 
bridge to those unmanned systems.
    The Chairman. The gentleman's time has expired.
    Mr. Wittman. Thank you.
    The Chairman. Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman. And, again, thank 
you to the witnesses.
    And particularly, General Dunford, you have been a rock-
solid leader straddling two administrations and have really 
just done an outstanding job. And, again, thank you for your 
amazing service.
    Mr. Chairman, you know, based on your conversations 
regarding the reprogramming decision yesterday, I would 
actually ask that the letter date-stamped March 25 from the 
Acting Secretary transferring a billion dollars out of the 
Army's account to the Department of Homeland Security be 
entered for the record.
    The Chairman. Without objection, so ordered.
    [The information referred to was not available at the time 
of printing.]
    Mr. Courtney. Thank you. And I would just note that that 
transmittal actually pretty much almost exactly coincided with 
the submission to Congress of unfunded priorities from the 
Pentagon in terms of the, again, 2020 budget.
    Mr. Norquist, could you tell us what is the total amount of 
unfunded priorities that came over from the Pentagon?
    Mr. Norquist. I don't have the total yet from all of the 
services, sir.
    Mr. Courtney. Okay. Well, I can help you with that. It 
actually was $10.4 billion. And, actually, $2.3 billion came 
from the Army.
    So, you know, I would just say, you almost get whiplash 
around here trying to sort of follow the back-and-forth coming 
out of the Department. I mean, exactly at the same time that a 
reprogramming decision was made, again, without consultation 
from Congress--which, again, as far as I am concerned, is a 
Rubicon moment in terms of just the comedy between the two 
branches that has operated for decades--we are also hearing 
from the Army that they actually, by the way, need an 
additional $2.3 billion for the 2020 budget for unfunded 
priorities.
    And it just, again, really undermines the confidence in 
terms of just the messages that are coming over to us, you 
know, from the Department of Defense, which, again, are really 
now in a brave new world of basically treating the defense 
committees as nonexistent in terms of reprogramming decisions.
    So, again, just to follow up on Mr. Wittman's questions for 
a moment, General Dunford, Admiral Richardson and the Navy are 
actually working on an updated force structure assessment [FSA] 
for the shipbuilding plan, isn't that correct?
    General Dunford. It is correct, Congressman.
    Mr. Courtney. Do you know what is going to be in that FSA 
regarding the carrier fleet?
    General Dunford. I don't know what is going to be in the 
FSA.
    Mr. Courtney. And as much as we are trying on Seapower to 
find out the answer to those kinds of questions, we don't know 
either. And it just seems, to me, really premature for the 
Department to, again, come forward with a decommissioning or 
mothballing of the Truman when we still don't even really know 
what the revised force structure assessment looks like.
    As my friend from Virginia pointed out, we have already got 
about $500 million in sunk costs for the reactors, which, 
according to the Navy, are going to be, quote, ``put on a 
shelf,'' which, again, is a shelf that we really can't reach up 
for for the new Ford-class program. It is a different kind of 
reactor.
    So the savings that you are projecting in the 2020 budget, 
it is $17 million for this year. Is that correct?
    Mr. Norquist. Yes, it is $17 million.
    Mr. Courtney. Okay. So we are dealing with a decision which 
is premature in terms of being out of sequence with the Navy's 
updated force structure assessment. We have $500 million in 
sunk costs that are already out the door. And we are going to 
save $17 million with this request in the 2020 budget. Again, 
that really doesn't add up to a very good business case in 
terms of, you know, the very tough decisions that we are going 
to have to make.
    As the chairman points out, you know, the figure, the top-
line number that came over is decoupled from a deal on the 
spending caps. I think it is a pretty safe bet that the top 
line for defense is going to come down when the two chambers 
actually do what should have been done over the last 3 months, 
which was to negotiate a sequestration agreement with the 
administration. They, as far as I am concerned, completely 
abdicated on what everybody realizes must happen if we are 
going to move forward with a budget.
    And so we have difficult budget choices to make ahead. And, 
you know, being left with a business case that just, again, 
doesn't help us with getting to that point is just going to be 
a very tough sell, let's just say, over at the Seapower 
committee.
    I don't know how the clock is doing here, but----
    The Chairman. You have about 30 seconds left.
    Mr. Courtney. Okay.
    The Chairman. And there is one clock over here that is 
working. They all shut down here.
    Mr. Courtney. Okay.
    Mr. Shanahan, again, just real quick for the record, your 
budget endorses planned procurement of three Virginia-class 
submarines in this year's budget. Is that correct?
    Secretary Shanahan. That is correct.
    Mr. Courtney. Yep. Thank you. I yield back.
    The Chairman. Thank you.
    We will endeavor to get--well, there we go. The clocks are 
working again.
    Mrs. Hartzler.
    Mrs. Hartzler. Thank you very much.
    Thank you, gentlemen, for your service and for your 
leadership for our national defense.
    I appreciate the focus on strategic competitors in the 
National Defense Strategy and specifically China. I want to 
start off asking some questions about that, because, as we 
know, they have utilized economic, military, and political 
influence to extend their reach and shift the balance of power 
across the globe.
    And Beijing's whole-of-government efforts are particularly 
apparent in areas like the Indo-Pacific, but they can be seen 
in places like South America, Europe, even the Arctic. So 
countering their influence and actions requires a whole-of-
government strategy of our own.
    And so my first question is, who is leading the U.S. whole-
of-government response effort, and where does the Defense 
Department fit into this plan?
    Secretary Shanahan. So I would say, fundamentally, I feel 
like the Department of Defense is leading significantly in the 
whole of government, but I have strong partnership with the 
Secretary of Commerce, Secretary of the Treasury, and Secretary 
of State. So we continuously discuss this subject, and we have 
activities that are coordinated between our departments. And I 
would have to say--and not overlook the Department of Justice 
as we work on critical infrastructure.
    Mrs. Hartzler. So are you saying, then, you are the main 
person in the lead?
    Secretary Shanahan. I wouldn't say that, by definition, I 
have received some, you know, nomination to that role, but by 
virtue of having more resources and capability than a lot of 
those other departments, we have been an instigator, if you 
will, of collaboration and working across as a whole of 
government.
    Mrs. Hartzler. Do you get together regularly with your 
counterparts and sit down and discuss this, okay, State 
Department, why don't you do this, Treasury Department, let's 
do this?
    Secretary Shanahan. Weekly.
    Mrs. Hartzler. Weekly.
    Secretary Shanahan. Weekly.
    Mrs. Hartzler. Very good. Can you give some more detail 
about exactly what the Defense Department's response is to 
China in this part of the plan?
    Secretary Shanahan. We will let the chairman start, and 
then I want to pick up on especially some of the economic, 
cyber.
    Chairman.
    General Dunford. Yeah, Congresswoman, I will just talk 
about posture, military posture, for example. And I think as 
you know, we have about two-thirds of the United States Air 
Force, two-thirds of the Navy, a significant part of the Army 
and the Marine Corps that are in the Pacific. We have also 
fielded our most modern capabilities in the Pacific--the P-8, 
the F-35, the LCS [littoral combat ship], and so forth.
    But the real important piece, I think, the most important 
military dimension of our strategy out there is developing a 
stronger network of allies and partners. And I think our 
presence in the region, the deterrence that we bring, our 
ability and our physical manifestation of our ability to meet 
our alliance commitments are all a really important part of our 
achieving a proper balance with China and the Pacific.
    Mrs. Hartzler. Very good.
    And as I have had opportunity to travel in the Pacific area 
and visit recently with the ambassadors from Australia and New 
Zealand, I would just continue to say how important it is that 
we be very strategic and purposeful in those relationships, 
because China is being very purposeful and very aggressive and 
very assertive in developing those relationships, and it is 
very key.
    I want to shift to the fighter force, Secretary. And, in 
your written testimony, you have discussed the $57 billion 
allocated to increase the procurement and the modernization of 
our fighter force. And you have noted that we need a balanced 
mix of fourth- and fifth-generation aircraft to effectively 
meet the entire spectrum of National Defense Strategy missions, 
and the Air Force needs to procure about 72 fighters each year.
    So what is the appropriate balance between fourth- and 
fifth-generation aircraft? And why do we need to address both 
in the requirements of the National Defense Strategy?
    Secretary Shanahan. Yes. Thank you for that question.
    You know, my role is to make sure that we are developing 
responses and a force structure to the right campaigns. That is 
why our focus on Russia and China is so important.
    Each year, we go through a new evaluation of what the 
tactical air mix should be--fourth gen, fifth generation. And 
of that mix, there are three parties that really provide an 
input. Probably the most significant input comes from the Joint 
Staff as they conduct a mission analysis for, particularly, 
China and Russia.
    And I would ask the chairman to walk us through how they go 
about making that recommendation.
    General Dunford. Congresswoman, what we did--today, just to 
talk about mix, so today we have 20 percent fifth generation, 
80 percent fourth generation. That is what is in our inventory 
today. If you look at 2040, it will be 80 percent fifth 
generation, 20 percent fourth generation.
    And so, along the way, we have to achieve the right balance 
based on capability. That is the ability to penetrate and the 
information capability represented by the F-35----
    The Chairman. I am sorry. The gentlelady's time has 
expired, and I think we got the gist there.
    Mr. Norcross.
    Mrs. Hartzler. Thank you.
    Mr. Norcross. Thank you, Chairman.
    And thank our witnesses for coming today, particularly, 
General Dunford, for your years of service.
    But I will follow up where my ranking member just left off, 
between fourth and fifth generations. We have sat in these 
chairs for at least the last 4 years and almost exclusively 
heard fifth generation, fifth generation, fifth generation.
    The Center for Strategic and Budgetary Assessments in a 
recently mandated study concluded the F-15X will not be able to 
survive a more contested battle space, i.e., particularly China 
and Russia. So we are trying to understand the request that we 
are hearing for the new F-15 versus what we have heard up to 
this date, that F-35, the fifth generation.
    What has changed, General, in the last 9 to 12 months to 
reverse what we have heard for the last 4 years?
    General Dunford. First, Congressman, with regard to the 
primary platform the Department needs being the F-35, nothing 
has changed.
    We continue to do analysis in war-gaming, and in the most 
recent what we call competitive area of studies, we took a look 
at what would be the optimal mix of fourth- and fifth-
generation aircraft--fifth generation uniquely able to 
penetrate, fourth generation providing some capacity. So we are 
balancing that capability/capacity piece.
    It is more complicated than just the mix of aircraft with 
regard to the F-15. One of the issues is the F-15C is aging 
out. And so there was a cost variable in place. There was also 
a partner-with-other-nations piece in place with the decision 
to get the F-15.
    But it is all in the context of the migration from that 20 
percent fifth generation today, 80 percent fifth generation 
tomorrow, in a path of development along the way that allows us 
to have a right mix of aircraft to accomplish the mission 
within the top line that we have been given.
    And I think what we have seen in our competitive area 
studies is that the combination of the fifth-generation 
capability with the capacity of the fourth generation was the 
right mix. That was agnostic of platforms. And that study was 
actually done before the Air Force made the specific F-15 
decision, which added those additional variables when they 
decided on the F-15EX.
    Mr. Norcross. So it is the generation of the fourth 
generation, the C model, which is deteriorating faster? That 
has happened in the last 9 to 12 months that changed the 
decision from the last 4 years?
    General Dunford. That is right. When we knew that the C was 
going to age out earlier than we would have wanted it to age 
out, we had to come up with a replacement. And when we looked 
at all of those variables--capability of the platform, capacity 
of the force as a whole, cost over time, as well as impacts on 
the industrial base as it pertains to us and our partners--that 
is how that decision was made.
    But I, again, would highlight that there were probably four 
or five interdependent variables that led to that specific 
material solution.
    Mr. Norcross. So you bring up capacity, and our 
understanding is that the F-35 would have the capacity, as it 
has in this year, to increase its volume this year and future 
years to make up for what you talked about, the----
    General Dunford. Sure. Capacity is twofold, Congressman. 
Thanks. One is ability to carry ordnance, and that is the one 
you alluded to. The other issue of capacity is the numbers of 
platforms that we have and we are able to field at any given 
time. And so it is really the latter with regard to the F-15 
that will be sustained, the capacity for aircraft will be 
sustained by the F-15 decision.
    Mr. Norcross. How much of the operating cost of the F-35 
factors into this? Because plane for plane, they are roughly 
the equivalent, at least in this year's model.
    General Dunford. Yeah, I think if you could buy all F-35s, 
you might do that. This, again, was looking out over time at 
the resources that will be available. And there is not much 
difference in the procurement cost, but there is about a 50 
percent difference in the operations and sustainment cost 
between the F-15 and the F-35. And the F-15 also has a pretty 
significant shelf life available as well.
    So, again, it was the combination of the platforms that we 
made a decision on.
    Mr. Norcross. Are we expecting those operational costs for 
the F-35 to decrease?
    General Dunford. That has been a singular focus of the 
Secretary and the team over the last couple of years, working 
with Lockheed Martin. They absolutely have to decrease in order 
for us to have a balanced force in the future. And there has 
been some progress, but we believe more progress needs to be 
made in reducing the operation and sustainment costs of the F-
35. There is no question about it.
    Mr. Norcross. Well, we are going to have more discussion of 
these. And certainly the impact of Turkey and the missiles that 
they are looking to purchase is going to all factor into this. 
Thank you for your testimony.
    I yield back.
    The Chairman. Thank you.
    Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    And, gentlemen, getting back to--I think it was Stephen 
Covey who said ``keeping the main thing the main thing.'' In 
just under 6 months past, Hurricane Michael hit the coast. 
Obviously, you have a tremendous amount of damage from that 
storm, as does my congressional district. Congress has yet to 
be able to pass a disaster bill for that region.
    And in just over 6 months, Secretary Shanahan, you will be 
responsible for executing a Department of Defense at the 
sequester caps if there is not some type of agreement made. By 
my calculation, that is somewhere around 60 legislative days 
between now and then.
    So my question is, if you had to execute a budget at the 
sequester caps, what would the impact of that be?
    Secretary Shanahan. Well, then it would be very difficult 
to modernize, because we are not going to walk away from our 
operations. So, you know, essentially, the impact is to 
modernization. I mean, in the most simple, generalized terms, I 
mean, if you had to trade for one thing. We are not going to, 
you know, drop our commitment to operations, so we forgo our 
future. I mean, that is the big risk.
    Mr. Scott. General Dunford, from an operational standpoint, 
what is the difference in us adopting an appropriation measure 
for you, say, September 1 instead of October 1?
    General Dunford. To make sure I understand the question, 
Congressman, you are saying if we did not go into the fiscal 
year with a budget?
    Mr. Scott. My question--yes, sir.
    General Dunford. Oh, I see what you are saying. If we have 
the agreement in place.
    Mr. Scott. If we can give you your budget 30 days prior to 
the beginning of the fiscal year so that you know what you have 
to execute with, what would happen with the efficiency of the 
operations at the Department?
    General Dunford. You know, Congressman, I am glad you asked 
the question. So, going back to my days as the Assistant 
Commandant, I have been in and out of this now for more than a 
decade dealing with this issue. And I would tell you that, for 
us, collectively, one of the most inefficient things we do is 
have late budgets. It doesn't allow for the proper planning and 
being good stewards of the government's resources.
    So, in order for us to really deliver capability and, at 
the end of the day, campaign outcome within the top line we 
have been given, it requires us to prioritize and allocate 
resources very deliberately. And budget instability and 
unpredictability don't allow us to do that optimally. And it 
wastes the government--it wastes taxpayer dollars.
    Mr. Scott. I am concerned about what it does to morale, as 
well, for the families and men and women that are actually in 
combat. It gives the impression that we in Congress do not 
care.
    So I would just hope that over the next couple of weeks 
that we are able to come to some type of a caps agreement 
between the House, the Senate, and the Presidency--obviously, 
it requires a bipartisan agreement--so that we are able to 
build a National Defense Authorization Act to whatever the 
agreement is and get the appropriation measures done sooner 
rather than later.
    I have one specific question for Secretary Shanahan.
    Army end strength, the request is 7,500 lower than the 
fiscal year 2019 authorization, but the funding request is 
increased by almost $1.3 billion. Can you explain this 
difference?
    Secretary Shanahan. I believe the fundamental difference is 
the 3.1 percent pay raise.
    Mr. Scott. Did the Department request the pay raise at that 
level, the 3.1 percent?
    Secretary Shanahan. Yes, we did. Yes, we did.
    Mr. Scott. You did request that at that level. Okay.
    Gentlemen, thank you for your service. I hope that over the 
next couple of weeks we are able to get to some type of 
agreement so that we are able to get an appropriation measure 
passed for you prior to the beginning of the fiscal year.
    Secretary Shanahan. Great. Thank you.
    Mr. Scott. With that, I yield the remainder of my time.
    The Chairman. Thank you.
    Mr. Gallego.
    Mr. Gallego. Thank you, Mr. Chairman.
    Acting Secretary Shanahan, a number of officials have 
appeared before this committee and have said the decision on 
reprimands and awards related to the Niger raid debacle rests 
with you.
    When Secretary Mattis resigned late last year, we 
understood that he was furious at the initial recommendation to 
place blame on junior officers, allowing more senior officers 
to escape responsibility.
    When will you make a decision about these reprimands and 
awards?
    Secretary Shanahan. Congressman, when I came into this 
role----
    Mr. Gallego. Just answer the question. When will you make 
the decision? That is a simple----
    Secretary Shanahan. Soon.
    Mr. Gallego. What is ``soon''?
    Secretary Shanahan. I have----
    Mr. Gallego. What is ``soon''? What do you define as 
``soon''?
    Secretary Shanahan. I was going to explain.
    Mr. Gallego. Okay. Go ahead.
    Secretary Shanahan. Okay. When I came into this role, the 
recommendation was brought to me that Secretary Mattis had--he 
had convened a review, and that recommendation was brought to 
me. I did not find that sufficient, so I have convened my own 
review so I can ensure, from top to bottom, there is the 
appropriate accountability.
    I do not know when that will be complete, but I have to 
assume that much of the work that has been done to date can be 
used. So by saying ``soon,'' I am not trying to mislead you----
    Mr. Gallego. Okay. So just to be clear, you will be issuing 
a report. I want to--or you will be issuing it out. And part of 
that is, we are going to assure that it is not just going to be 
placing blame on junior officers. Because what it seems to me 
is that we are going to place blame on junior officers, and we 
are letting colonels and general officers just get off the 
hook----
    Secretary Shanahan. Right.
    Mr. Gallego [continuing]. For this debacle.
    Secretary Shanahan. Right.
    Mr. Gallego. I hope that is going to be part of this.
    Secretary Shanahan. That is the reason--the fundamental 
reason that I have done this is for every person between the 
boots on the ground to the most senior position I want a direct 
accounting.
    Mr. Gallego. Okay. And just to kind of put a more fine 
point to this, last year, the NDAA required a report containing 
a list of all recommendations implemented following the raid. 
It hasn't been done. It is overdue.
    When will I receive that? When will this committee receive 
that?
    Secretary Shanahan. I will take that for the record.
    [The information referred to was not available at the time 
of printing.]
    Mr. Gallego. Okay. And just, you know, more for the record, 
because it does concern me that if I don't ask these questions 
we don't get any answers. You know, we consistently have this 
problem where I am asking about Niger, what happened there, 
what should be the lessons we learn from it. This committee has 
not used subpoena power in quite some time, but if this 
continues to be the case, that we are having to go back and 
forth, that I have to keep asking you for the information, I 
will be pushing for that.
    These families, the American public deserve to know exactly 
what happened. And the junior officers that are being 
reprimanded right now should know that there is going to be 
equal reprimands especially for general officers, should they 
have done anything wrong.
    Moving on, last night, the committee received a copy of 
your letter to DHS Secretary Nielsen approving support of up to 
$1 billion in projects at Yuma and El Paso. In your letter, you 
say the DHS request meets the statutory requirements of 10 
U.S.C. 284, noting DHS has identified each project area as a 
drug smuggling corridor.
    Okay, question: Did you just take DHS at its words that 
these areas met such criteria, or did you actually do research 
or your staff do research to actually meet that criteria?
    Secretary Shanahan. We did research, but, in addition, 
after the national emergency was declared, Chairman Dunford and 
I went down to El Paso and walked the areas where the 284 money 
will be applied and spoke with CBP [Customs and Border Patrol] 
personnel like Aaron Hull, who is the sector chief--I think 
that is Sector 9.
    Mr. Gallego. Great. And what kind of information or 
documentation did they provide for you to support this 
conclusion?
    Secretary Shanahan. David, do you want to answer that?
    Yeah, we will have to----
    Mr. Gallego. Okay. No problem.
    Secretary Shanahan. Yeah.
    Mr. Gallego. Did you or the DOD do any analysis or 
verification of this information?
    Secretary Shanahan. Chairman.
    General Dunford. Congressman, we went physically--just to 
make sure we are not talking past each other, we went 
physically to the areas where the infrastructure is proposed to 
see the need----
    Mr. Gallego. Well, General, I am glad that you went and 
physically saw it, but, you know, there also needs to be other 
conclusive study that you could do besides just physically 
seeing. I am from a border State. I go to the border all the 
time. But there should actually be other information that is 
gathered.
    General Dunford. Well, there is. There is.
    Mr. Gallego. Okay. So that was--you used that to make this 
determination.
    General Dunford. We went down--we had the information from 
Department of Homeland Security on the challenges they face in 
the specific areas wherein those challenges occur.
    Mr. Gallego. Great.
    General Dunford. And then the infrastructure is tailored to 
the specific geographic area and the threat that exists within 
that geographic area.
    We had that information before we went down to physically 
see what we had read about before we went down to the border.
    Mr. Gallego. Great. I really appreciate that we have that 
information--that you have that information. And, also, I would 
like for you to share that information and all the analysis and 
all the detail with this committee so we could see where the 
basis of this argument came from.
    With that, I yield back my time.
    The Chairman. Thank you.
    Mr. Byrne.
    Mr. Byrne. Thank you, Mr. Chairman.
    General Dunford, let me just join with the other people who 
have said that we are very grateful to you for your service to 
your country. And I want to thank you particularly for your 
service as chairman. You have been a great partner with those 
of us on the committee, and I deeply appreciate what you have 
done in conjunction with us.
    I would like to go back to your colloquy with Mr. 
Thornberry to clarify one point. You mentioned the detailed 
analysis behind your assessment of the 3 to 5 percent real 
growth requirement and that this budget represents 2.9 percent 
growth.
    Now, as to 3 to 5 percent, is that the minimum amount the 
force needs to accomplish the missions we ask of them?
    Secretary Shanahan. It is. It is, Congressman. When we say 
3 to 5 percent, that is to maintain the current competitive 
advantage--again, the margin has eroded over time--slightly 
increase our competitive advantage over time.
    Obviously, more resources would result in a more decisive 
competitive advantage, but we actually identified that as the 
minimum necessary to make sure we could do what must be done by 
2025.
    Mr. Byrne. The reason I wanted that clarification is, when 
we get into budget discussions, a lot of times, we start 
talking about wants and needs. And we are just trying to make 
sure, when we tell our colleagues that this is a need, that 
this is not a want. You are telling us this is the minimum.
    General Dunford. Congressman, I am.
    And, again, I think it is important for the members of the 
committee to know when we say ``competitive advantage'' what we 
mean. So I am talking about our ability to project power in the 
context of the threat posed by either Russia or China in Europe 
or the Pacific, as the case may be. And I am also talking about 
our ability to do what must be done on land, air, sea, space, 
and cyberspace.
    So when we looked at the aggregate capabilities of both 
Russia and China and we looked at the capabilities we needed to 
develop over time, we based the figure not on math, we based 
the figure on the capabilities we needed in the projection of 
what investment would be necessary in order for us to field 
those capabilities.
    Mr. Byrne. All right. Thank you for that clarification.
    Mr. Secretary, I wanted to thank you for all the support 
you have given to the space-based aspects of missile defense. 
That is vitally important not only to ballistic missile defense 
but also to hypersonic defense, which all of us are becoming 
more concerned about.
    I am confused, though, by the fact that Congress added more 
money last year for the space sensor layer to help MDA [Missile 
Defense Agency] meet their hypersonic defense requirements, yet 
the proposed budget zeroes that out.
    Apparently, part of the space sensor layer will be housed 
in the new Space Development Agency that was established 3 
weeks ago, but it doesn't have a dedicated funding line for 
this project. That seems to run counter to congressional intent 
but, more importantly, displays a lack of priority to a program 
that most of us feel we desperately need to be able to defend 
against Russian and Chinese hypersonics.
    Maybe I have misunderstood this, so if you would please 
explain the reasoning behind the budget request.
    Secretary Shanahan. I will have to go back and look at 
where the funding line is, but Dr. Griffin and I have made 
funding of the space layer for tracking of hypersonics a 
priority.
    So, David, I don't know if you know where that funding----
    Mr. Byrne. Yeah, if Mr. Norquist can answer, that would be 
helpful.
    Mr. Norquist. Well, to answer at the level you need, we 
will take that for the record.
    But there are things related to missile defense that are, 
as you point out, are now going to be part of the Space 
Development Agency. The one you are talking about is one of 
them. It may not be broken out in a way that makes it as clear, 
so let's take that for the record and make sure we get you a 
complete answer, sir.
    Mr. Byrne. If you would, please. And once you make a 
determination about that, would you let the committee know?
    Mr. Norquist. Yes, sir.
    [The information referred to was not available at the time 
of printing.]
    Mr. Byrne. That would be very helpful. Thank you.
    Mr. Secretary, the mission of the Space Development Agency 
[SDA] is to collaborate with the joint warfighter to define the 
next-generation space architecture, foster growth in the space 
industrial base, and leverage commercial allied space 
technology.
    I support all those priorities, but they seem like 
acquisition authorities. Why is housing SDA under research and 
engineering the right place?
    Secretary Shanahan. It is a temporary home. So, as the 
Space Force proposal evolves--you know, part of that was to get 
leadership of Dr. Griffin engaged. Dr. Griffin has a 
significant track record in space, and----
    Mr. Byrne. I am a big supporter of Dr. Griffin.
    Secretary Shanahan. Right. Right.
    Mr. Byrne. He is superb for that position.
    Secretary Shanahan. Right. Right.
    So, you know, a couple things. Not only does he have 
significant experience in space, but his work initially with 
SDIO [Strategic Defense Initiative Organization] in how the 
Missile Defense Agency was stood up so they had the right 
acquisition authorities and the ability to do development--this 
is not about doing acquisition. This is really about 
development. So think of him as overseeing the creation of the 
right structure.
    This is really about the balance of putting appropriate 
authorities in place. If we get the wrong mix, it is just going 
to slow us down. So we are really relying on his experience and 
judgment to help us put the right pieces in place. That is how 
I look at it.
    Mr. Byrne. Thank you.
    I yield back.
    The Chairman. Thank you.
    Mr. Moulton.
    Mr. Moulton. Thank you, Mr. Chairman.
    It is getting to be a familiar tune, but I want to thank 
all of you for your service and especially Chairman Dunford. I 
am honored to have you there, as a fellow Marine, and we are 
very lucky as a country that you continue to serve. And I, too, 
share the hope, a bipartisan hope, on this committee that you 
would find some way to continue that service past your due 
time.
    Mr. Acting Secretary, I would like to start with you. China 
and Russia have made major advancements in their conventional 
capability since the Cold War and significant investments in 
emerging technologies like hypersonics, AI, and cyber. It is 
one of the things I really like about your budget, that you are 
investing in these things as well.
    Where do we have the strongest advantage against our 
competitors right now?
    Secretary Shanahan. I think probably at the most basic 
level I would say undersea.
    Mr. Moulton. And so what are we doing to ensure we maintain 
that advantage?
    Secretary Shanahan. Well, we continue to invest. You know, 
a lot of the things that are very unique and special we won't 
be able to talk about in here, but we are investing in very 
significant capabilities.
    I think where, you know, I would go with the critical 
capabilities that we need to make in terms of really 
leveraging--you know, the chairman talks about our competitive 
advantage. Space, cyber, and missiles are where we can enable a 
significant gain, not just in terms of capability but 
deterrence.
    Mr. Moulton. Right. So I take your point, Mr. Acting 
Secretary, which is that it is really these traditional places 
like undersea capabilities where we have our advantage today, 
and that is why we need to make these new investments.
    So, as we think about making these new investments in 
things like cyber and AI and hypersonics, what new arms control 
regimes that incorporate these emerging technologies could be 
in our strategic interest moving forward?
    Secretary Shanahan. Yeah. This is where we need to do, in 
my view, the most significant work. You know, we will address 
the INF [Intermediate-Range Nuclear Forces Treaty] and New 
START [Strategic Arms Reduction Treaty], but things like New 
START don't contemplate artificial intelligence or these new 
weapons like hypersonics that have been created.
    Mr. Moulton. So you think it is critical that we 
incorporate these types of weapons systems into new arms 
control agreements.
    Secretary Shanahan. We need to really think, what does 
machine-on-machine mean, as we take humans out of the loop? And 
these are arms control agreements that we need to have with 
people that we don't have arms control agreements with.
    Mr. Moulton. Right. Right. There is also a lot of debate on 
this committee about the nuclear modernization. How much money 
could we save in nuclear modernization if we were able to 
negotiate a bilateral reduction in ICBMs [intercontinental 
ballistic missiles] with Russia?
    Secretary Shanahan. I don't know where to start in terms of 
calculating that.
    Mr. Moulton. Would it be significant?
    Secretary Shanahan. I mean, if all nuclear weapons went 
away in the world, would there----
    Mr. Moulton. Well, not all, but if we were able to 
negotiate a reduction.
    Secretary Shanahan. It always depends on which, right? I 
mean, the basic answer is, if you don't have to develop 
something, you save money. I mean, arms control agreements have 
value if you can avoid having to develop something you don't 
need.
    Mr. Moulton. Sure. Sure.
    Mr. Chairman, I would like to also take this discussion to 
alliances, not just arms control but alliances that we have 
around the globe. I strongly believe--and I suspect you agree--
in a strategy built on strong alliances and growing 
partnerships.
    Despite massive investments in advanced weaponry, ships, 
and aircraft in the fiscal year 2020 proposal, what investments 
are we making to counter Chinese influence globally? And how is 
that reflected in the administration's budget request?
    General Dunford. Congressman, I think you answered the 
question. And when you look at the European Defense Initiative, 
as an example, or you look at the exercise program, our foreign 
military sales assistance, and so forth, it is all designed to 
reinforce that network of allies and partners. And that is, as 
you have identified, in my view, the critical strategic 
advantage that we have over China, if we talk just China 
specifically, is our network of allies and partners.
    Mr. Moulton. So what are we doing--as China has their One 
Belt, One Road proposal that they are pursuing aggressively 
with significant investments, what are we doing to counter that 
growing influence in Asia, in Africa, in other places where 
they are making Marshall Plan-sized investments in potential 
allies?
    Mr. Chairman, could you take that?
    General Dunford. I can talk to the military dimension of 
it, Congressman, because I think what you are highlighting is a 
broader gap in our overall political and economic approach that 
is still being worked. There is a strategic approach, but we 
have a lot of work to do to keep pace with the One Belt, One 
Road in terms of a comprehensive political, economic, and 
security package.
    In the security space, it is the work that we are doing 
with allies and partners. And I would argue that I certainly 
spend probably 60 percent of my time, without an exaggeration, 
doing that. And I think the Secretary is probably pretty close 
to half his time, as well, in dealing with our allies and 
partners and building those relationships, building that 
interoperability.
    And, certainly, you know, I have, I think, 22 liaison 
officers on my staff from other countries right now. And all of 
our exercise design and so forth is all now to incorporate 
coalition capabilities into our exercises.
    So, from a military perspective, we are very mindful of the 
need to broaden and deepen these allies and partners, and 
everything that we do is actually informed by that.
    Mr. Moulton. I am out of time, but, Mr. Shanahan, if you 
could just take that question for the record as well.
    [The information referred to was not available at the time 
of printing.]
    The Chairman. I am sorry. The gentleman's time has expired, 
so if there are any other questions, they will have to be taken 
for the record.
    We will go to Ms. Stefanik.
    Ms. Stefanik. Thank you, Mr. Chairman.
    General Dunford, thank you for your tremendous leadership 
and service to our Nation. You will be sorely missed on this 
committee. It has been a privilege to work with you.
    My question is for Secretary Shanahan. I wanted to follow 
up on Mr. Moulton.
    With nearly a decade of China making significant 
investments in AI, quantum, and other emerging technologies, 
why is our top-line number so important to ensure that in the 
long term we are able to fight and win against near-peer 
adversaries like China?
    Secretary Shanahan. Thank you for that question.
    Modernization is the most important thing we can do to 
maintain deterrence, create military capability, but that is 
also what enables us economically. So they really all tie 
together.
    And I think, going back to the Congressman's question, what 
I think you would find in the Department of Defense as we are 
doing great power competition is it is not just about 
conducting military exercises. How do we work with partners in 
the regions where we are providing security to unlock economic 
capability and develop economic relationships? The 
relationships we form through the Department really can unlock 
some of those other diplomatic or economic benefits.
    So we are strictly--I mean, we are not looking at these 
great power competitions as the military is the solution. The 
military is an enabler to unlocking diplomatic and new 
relationships. But that top line in these critical areas, 
particularly cyber, are fundamental.
    Ms. Stefanik. Thank you.
    My next question is on a different subject. For the past 5 
years, there has been broad bipartisan and bicameral support 
for the designation of an east coast missile defense site, yet 
the Department has not made any such designation available to 
this committee.
    The environmental impact study [EIS] has been completed, 
and the threat to our homeland from rogue nations' ICBMs 
continues to evolve. And the requirements for increasing the 
engagement envelope and allowing for a shoot-look-shoot CONOPS 
[concept of operations] is more imperative than ever.
    Congressional intent in the last NDAA was that the site 
designation after the EIS would be released. So I expect the 
Department will indeed respect that congressional intent and 
share this designation with the committee. Can I count on that?
    Secretary Shanahan. You can.
    Ms. Stefanik. And my last question--give me 1 second here.
    So I also wanted to get you on record. Do you agree that 
any addition of a CONUS intercepter site must enhance current 
capabilities to protect the entire continental U.S. by 
expanding the battle space and projecting power on the east 
coast? The key question is----
    Secretary Shanahan. Yeah.
    Ms. Stefanik [continuing]. Any third site must protect the 
entire continental U.S. Do you agree with that?
    Secretary Shanahan. Let me take that one for the record.
    Ms. Stefanik. Okay. I believe that is incredibly important, 
that as we are----
    Secretary Shanahan. Right. No.
    Ms. Stefanik [continuing]. Considering any potential 
location, that it should protect the entire continental U.S.
    Secretary Shanahan. No, I understand. And my hesitancy is 
when you look at coverages and what threat we are protecting 
against. It is more a refinement of the answer that you are 
requesting.
    You know, I would just make a plug for the success the 
Missile Defense Agency had yesterday in probably one of their 
more complex tests of the Ground-Based Midcourse Defense 
System, of which that would probably be an important baseline.
    But I will get back to you with that answer.
    [The information referred to was not available at the time 
of printing.]
    Ms. Stefanik. Okay. Thank you for that.
    I yield back.
    The Chairman. Mr. Garamendi.
    Mr. Garamendi. Thank you, Mr. Chairman.
    We recently returned from a trip to Jordan, Iraq, 
Kyrgyzstan, and Kuwait.
    In Jordan, we observed and looked at and talked with the 
Jordanians about a $350 million investment that the Defense 
Threat Reduction Agency made to create a virtual 21st-century 
border wall along the 300-plus miles of the Jordanian-Syrian 
border to keep out drug smugglers, armament smugglers, as well 
as ISIS [Islamic State of Iraq and Syria]. By all accounts, the 
utilization of electronic surveillance equipment, command and 
control, and rapid-reaction capabilities proved to be 
extraordinarily effective.
    Now, we are in the process of transferring some $8 billion 
from the Department of Defense to build less than 300 miles of 
border wall. So my questions to you really are about the wall.
    It is our understanding that last night the Department of 
Defense sent a notification of its intent to reprogram funds 
and use from 10 U.S.C. 284 to construct portions of a border 
wall. We also understand that the Department of Defense may 
start awarding contracts using funding pursuant to 10 U.S.C. 
2808 as early as May.
    Can you, therefore, explain in more detail the status of 
your plans to build a border wall pursuant to 2808? 
Specifically, have you made any determination that the supposed 
national emergency requires the use of Armed Forces, Mr. 
Secretary? If so, why?
    Secretary Shanahan. So the status of 2808 is I have 
received a request from the Department of Homeland Security, 
and part of the process for me to make a determination is I 
have tasked the chairman to do an analysis of that request. He 
will come back to me and provide a military recommendation.
    Chairman.
    Mr. Garamendi. Okay. Have you made any determinations that 
a border wall is necessary to support the use of troops at the 
border?
    Mr. Dunford--Chairman--or, excuse me, General.
    General Dunford. Congressman, just to make sure I am 
answering the question directly, so we are responding to the 
President's direction to reinforce Department of Homeland 
Security because they have capability and capacity shortfalls. 
So, to that extent, we have responded to requests for 
assistance for U.S. military personnel. So we have determined 
that U.S. personnel can appropriately backfill the capability 
gaps and capacity/size gaps that Homeland Security has.
    Mr. Garamendi. My question is somewhat different. It is 
have you made any determination that the border wall is 
necessary to support those troops?
    General Dunford. Oh. No, that is exactly what the Secretary 
has tasked me to do now, Congressman, is to look at the 
legislation, which I did yesterday, and determine whether the 
projects that have been identified by Department of Homeland 
Security would be enhancing the Department of Defense's 
mission.
    Mr. Garamendi. Next, have you or anyone else at the 
Department had any discussions or made any comments about 
needing to send or keep troops at the border in order to 
justify using section 2808 to build a border wall?
    Secretary Shanahan. I certainly haven't, Congressman.
    Mr. Garamendi. Very good. Next, what border wall projects 
will be built with section 2808 funds? I.e., where along the 
border will the wall be built with these funds? Are these 
sections of the border wall military installations? If so, why?
    General Dunford. Congressman, we have--to tell you what we 
are in the process, so we have a list of projects identified by 
Department of Homeland Security, but the Secretary has not yet 
identified which of those aggregate projects that DHS has 
identified would be funded by 2808.
    Mr. Garamendi. And I will go back to where I started this 
conversation. We observed 350 or 340 miles of virtual border 
wall that is successful between Jordan and Syria in what is, 
without doubt, one of the most dangerous places in the world 
successfully operating at a cost of $340 million. Something for 
all of us to think about.
    Finally, I would just observe that the United States 
Constitution is extraordinarily clear about who has the power 
of appropriation. It is not the President. And the President is 
usurping the power, and you are part of that usurping of power.
    With that, I yield back.
    The Chairman. Thank you.
    Mr. Gallagher.
    Mr. Gallagher. Thank you, Mr. Chairman. Secretary Shanahan, 
Chairman Dunford, thank you both for your testimony this 
afternoon.
    Chairman Dunford, to the maximum extent you are able to in 
this setting--and I recognize there are limitations--can you 
explain the espionage threat posed by Huawei and ZTE on the 
transfer of U.S. data and voice communications over their 
networks?
    General Dunford. I can, Congressman. If you think about the 
implications--are you talking in the future with 5G in 
particular?
    Mr. Gallagher. Yeah.
    General Dunford. So if you think about the implications of 
5G, the Internet of Things, as well as the primary means that 
we will use to share information and intelligence with our 
allies and partners, one of critical aspects of 5G has to be 
assurance that it is a secure network. If not, we will have 
vulnerabilities in capabilities that we field in the future 
that will leverage 5G.
    And probably as importantly, a foundational element of an 
alliance is the ability to share securely information and 
intelligence. And it will be much more difficult for us to have 
those kinds of assurances to facilitate exchange of information 
given the trends with China's influence.
    Mr. Gallagher. So it would be fair, then, to say that there 
are military operational processes that you are worried about 
as you look forward to operating with partners and allies that 
may be using Huawei systems.
    General Dunford. Congressman, yes. And this is a broad, 
fundamental national security issue, and there needs to be a 
fulsome debate on exactly where we are headed. I do believe 
that the vulnerabilities are acute.
    Mr. Gallagher. And what steps has the DOD undertaken 
already or could you possibly undertake to mitigate these 
threats?
    Secretary Shanahan. Maybe I will pick up on this. Maybe if 
I could just add to the chairman's comments, so if we look at 
5G and then the environment that those systems are developed 
and where they come from, you are talking about a country that 
has a clear history of cyber espionage. We are talking about a 
country with predatory economics. We are talking about, you 
know, looking at--people having to have a social credit, that 
part of doing business over there is you have to share data.
    With that as the backdrop and then not having the 
understanding of how you could trust the network, that is our 
concern with 5G, from a Department of Defense standpoint.
    So in the absence of being able to verify that hardware or 
a provider is trustworthy, the things that we are going to have 
to do is have secure networks that keep that equipment off of 
that. But the real risk is we have to operate in environments 
where he don't know how secure that network is.
    And this is where we get into discussions with our NATO 
[North Atlantic Treaty Organization] partners and other 
countries. As they pursue economic advantages of purchasing 
low-cost equipment, they are forgoing security. And that is, I 
think, our biggest.
    Mr. Gallagher. Sure. And in light of those concerns, would 
you recommend that American technology companies sell critical 
enabling components to firms like Huawei and ZTE?
    Secretary Shanahan. Well, I am always for America selling 
the right equipment. I think the real work we have to do here 
is, we were as a country the leaders with 4G. We should be the 
leaders with 5G. I mean, it is not only in our security 
interest but it is in our economic interest to be able to have 
that kind of capability.
    Mr. Gallagher. And then, Chairman Dunford, you talked about 
sort of the concerns that we would have if we are working with 
allies, even close allies, that have technology from Huawei and 
ZTE. I think the Aussies, who are one of our closest allies--we 
celebrated 100 years of mateship last year--have been at the 
lead in sort of disallowing China from competing in Australia 
for 5G technology. My understanding is New Zealand may follow 
suit.
    Talk to me about where the Five Eyes alliance is on this 
critical question. Because it is my theory that we should start 
there and then build outwards to our NATO allies.
    General Dunford. Sure, Congressman. In fact, Sunday night 
at my home, I will have my Five Eyes counterparts, and we are 
talking about--I won't talk too much in detail here, but we 
have been having this conversation for the last 18 months to 
understand where we are as a group in terms of our ability to 
manage this challenge and many other challenges associated with 
our competitive advantage.
    Mr. Gallagher. I appreciate that. And I know you guys are 
tracking on this issue, which I view to be, I mean, perhaps the 
most important one we face right now. So thank you for your 
attention to it, and thank you for being here today.
    General Dunford. Absolutely. Thank you.
    Mr. Gallagher. And I yield the balance of my time.
    The Chairman. Mr. Carbajal.
    Mr. Carbajal. Thank you, Mr. Chair.
    Chairman Dunford, let me, too, add my thanks for your 
service. I think your exodus is going to be greatly--we are 
going to greatly miss you. And I do hope, as was said earlier, 
that we find some way to keep you engaged, as I think that will 
be important for our national security.
    Acting Secretary Shanahan, military construction [MILCON] 
is defined in the law as any construction, development, 
conversion, or extension of any kind carried out with respect 
to a military installation necessary to produce a complete and 
usable facility.
    I imagine it is pretty rigorous of a selective process and 
must prove to be important to the well-being and readiness of 
service members. As the law states, the purpose of these funds 
are to produce usable facilities for our military.
    Correct me if I am wrong, but getting a project selected to 
receive MILCON funding is pretty difficult, and, in most 
situations, it takes years before installation commanders 
actually get MILCON projects funded and included in their 
budgets.
    Diverting MILCON funding hampers the Department's and 
Congress' ability to sustain what you all have been stressing 
is readiness, and as the Commandant of the Marine Corps has 
alluded to.
    Congress did its job by authorizing and appropriating funds 
from MILCON projects that the Department and Members of 
Congress saw as vital to the safety and readiness of our 
service members. And what we are being told is that this 
funding is not going to be used where the law clearly states it 
should be used.
    Secretary Shanahan, you are asking this body to authorize 
$3.6 billion to backfill projects we already authorized and 
appropriated. In addition, you are requesting another $3.6 
billion to build a wall.
    How did the Department of Defense get into the business of 
funding a physical wall for what you all consider is a 
nonmilitary emergency?
    That was a rhetorical question.
    Moving on to Venezuela. Is the use of military assets to 
deliver humanitarian aid and services being used to send a 
signal to Russia and other foreign entities of this 
administration's intent to solve the crisis in Venezuela 
militarily, one?
    And, two, does the DOD have any plans or intentions of 
sending additional support other than humanitarian aid 
supported by USAID [United States Agency for International 
Development]?
    And, three, has the DOD been given any requirements for 
assistance to fulfill from other agencies?
    Secretary Shanahan. So the use of the military for 
humanitarian assistance is vital. And I think one of the 
reasons that we were drawn in by the State Department was 
because we could do this so quickly.
    To your question regarding, you know, other plans and 
activities as they relate to supporting Venezuela, the chairman 
and I have been in discussion for the last several weeks, you 
know, how do we put a more regional face on our humanitarian 
efforts.
    I will be going down to Southern Command to meet with 
Admiral Faller to have further discussions around, what are the 
things that can we do to provide support to the people of 
Venezuela.
    Chairman, do you have any comments?
    General Dunford. The only thing I would say, Congressman, 
is that your first question about was it designed to signal, we 
got the request, and it was generated by USAID. It went to the 
State Department, and they asked us to meet a capacity 
shortfall. And as the Secretary said, it was our ability to 
deliver a large volume over a short period of time in support 
of USAID which drove that initial humanitarian assistance 
request.
    Mr. Carbajal. Let me finish with the time I have left. Is 
it this administration's intent to use a military resolution on 
this issue--to achieve a military resolution?
    Secretary Shanahan. That is not my understanding.
    Mr. Carbajal. Thank you.
    I yield back my time.
    The Chairman. Okay. One, we have five people left to ask 
questions here who have not yet spoken. I am going to press on. 
There is the possibility that others are going to come back, 
and we will deal with that as it comes, but we will try to 
press on. I think we can conceivably get done in the next 45 
minutes or so, so I will try and do that.
    Mr. Waltz.
    Mr. Waltz. Thank you, Mr. Chairman.
    Gentlemen, thank you for your service, and thank you for 
being here today.
    I want to talk to you a moment about space. Russia and 
China have weaponized space. They have done so; they are in the 
process of doing so. And they explicitly, in their national 
security strategy, seek to dominate the United States in space. 
They are prepared for war, and, in my opinion, we are not.
    So with the flip of a switch, China can track, they can 
dazzle, they can destroy our assets in space. In 2018, China 
conducted more space launches than any other country in the 
world.
    Why does this matter? I think, as leaders, we need to help 
Americans understand that our entire modern way of life is 
dependent on space now--our navigation, our supply chain, our 
banking, how we communicate. Space Foundation says over $400 
billion of our economy is now dependent on space.
    Yet, in the Pentagon, our various components for 
warfighting in that domain are all over the place. GAO 
[Government Accountability Office] estimated we have over 60 
stakeholders involved in this organization in terms of 
acquisition, oversight, and the Air Force has 11 different 
parts.
    I personally believe we are with space where we were in the 
1940s with the Air Force, where it had to be split off from the 
Air Corps for all kinds of reasons that are now obvious.
    I have introduced legislation that cleans up some past 
legislation in terms of making it a fully unified command 
versus the subordinate command. I would encourage my colleagues 
to support me in that.
    Bottom line, gentlemen--and I will go with you, Mr. 
Secretary--are we prepared? Are you confident that we could win 
a conflict in space today if we had to do so?
    Secretary Shanahan. I am fully confident we could win a 
conflict in space today.
    Mr. Waltz. Without the current budget trajectory, for 
example, if we had to go to a continuing resolution, are you 
confident that we could win in space in the next 5 to 10 years 
given Chinese investments?
    Secretary Shanahan. We just don't need to take that risk. I 
mean, this is really about--we have a $19 trillion economy that 
runs on space. That is why the CR would be so painful. We have 
put a plan in place. The 3 to 5 percent real growth that we 
need allows us to even go faster. But it is vital that we get 
that top line.
    Mr. Waltz. Mr. Secretary, have you made a decision on where 
the new U.S. Space Command will be located? There is reporting 
in the press that it will be in Colorado and that there has 
been a nomination.
    Secretary Shanahan. Yeah, no, there is----
    Mr. Waltz. I would submit to you space is in Florida's DNA 
and to strongly----
    Secretary Shanahan. Right.
    Mr. Waltz [continuing]. Consider Florida as you move 
forward with that decision.
    Break, break. Separate topic, on counterterrorism, 
capacity-building, soft power. I would just submit to you--and 
I am concerned in hearing testimony across the board from 
across the services. I understand where we are going with the 
National Defense Strategy. I think that is the right thing to 
do, in terms of reinvesting in our technological superiority. 
However, we cannot do what we did in the 1980s post-Vietnam and 
flush those lessons, those counterinsurgency, those 
counterterrorism lessons down the tubes.
    General Dunford, do you believe ISIS is defeated as a 
military organization?
    General Dunford. ISIS maintains global capability, 
Congressman. So while it had been cleared of the ground in 
Syria and Iraq, it remains a threat.
    Mr. Waltz. Do you believe that al-Qaida is defeated?
    General Dunford. No, I don't, Congressman.
    Mr. Waltz. Do you believe that, in your military advice, 
that the Taliban--forget their political will--that they have 
the military capability to deny al-Qaida use of Afghanistan? 
And particularly military capability, that 300,000-man Afghan 
army and a coalition of the most powerful Western armies in the 
world have struggled to do in 18 years, and I have certainly 
participated in, and I know you have as well. Do you believe 
the Taliban have that capability if we bought into the fact 
that they desire to do so?
    General Dunford. Congressman, I am not pushing back on your 
question, but it is hard for me to imagine having a 
conversation about the Taliban fighting al-Qaida given how 
close they are as organizations right now.
    Mr. Waltz. Right. I 100 percent agree. First, we have to 
get over do we buy they have the will to deny al-Qaida 
Afghanistan as a launching pad back into the United States. 
Then we have to look at what is their enforcement mechanism, 
what is their capability.
    Gentlemen, just with the time I have remaining, I am glad 
that you touched on the fact that if we had to go to a national 
emergency today from a recruiting standpoint, 75 percent of 
young people couldn't serve in the military. That is why I am 
pushing for us to go back to national service--that is not a 
draft; that is national service--as a means to prepare our 
young people to serve in all types of capacities. And I look 
forward to working with you in that regard.
    Thank you.
    The Chairman. Thank you.
    Mr. Crow.
    Mr. Crow. Thank you, Mr. Chairman, and to all of you for 
your testimony today.
    And I will reiterate my colleague's comments, General 
Dunford, on your lifetime of service. I thank you for your 
professionalism.
    And with all due respect to my colleague from Florida, 
Colorado is a mile closer to space than Florida is and a great 
place for space assets.
    Let me begin with General Dunford.
    In my three combat tours in Iraq and Afghanistan doing 
counterterrorism/counterinsurgency operations, you know, it 
became abundantly clear to me that involvement of humanitarian 
and diplomatic efforts and resources were instrumental to our 
ability to get the job done and to secure our forces and our 
allies as well.
    So, in that context, is it your professional judgment and 
in your experience that if the proposed cuts to the State 
Department would occur, would that have a negative impact on 
our stability and support operations and our national security?
    General Dunford. Congressman, first, with regard to the 
first part of your question, I couldn't agree with you more, 
and my experience is very similar to yours.
    I am not familiar enough to know how Secretary Pompeo--how 
his budget is constructed and what the direct impact is of the 
cuts to the State Department to be able to judge whether that 
will have a direct impact on our operations.
    Mr. Crow. Well, if we have fewer diplomats or fewer 
resources to supplement our forces and to provide capacity-
building to our allies and our local partners, does that 
jeopardize our ability to perform our missions overseas?
    General Dunford. That particular shortfall would. There is 
no question.
    Mr. Crow. And also to you, General Dunford, I am 
particularly concerned about the long-term security of our 
Kurdish allies, particularly the Syrian Democratic Forces in 
Syria. Are you satisfied that, as of today, there are 
sufficient long-term plans in place to ensure the protection of 
the Kurds and our allies, in particular the SDF forces?
    General Dunford. Thanks, Congressman. In Syria 
specifically, you know, we are seeking campaign continuity, and 
that campaign continuity includes the partnership with the SDF 
to complete the task against ISIS.
    We are also working to assure Turkey that its security 
interests are addressed along the border.
    And so, right now, our near-term plan with the President's 
decision for residual force includes continued train, advise, 
assist for our Kurdish partners on the ground as well as a 
framework that will prevent any challenges or threats then.
    Mr. Crow. So it sounds like we are working on it but we are 
not there yet.
    General Dunford. Congressman, I would tell you, if I come 
here 6 months from now, I will tell you we are still working on 
it. This is a journey, not a destination. I mean, we continue 
to make refinements to the plan. It is a very--as you know 
personally, it is a very complicated situation. And I think we 
make progress every day, but I suspect we will continue to work 
this for months to come, keeping in mind the thesis of your 
opening line, which was, at the end of the day, this is about a 
political solution, which is very much still in the works.
    Mr. Crow. Well, I will just posit that I think our moral 
credibility as well as our security will be tied up with our 
ability to protect those forces and that population.
    And, Acting Secretary Shanahan, you know, I am deeply 
concerned about mission creep and the use of the AUMF 
[Authorization for the Use of Military Force] over the last 18 
years. And, obviously, Congress has authority to declare war 
and oversight authority of the Department of Defense and 
military operations.
    It is my understanding that execute orders, or EXORDs, 
which outline operational authorities delegated by the 
Secretary to commanders or components, have previously have not 
been made accessible to committee staff. And we can't do our 
oversight role unless committee staff has that information. So 
will you commit to be able to provide those timely to committee 
staff?
    Secretary Shanahan. Congressman, I have been working over 
the past 6 weeks to come up with a process so that we can share 
that information, and I am going to be prepared next month to 
come share that and work with the committee staff.
    Mr. Crow. So next month is the goal?
    Secretary Shanahan. Yes, that is the goal.
    Mr. Crow. Okay. And why has the Department not fulfilled 
its obligation and submitted the congressionally mandated 
report on advise, assist, and accompany missions?
    Secretary Shanahan. I will have to take that for the 
record.
    [The information referred to was not available at the time 
of printing.]
    Mr. Crow. And that is section 1212 of the fiscal year 2019 
NDAA, just to be clear.
    Secretary Shanahan. Good. Thank you.
    Mr. Crow. Thank you.
    I yield back, Mr. Chairman.
    The Chairman. Thank you.
    I see we do have some folks coming back. So we are going to 
go with Mr. Bergman, and then when he is done, we are going to 
take a 10- to 15-minute break, give the witnesses a chance to 
stretch and relax for a moment. And then we will reconvene at 
12:45 and go from there.
    With that, Mr. Bergman.
    Mr. Bergman. Thank you, Mr. Chairman.
    And, General Dunford, I know you have heard it from 
everyone, but thank you for being the embodiment of servant 
leadership. Thoughtful, pragmatic, mission-focused. You have 
set an example that we all can follow on a daily basis. Thanks.
    Mr. Shanahan, the subject in advance here as I work through 
the question is PFAS [perfluorooctanesulfonic acid] 
contamination. In my district in Michigan--Alpena, Grayling, 
Marquette, Escanaba--we have areas of confirmed and potential 
PFAS contamination, some including BRAC'ed [base realignment 
and closure] bases which closed decades ago but also at State-
owned National Guard facilities.
    As you already know, the Army and the Air National Guard 
don't have access to the Department's environmental restoration 
funds the same way the Active Component bases do.
    Given that the work of our National Guard--that what it 
does is directly related to overall readiness of our Armed 
Forces, I believe that the DOD does have a role to play in 
mitigating PFAS contamination. Do you agree, Secretary 
Shanahan, that we must find ways to address PFAS contamination 
not just at Active Duty bases but also at National Guard 
facilities?
    Secretary Shanahan. Sir, I think that we need to address 
the issue of PFAS/PFOA [perfluorooctanoic acid] contamination 
writ large in all of our communities. This is a significant 
health and environmental risk.
    Mr. Bergman. Can you give me any examples of how DOD is 
currently working with other agencies to address the issue?
    Secretary Shanahan. I know the Department is working with 
the Environmental Protection Agency to harmonize some of the 
standards.
    Our focus has been to substitute. So when you think about 
the fire retardant, how do we, you know, just eliminate the 
contamination so we no longer test, we no longer train, and we 
no longer do research with those chemicals.
    Mr. Bergman. I understand. And is there anything--because 
Congress is a partner in this. Is this anything that you would 
suggest--and you can take this for the record if you would 
like--what Congress can do to further support DOD in ensuring 
that you have the ability to work with all of those other 
agencies to eliminate this problem?
    Secretary Shanahan. No, I will take that for the record, 
but it is one of these--we truly need to get a harmonization of 
the environmental mitigation plans. I mean, we need to be able 
to address it. But I will take that for the record.
    [The information referred to was not available at the time 
of printing.]
    Mr. Bergman. Thank you.
    General Dunford, you know, it is clear that the National 
Defense Strategy has influenced this budget, as it does with 
every budget. But what is less clear is how the joint force 
plans to operate differently.
    Can you explain in an unclassified way some of the concepts 
that are being developed to operationalize the strategy, you 
know, update the OPLANs [operational plans], combining with 
budget?
    General Dunford. Sure. Probably, since you talk about 
OPLANs, probably one of the more fundamental changes that we 
made is the shift from an OPLAN basis method of planning to 
campaign plans that incorporate the whole problem set.
    So, in the past, we might have developed a plan for a 
specific contingency in a specific geographic area, a fairly 
narrow view of the threat. When we think about Russia, China, 
Iran, North Korea now, our planning is we develop global plans 
so that we talk about a specific contingency but we talk about 
it in the context of what the entire joint force will be doing 
globally at any given point in time.
    I will just very quickly give you an example. So when we 
have done recently a readiness review for our preparedness for 
Korea, we not only looked at Korea, we looked at what we were 
doing across the region in the Pacific, what we were doing to 
defend the homeland, and what each of the combatant commanders 
would be doing outside of the theater either in direct support 
of that contingency or as that contingency goes on to mitigate 
the risk of opportunism and other risk.
    Mr. Bergman. Thank you.
    And I guess I am the only one standing between us and a 
break, so I yield back.
    The Chairman. Okay.
    We are going to take a brief recess in a moment. We will 
reconvene at--do you guys need 10, 15 minutes?
    Ten. Okay. We will reconvene at 12:40. Mr. Brown is going 
to be in the chair. I have something I have to do, but I will 
be back. And Mr. Brown is first up, so he is not really just 
putting himself in charge and then calling on himself; he 
actually is next.
    So we are in recess for 10 minutes. Thank you.
    [Recess.]
    Mr. Brown [presiding]. If we could all start to take our 
seats, and we will reconvene the second portion of this hearing 
of the House Armed Services Committee.
    And I certainly appreciate the patience of the members, as 
well as the endurance of our witnesses. General Dunford, Mr. 
Shanahan, Mr. Norquist, thank you very much. And we will go 
ahead and pick up where we left off. As the chairman mentioned, 
I was next in order, so I will begin with my line of questions.
    Let me just start by saying that I think--you know, I 
recognize that as, you know, members of the Armed Services 
Committee, our responsibility is to look at authorizations for 
underlying supporting the National Defense Strategy, and that 
the National Defense Strategy really implements one of the four 
pillars of the National Security Strategy. That is peace 
through strength with a focus on building a more lethal force.
    As we as Members of Congress more broadly are looking at 
how do we ensure that we authorize and appropriate for the 
entire National Security Strategy, which includes defending the 
homeland, a lot of defense and nondefense spending that is in 
there, American prosperity, a lot of nondefense spending in 
there and projecting American values. In fact, if you look it 
the National Security Strategy, it talks about vocational 
training, it talks about diversifying the energy portfolio, it 
talks about a forward presence of a diplomatic corps, and our 
development activities throughout the world.
    So let me turn, though, to the focus of this, you know, 
committee, the National Defense Strategy and the underlying 
budget. This year, the President's budget request is for $750 
billion, $718 [billion] to the Pentagon, and which is the 
highest adjusted for inflation since the height of the Iraq 
war. An overseas contingency, it includes an OCO funding of 
$174 billion, $164 billion to the Pentagon, which is the 
absolute highest that we have seen since the height of the Iraq 
surge in 2007 and 2008. And this is occurring at the same time 
that the National Defense Strategy, it is talking about a pivot 
away from the counterterrorism fight, not abandoning that 
fight, but pivoting away as we focus more on great power 
competition with China and Russia.
    I think it is important for Congress that, you know, we are 
open and transparent to the American public and that the 
Department of Defense is as well, so when we have 
appropriations categories and authorization accounts, that we 
can demonstrate to the American people that we are faithful to 
the original design and intent. So I just want to ask you about 
a few items, just to shine some light on what we are actually 
doing here, what is being requested in the President's budget 
request.
    I am reading $8 billion for ship depot-level maintenance 
has been moved from the Navy base budget to the OCO account. 
And to my knowledge, there is not a single dollar for depot-
level maintenance in the base budget. Is that accurate?
    Mr. Norquist. I believe that sounds correct.
    Mr. Brown. Okay. $1.2 billion for Trident II nuclear 
missiles in the overseas contingency operation funds. Is that 
correct?
    Mr. Norquist. It is. It would be in the OCO for base, 
correct.
    Mr. Brown. It is in the OCO, overseas contingency 
allowance, Trident missiles.
    Five hundred thirty-three B61 low- to medium-yield nuclear 
bombs are in the OCO portion of the budget. Is that accurate?
    Mr. Norquist. I don't know that one off the top of my head.
    Mr. Brown. Yeah, that is accurate. I will answer that one.
    There is $1 billion for the Patriot missile system in the 
OCO budget. The Patriot, as you know, is to defend against 
advanced enemy fighters. We are talking about in an overseas 
contingency operation fund. Does that sound accurate?
    Mr. Norquist. That may be right. The Patriot is also used 
in terms of defensive facilities in bases against missiles.
    Mr. Brown. And then finally, I want to point out the 
European Deterrence Initiative [EDI], $500 million remains in 
OCO budget. I understand that it has been done that way in 
previous years. But again, we are talking about reassuring our 
NATO allies about a long-term commitment, yet a substantial 
portion of our funding commitment is in an OCO account, which 
is not long-term budgeting. It is better than a CR, but it is 
not long-term funding. Is that accurate?
    Mr. Norquist. Yes. The EDI has historically been funded 
through that OCO account, and it was last year and in prior 
years as well.
    Mr. Brown. So is this sound budgeting practice for the DOD 
and supporting a defense budget?
    Mr. Norquist. So the use of the OCO is divided into two 
parts. As I talked earlier, there is the traditional one and we 
have broken it out in budget----
    Mr. Brown. I get that. I guess my question is this. Putting 
in some of these sort of, you know, modernization programs, 
long-term programs that are not exclusively for current or 
anticipated overseas contingency allowances; putting, for 
example, 533 nuclear bombs in OCO, is that sound budgeting or 
accounting practices?
    Mr. Norquist. It is not how we have presented it the 
previous year.
    Mr. Brown. Okay. Let me just shift with the remaining time 
we have, because we haven't asked about the transgender policy. 
I think that budgets are an important reflection of our 
priorities and our values. Would you agree with that, Secretary 
Shanahan, that a budget reflects our values and our priorities?
    Secretary Shanahan. Yes.
    Mr. Brown. So, you know, when President Truman desegregated 
the Armed Forces, he stated: ``It is essential that there be 
maintained in the armed services of the United States the 
highest standards of democracy, with a quality of treatment and 
opportunity for all those who serve in our country's defense.''
    Would you agree with that, Secretary Shanahan?
    Secretary Shanahan. Yes, I would.
    Mr. Brown. Are you aware that--and you have heard it 
today--the Army, as of September 30, failed to recruit enough 
soldiers to meet its projections for the last fiscal year?
    Secretary Shanahan. Yes.
    Mr. Brown. And you have also heard that 71 percent of young 
Americans between age 17 and 24 are ineligible to serve in the 
military?
    Secretary Shanahan. That is correct.
    Mr. Brown. Would you agree that a manpower shortage in the 
United States Armed Forces directly compromises national 
security?
    Secretary Shanahan. Yes, it does.
    Mr. Brown. Are you aware that there are transgender 
soldiers serving in today's military who are meeting and even 
exceeding standards in every criterion that we use to measure 
performance in the military?
    Secretary Shanahan. I don't have the specific----
    Mr. Brown. Okay. Because they testified in front of this 
committee about 3 weeks ago.
    And are you aware of the fact that many of these 
transgender soldiers have successfully transitioned to their 
gender of preference?
    Secretary Shanahan. I don't know that, but I----
    Mr. Brown. Yeah, because this is an important policy 
change. This isn't change in sort of like the Army green to the 
Army green and pink. This is a personnel policy that will 
exclude a certain category of Americans from serving. So I am 
just trying to inquire what you do know about it.
    Are you aware that the Chief of Naval Operations, the 
Marine Commandant, the Army Chief, and the current Air Force 
Chief all testified publicly in their own words that 
transgenders serving in the military won't affect readiness, 
doesn't affect military discipline, has not been disruptive to 
the military service, nor has affected unit cohesion? Are you 
aware of that?
    Secretary Shanahan. I am aware of their testimony, yes.
    Mr. Brown. And you know that in July of 2017, President 
Trump said that he consulted his generals and experts when he 
decided not to accept transgender individuals to serve in the 
military.
    General Dunford, as the then senior military adviser to the 
President, is it accurate that within days of President Trump's 
ban on transgender service, that you stated: ``I would just 
probably say that I believe any individual who meets the 
physical and mental standards and is worldwide deployable and 
is currently serving should be afforded the opportunity to 
continue to serve?'' Did you say that?
    General Dunford. I did say that, Congressman.
    Mr. Brown. Has your opinion changed on that?
    General Dunford. It has not, Congressman.
    Mr. Brown. I will now turn to--thank you very much for your 
responses to my line of questions.
    Mr. Thornberry. Mr. Chairman.
    Mr. Brown. Yes.
    Mr. Thornberry. General, I think since we have gone down 
that road at some length over time, it is important now to put 
on the record a bit more about the process that Secretary 
Mattis used in reevaluating the prior administration's policy 
in this regard and a little bit more fulsome about the factors 
that were looked at, how the decisions came to be made that he 
issued during his time. And I don't know either--I don't know 
which of you is better to do that, because you were both there, 
but I think it would be important to discuss that a bit.
    General Dunford. I will take a first stab at it and then 
see if the Secretary wants to add.
    So we did use the words physically, mentally, 
psychologically capable of being worldwide deployable without 
special accommodations. And then the Secretary engaged the 
leadership across the Department, but that also included 
medical experts from across the Department.
    And so what the Secretary did was, based on the 
definitions, and I think you are sensitive as well, Ranking 
Member Thornberry, that some of this is still in litigation. So 
what I am trying to do is be as forthright right now as I can 
be without getting into that issue. But the Secretary included 
the leadership and then medical experts. And so then based on 
the definition of physically, mentally, psychologically capable 
of deploying, performing in our occupational fields, with the 
caveat without special accommodation, he proposed a revision to 
the 2017 policy. That was the process that was used to be able 
to do that.
    Mr. Thornberry. Secretary Shanahan, you have anything you 
want to add?
    Secretary Shanahan. No, I think the 2018 policy really just 
applies standards uniformly.
    Mr. Thornberry. I think there is a misunderstanding that 
the policy was changed on the whim of a tweet. And that is part 
of the reason I think it is helpful for members to know that 
there was a deeper, longer process that was involved that 
resulted in the Mattis policy. Now, as y'all may know, we are 
going to have a Sense of Congress resolution on the floor this 
week, which is part of the reason that this is coming up right 
now. I don't think probably it is appropriate for us to debate 
that now, but as you point out, there is litigation underway. I 
suspect there will be more conversations about these various 
considerations, and that may well involve the Department and 
the service chiefs in looking at these issues.
    I yield back.
    Mr. Brown. And we will now go to Mr. Banks.
    Mr. Banks. Thank you, Mr. Chairman.
    Secretary Shanahan, have you ever had a conversation or any 
engagement with Secretary DeVos about sensitive research on 
college campuses and tools of Chinese espionage like Huawei, 
Confucius Institutes, et cetera?
    Secretary Shanahan. I have not with Secretary DeVos, but I 
have with the FBI [Federal Bureau of Investigation].
    Mr. Banks. Okay. Do you believe that there is more that we 
can do to restrict Chinese nationals who are students on 
college campuses from being involved in DOD-funded sensitive 
research?
    Secretary Shanahan. I think there are.
    Mr. Banks. Are there good reasons for to us do that?
    Secretary Shanahan. Yes, there are.
    Mr. Banks. Okay, good. I will move on. Secretary Shanahan, 
on September 26 of last year, Secretary Mattis and VA 
[Department of Veterans Affairs] Secretary Wilkie issued a 
joint statement promising a new and improved joint governance 
structure to manage MHS [Military Health System] GENESIS and 
the VA EHR [electronic health record] modernization. I have 
asked the VA officials multiple times to share the thought 
process, and zero information had has been forthcoming.
    I understand that a study of various options was completed 
in February. When can we expect such an announcement on the new 
her organization?
    Secretary Shanahan. I will take that one for the record.
    [The information referred to was not available at the time 
of printing.]
    Mr. Banks. Okay. And even better yet, before the 
announcement, would it be possible for some of us who are 
involved in this subject to receive a briefing of some sort?
    Secretary Shanahan. Yeah.
    Mr. Banks. And is the line of thinking where are the 
synergies or the benefits being captured based on this unity of 
effort?
    Secretary Shanahan. Yes.
    Mr. Banks. Thank you.
    Moving on to another issue. Secretary Shanahan, in your 
opening testimony, you stated, quote: ``We are applying maximum 
pressure to ISIS-K [Islamic State of Iraq and Syria-Khorasan 
Province] and other terrorist groups in Afghanistan to stymie 
any threats to the U.S. homeland.''
    Can you elaborate on this military campaign, and how would 
a quick withdrawal impact the longevity of ISIS-K in 
Afghanistan?
    Secretary Shanahan. Well, my reference there is to the work 
of General Miller and the special forces, and their work also 
with the Afghan Special Forces. As you are very well familiar 
with General Miller's SOF background, he is--at this point in 
time, this anchors back to our South Asia strategy. So he is 
really bringing a concentrated effect, the SOF presence, and a 
more muscular effect, not just to al-Qaida and ISIS, but to the 
Taliban.
    Mr. Banks. Okay. General Dunford, can you state--you state 
the importance of the, quote, ``Afghan-owned peace process.'' 
Do you think our current negotiations exemplify that?
    General Dunford. Congressman, you know, what we need to do 
is start reconciliation. So what I am optimistic about is that 
Ambassador Khalilzad has at least opened up a dialogue. And 
after 17 years, I am encouraged to see that.
    The intent, the clear intent that is outlined by the 
Secretary of State and is in the terms of reference is that 
this process include legitimate representatives of the Afghan 
Government and the Afghan people. So that is the direction we 
are headed in. I think to look at the negotiations at any point 
in time would not be probably a full-sight picture.
    Mr. Banks. On that same subject, General, what conditions 
would you expect from the Taliban before the U.S. is safely 
able to withdraw from their country?
    General Dunford. Beyond the Taliban, when I make a 
recommendation to the Secretary and the President about our 
future presence in Afghanistan, it will be based on our 
national interest in the fact that Afghanistan is not a 
sanctuary from which terrorists can attack the American people 
and the American homeland.
    Mr. Bacon. Secretary, back to you. We have had some 
discussion already about the size and strength of the United 
States Navy. Even if every Congressman and the President agreed 
on the goal of a 355-ship fleet for decades to come, we still 
won't reach that desired goal for at least 40 years. What do 
you expect the balance of forces between the U.S. and China to 
be by the time we achieve a 355-fleet Navy?
    Secretary Shanahan. Well, let me just speak to the time. I 
think it is 2034 in which we reach the 355-ship Navy. The 
discussion, you know, it is the future force structure won't 
necessarily be defined by our traditional measures of 355 
ships. I mean, the real work that we are undergoing right now 
is what is the right mix. This goes back to, you know, 
autonomy, semi-autonomous, surface, subsurface mix. I don't 
think the course that the Chinese are on is the same course 
that these naval battles we fought on in the future.
    The warfighting doctrine is going to change dramatically. 
That doesn't mean that we divorce ourselves from our current 
infrastructure, but I really think that this transition to 
future forces: space, cyber, missiles will have a profound 
impact on the type of Navy we have and the size of those 
vessels and the composition.
    Mr. Banks. Thank you.
    Mr. Brown. The gentleman's time has expired.
    Mr. Kim.
    Mr. Kim. Thank you so much for coming. I actually want to 
be able to continue on the great line of questioning that my 
colleague was just going through.
    I think it is incredibly important that we think about what 
the American people are worried about, how they are 
understanding the issues that we are dealing with the military 
and with the security. And what I will tell you is that, 
oftentimes, the conversations that I have back in the district 
in New Jersey are different than the conversations we will have 
here in this room. We just heard some great line of questioning 
about Afghanistan. I think that is key, because that is 
something that is always on the minds of the American people in 
my district when they are thinking about security.
    And while these other issues we have talked about are 
important, in this discussion here as we are thinking about our 
priorities and our budget, I think it is important for us to be 
able to make sure we are always being proactive about 
explaining to the American people what we are doing in 
Afghanistan and what our next steps are. So I just always 
encourage the three of you and others at the Pentagon and 
elsewhere to be thinking about how it is that we can raise 
those issues and continue to show the American people that 
these are not issues that we are sweeping under the rug, that 
we are going to stay engaged, especially after we know that 
there are people who are eligible to serve out in Afghanistan 
now who were in diapers on September 11. You know, that is just 
a core reality we need to comprehend here.
    So I want to just bring a question back from the district 
to you, which is, you know, as we are going through this, what 
are those circumstances that we need to be able to understand 
when we will no longer require U.S. military personnel in 
Afghanistan? I know that it is going to be dependent in part on 
the peace process and the discussion there. I understand that. 
I also understand that the South Asia strategy also talks a lot 
about how the regional countries are engaged in this.
    But when I think about the train, advise, and assist 
mission, I see a lot of parallels between where we are at right 
now in Afghanistan and also in Iraq with these being core 
elements. But what I don't have a sense of is when do we no 
longer need to have U.S. personnel on the ground to be able to 
help support with train, advise, and assist or other 
capabilities there? General.
    General Dunford. Congressman, I will take a stab at it, and 
then you can come back at me with additional questions. I mean, 
what I would tell your constituents back in the district is 
that when there is no longer a threat of terrorism in South 
Asia that would affect the homeland or the American people, 
then the mission can end. And until that point, you know, we--
if we end the mission before that condition is achieved, then 
we will be managing risk of an attack on the homeland from 
South Asia.
    And I would just say, today, given the almost 20 groups 
that operate in that area and certainly the intent, if not 
today, the capability of al-Qaida and ISIS-Khorasan, it is my 
judgment, my military judgment that continued pressure on those 
threats is directly and inextricably linked to the security of 
the American people.
    Mr. Kim. Thank you for that. When we are making that 
assessment of the threats, especially to the homeland, I agree 
with you. That should be the measure by which we understand our 
involvement. What can you tell me that reassures me that the 
Afghan defense forces are ones that are being able to develop 
to be able to do that on their own? Even if we were to get to a 
point where you or some other general as a commander can be 
able to make that determination, if we were to then not have 
the Afghan forces have the capabilities where they can do that 
on their own, then obviously we may fall back into a situation 
again, as we have seen over the last couple of years in Iraq.
    So on the Afghan security forces side, what circumstances, 
what conditions do they need, what proficiencies do you need to 
see in their forces to give you confidence that they would be 
able to handle this on their own?
    General Dunford. Sure. And, Congressman, it is beyond just 
a military issue, right, so it is the capability of the Afghan 
National Defense Security Forces. It is also the capability of 
the Afghan Government to sustain those particular forces. And 
when would that happen? I guess what I would tell you is if you 
went back to 2013, we had 100,000 Americans on the ground, a 
total of 140,000 NATO forces, and that was the size force that 
was necessary for us to advance our national interests at that 
time. Today, we have about 13,000 Americans in Afghanistan as 
opposed to 100,000 Americans back in 2013.
    So I know this isn't moving as fast as the American people, 
in particular your constituents, would want it to be, but what 
we have tried to do is make sure that the level of effort that 
we had in Afghanistan was consistent with the threat and 
consistent with the capabilities of the Afghans to deal with 
that threat on their own. And it is our judgment today that, 
particularly with regard to combat-enabling capability and 
high-end special operations capability, the kind of support we 
are providing today continues to be necessary. I would add 
there are 39 other nations that are with us in supporting the 
Afghans right now.
    Mr. Kim. Thank you for that. I think that is incredibly 
important.
    I yield back.
    Mr. Brown. Mr. Gaetz.
    Mr. Gaetz. Thank you, Mr. Chairman.
    My questions relate to the zero-sum decisions we seem to be 
making relative to our fifth-generation and fourth-gen fighter 
aircraft. My first question is whether or not the manufacturing 
base has been a consideration in the decision to upgrade the F-
15.
    Mr. Norquist. Sir, I think when we looked at the factors 
that we talked about there is you want to maintain a 
competitive industrial base. You also want to make sure you 
have weapon systems with the right mix of capacity and 
capability and there is a mix between them.
    Mr. Gaetz. Yeah, we are going to go through the capability. 
But specifically as to the manufacturing base, is it your view 
that this decision to make the F-15 upgrades is essential in 
that the manufacturing base justifies that decision?
    Mr. Norquist. I don't know if it justifies it by itself. I 
just think that it is a factor that needs to be considered.
    Mr. Gaetz. How many F-35As can we build in fiscal year 
2020?
    Mr. Norquist. I need to get you that number. Was their 
production rates----
    Mr. Gaetz. Yeah. What is our manufacturing capacity for the 
aircraft that we have spent the better part of several decades 
getting ready to launch into the skies?
    Mr. Norquist. We have got 78 in the budget. I don't know 
what their capacity is per year.
    Mr. Gaetz. Procurement costs has been another justification 
for the decision to purchase few F-35s and to have the F-15X 
options that have been laid out. When you finish the F-15 
upgrades with the full complement of targeting pods and sensors 
and jammers, what is the flyaway cost?
    Mr. Norquist. I don't have the specifics on flyaway costs. 
The life--the maintenance and operating cost of them will still 
be lower.
    Mr. Gaetz. We can get to that. First procurement cost. Was 
it an assumption we made that the procurement cost of the F-15 
upgrades would be less than buying more F-35As?
    Mr. Norquist. I believe the main driver was in the 
maintenance and the sustainment costs. The procurement costs 
were different, but they were not as dramatically different as 
the others.
    Mr. Gaetz. The procurement cost of which is lower? How 
about that?
    Mr. Norquist. Of the--fourth generation is lower.
    Mr. Gaetz. So what you are telling me is it is cheaper to 
buy an upgrade--a fourth-gen F-15X than it is with the flyaway 
costs of an F-35A?
    Mr. Norquist. I believe so. I can get you those, because I 
know we put those numbers together for the committees.
    Mr. Gaetz. I am looking at an $80 million flyaway cost on 
the 35A, and then once you lash the necessary, you know, 
electronic weapons pod, and other tech to the F-15X, you are 
looking at a $90- to $100 million flyaway cost. Does that sound 
right?
    Mr. Norquist. I am not sure what other additional things 
you are attaching to it. It depends on the mission you are 
asking it to perform.
    Mr. Gaetz. I would only--the mission set that we would 
assume when we made these budgetary decisions. If you could 
provide for the record for me the detailed breakdown on, not 
maintenance costs, procurement costs on these two weapons 
systems, that would be most helpful.
    Mr. Norquist. Sure.
    [The information referred to was not available at the time 
of printing.]
    Mr. Gaetz. Operational costs, you were making a point about 
that as well. What is the basis for the view that the F-15X 
will have a lower operational costs?
    Mr. Norquist. So the analysis that was done by our CAPE 
[Cost Assessment and Program Evaluation] organization that went 
through and compared the set of them. Because you talk about 
this, the purchase cost, the maintenance cost, and basically 
the lifecycle cost when you think of how long the aircraft 
lasts. And it also compares it for the different missions we 
need them to perform. If you are operating in a permissive 
environment, where you are looking at the capacity of the 
ability of the plane to do strike versus----
    Mr. Gaetz. If you look at a melded rate, what is our--on 
the F-15X, what does it cost per hour to fly it?
    Mr. Norquist. I don't have those. I know that they are 
available, but I didn't bring them with me today.
    Mr. Gaetz. So as you guys provide for the record for me the 
procurement cost breakdown on the X versus the 35A, it would 
really be helpful to have the melded rate on hourly costs to 
fly the 35A and the F-15X. Because I am looking at some data 
that says that by 2025, we are going to drive down that cost on 
a 35A to $25,000 per flying hour with a melded--understanding 
there are different missions, but as a melded rate, and that is 
a year after the budget says we would have the first 
operational 15Xs. So presumably, that would be a number 
consistent with the data that showed that to be $27,000 to 
$30,000 per flying hour. So if you could break that down for 
me.
    Mr. Norquist. We would be happy to. That is one of the 
things we would actually be able to assemble, because following 
the briefing on the mix, these were some of the common 
questions that we wanted to is get every one of the committees 
the exact same set of data so that they understood the data----
    [The information referred to was not available at the time 
of printing.]
    Mr. Gaetz. Yeah. I am a little surprised you don't have it, 
you know, because there seems to be a pretty deliberate 
decision to lean into that F-15X. And so I would have thought 
that that would be really relevant information for a budget 
discussion.
    I want to take my final moments to just ask, Secretary 
Shanahan, can you explain the ways in which these budget 
priorities recognize the changing environment in the Western 
Hemisphere, Venezuela, and how we are going to make sure we 
support SOUTHCOM [U.S. Southern Command] effectively?
    Secretary Shanahan. Yeah. So one of the fundamental 
assumptions that we have been building into the force mix and 
the force design----
    Mr. Brown. If you can do that in 30 seconds, that will 
work. Okay?
    Secretary Shanahan. Yeah, I know. I will do it even more 
quickly.
    We have designed this, and the chairman's been 
extraordinarily helpful here, dynamic force employment, so we 
can move forces quickly and reconstitute them in areas where 
there is demand and to increase interoperability. That 
flexibility allows us then to surge in the case of SOCOM when 
they have a different mission or they need to surge for a short 
period of time, but not to fundamentally change their 
footprint.
    Mr. Gaetz. Thank you, Mr. Chairman. I yield back.
    Mr. Brown. Thank you.
    Ms. Horn.
    Ms. Horn. Thank you, Mr. Chairman. And thank you, General 
Dunford, Secretary Shanahan, and Mr. Norquist. I really 
appreciate your testimony.
    I want to--I know we have had a few rounds of questions, 
but I want to dig little bit further into space realignment and 
priorities, which I believe are really important, and to Mr. 
Kim's point earlier about making sure that the public 
understands them. And I am going to direct my first questions 
to General Dunford because I would like to hear from you about 
this.
    Is it safe to say that space assets exist across all of the 
branches and all of the functions of our Armed Forces today?
    General Dunford. Space capabilities exist across three of 
the four services, all the services leverage space.
    Ms. Horn. So space is a critical component of our 
warfighters' ability and our overall national security 
architecture?
    General Dunford. Absolutely critical for everything from 
navigation, to communications, to targeting.
    Ms. Horn. Okay. Also safe to say that developing space 
assets and capabilities is not an easy endeavor?
    General Dunford. That is accurate.
    Ms. Horn. Okay. So looking at this space question, and 
also, I wear another hat as the chair of the Space and 
Aeronautics Subcommittee, in the civilian space arena and 
knowing that we have a number of additional players in space, I 
want to dig into a little bit of what this looks like. Because 
I think it is important for us to understand both the needs, 
the capabilities, and the future development of this. It 
certainly would be my intention, and I think I have heard that 
from many of my colleagues on both sides of the aisle, that we 
make the best decisions in the best interest of our overall 
national security. It is not a partisan issue. It is about our 
current and future capabilities, understanding that this 
architecture is important.
    So across the different programs across the different 
services, do you think that it is possible that right now, and 
we have also talked about acquisition and cost and audits, that 
there may be programs or different capabilities being developed 
right now that are potentially duplicative or could be more 
efficiently utilized across a common architecture?
    General Dunford. I think it is entirely possible that we 
could be more effective and efficient in developing space 
capabilities, and that really is the foundational argument for 
the Space Development Agency.
    Ms. Horn. So following on with that, in the interest of not 
only protecting our national security, but understanding that 
with additional players, then hundreds of thousands of pieces 
of space debris, and not only our national security interests, 
but also commercial and our just general lives day to day 
depending on it, what, General Dunford--because we heard from 
you earlier, Secretary Shanahan. I appreciate that. What do you 
think about the model and the potential pathway forward? Does 
it need to be a separate force or could it be more of a corps 
model? What is your opinion on that?
    General Dunford. In my view, Congresswoman, there is really 
two issues, right? There is the how do we best integrate joint 
capabilities today, and so that has been heretofore described 
as a subunified command moving through a unified command for 
Space Command. That takes the force we have today.
    With regard to the specific organizational construct, I am 
satisfied with the one that we have laid out, and I am 
confident that over the next several years, it will be refined. 
It will be refined. I think the important thing is, in the 
current organizational construct we have today within the 
Department of the Air Force and within the joint warfighting 
force with a Space Command, gives us the ability to first train 
the right people, identify and train the right people, develop 
the right capabilities. And then when those capabilities are 
developed, field those capabilities in the most effective way 
for the warfighter.
    So I think we have all the pieces in place. And I think, 
like every organization, it will grow over time. But we ought 
not to seek perfection before we start to step out and change 
the way we are doing business, given the importance of space. 
That would be my own thoughts on this.
    Ms. Horn. Okay. And just to go back one more piece of this. 
I appreciate your answers. In the proposal, one thing that 
caused me to raise my eyebrows, there are some changes and some 
exemptions for employment practices and procedures that are 
within this proposal, and it provides broad exemptions to 
current law. I understand the need to realign as something else 
is being stood up. But I don't understand, and I will leave 
this to either one of you, can you explain to me the 
justification behind these broad exemptions?
    Mr. Norquist. So there are two types. One was set up on 
personnel, and that was modeled after the personnel authorities 
of the National Reconnaissance Office. And then there was 
another one that was modeled after how the Air Force did its 
transition to being a separate service. So those authorities 
are designed to be similar to other organizations, either stand 
up or space. It is one of the areas----
    Mr. Smith [presiding]. I am sorry, the gentlelady's time 
has expired.
    I believe Mr. Lamborn is next. Go ahead.
    Mr. Lamborn. Thank you, Mr. Chairman. Thank you.
    First a statement and then a question, first for the 
Secretary and then for the chairman. You stated earlier, Mr. 
Shanahan, that--Secretary Shanahan, that if forced to 
prioritize between Space Force, Space Command, and the Space 
Development Agency, Space Command would be your first priority. 
I would like to point out that the Space Command did exist in 
Colorado Springs from 1985 to 2002, and currently, Air Force 
Space Command and the National Space Defense Center are located 
at Peterson and Schriever, both in Colorado Springs.
    So if the threat is as urgent as you suggest, and I believe 
it is, and if time is of the essence, I would highly recommend 
that Colorado Springs be the best location, given, in addition 
to those considerations, the massive number of space 
warfighters and infrastructure already in place. So I will just 
go on record as making that point.
    My question is this: Can you describe why this 
administration and the Department of Defense have exhibited 
such a sense of urgency regarding the reformation of our 
military space enterprise? Is it because the threat is so 
dangerous and so imminent?
    Secretary Shanahan. I would just say, fundamentally it is 
now a contested environment, and a $19 trillion economy and the 
world's most powerful military runs off space. And in that 
contested domain, if we don't protect it, we are all at risk. 
So it is really--I mean, the urgency is the threat that so much 
of what we depend on, you know, our, you know, maps in our 
cars, you know, the ability to, you know, target our weapons is 
vulnerable.
    Mr. Lamborn. Well, then what would you say to someone who 
says, okay, I see a threat----
    Secretary Shanahan. Yeah.
    Mr. Lamborn [continuing]. But can't we attack that problem 
within the existing structure? I know the Air Force, to their 
great credit, has come up with some reform proposals, but is 
that enough or do we need to go beyond?
    Secretary Shanahan. Well, I think we need to go beyond. 
That is what the proposal represents and really the Space 
Development Agency. And I just--this is the part I would 
emphasize. Ignore the agency piece. You could call it space 
development organization. It is about development. It is not 
about acquisition.
    You know, this is what, you know, General Schriever did. 
This is what was done in SDIO. We need to marry up the right 
programmatic skills so that we can go more quickly and leverage 
off of the innovation investment in commercial space.
    Our acquisition rules can't accommodate that. And that is 
the restructure that we are proposing here, so we can go more 
quickly and use the technology that already exists. So, you 
know, to me, waiting to tailor our current environment will 
just take too long.
    Mr. Lamborn. Okay. Thank you.
    Chairman Dunford, in your professional military opinion, 
especially given your career as a Marine in the Department of 
the Navy and the importance of culture in the services, can you 
explain the benefits that a separate military service focused 
on space will provide, whether as a space force or space corps, 
however it is denominated in whatever the final details are, 
which would not be gained by simply reforming military space 
within the existing structures?
    General Dunford. Sure, Congressman. And in my experience, 
an organization that has a singular focus, has responsibility 
for identifying people, training people, equipping people, and 
then delivering them to the warfighter for integration has a 
much better chance, particularly given the importance of space. 
It is one of only five domains.
    We have a much better chance with an organization that has 
that singular focus, as well as making sure that, with regard 
to prioritization and allocation of resources, that we don't 
drain away resources that might have been used for space for 
other reasons.
    And I know being part of large organizations there is 
always going to be that temptation. And so I think having the 
opportunity, and frankly, from an oversight perspective, I 
would see the appeal from Congress as well, to make sure you 
have the oversight that you need to have that those resources 
that are necessary for us to be competitive in space are 
actually managed properly.
    Mr. Lamborn. And I know some have expressed concern about 
adding bureaucracy, quote/unquote, or additional flag officers. 
On the positive side, does that give more of a seat at the 
table, so to speak, to the folks in space, which is important?
    General Dunford. Well, I think a senior leader who does sit 
at the table obviously has more influence. And someone asked me 
earlier, you know, should this member--should this person be a 
member of the Joint Chiefs of Staff. And, of course, if they 
are a service, then, by definition, I think that would be a 
reasonable thing to do.
    What I have seen personally now over the last couple of 
years, particularly as a result of General Hyten being in the 
room, that when he has been around, given his experience in 
space, the dialogue quickly shifts and we think of things that 
we wouldn't have otherwise thought about without him in the 
room.
    Mr. Lamborn. Thank you.
    The Chairman. The gentleman's time has expired.
    Just for everyone's understanding in terms of the order 
here, there is one confusing aspect of this. Basically, you are 
in the order that you are in when the gavel falls. If you 
leave, you know, you are still in order. What happens--what has 
been happening a lot is people come back literally in the 2 to 
3 minutes before they would be next. Under the rules, that 
person is then next.
    Now, that is inconvenient, because I know a lot of members 
are anticipating, okay, he is next, then I am next. But even if 
you think you are next, if somebody walks in who was there at 
the gavel and who is in front of you, that person is next.
    Personally, I am rethinking that rule because, you know, it 
is a little bit unfair to the people who are sort of planning 
on what is here. But that is just the way it is. So if you 
think you are next and I wind up calling on somebody else, that 
will be because somebody else who was in front of you walked 
back in. And that is going to happen right now.
    Ms. Houlahan, you are up.
    Ms. Houlahan. Thank you, Mr. Chairman.
    I have a number of questions. And thank you very much for 
your testimony today, gentlemen, Mr. Shanahan and General 
Dunford and Mr. Norquist. I am going to focus my questions 
today on the impact of the fiscal year 2020 budget on our 
defense industrial base and our investment specifically in 
cybersecurity across the DOD enterprise.
    But before I did that, I wanted to start by echoing some of 
my colleagues who have gone before me in their frustration with 
the Department's interactions with Congress over the funding 
for the President's planned border wall, what you referred to 
in your remarks as the border situation.
    I led a letter from my colleagues from Pennsylvania, sir, 
Mr. Shanahan, to you asking if you could provide a list of 
unawarded MILCON projects in Pennsylvania that would be 
imperiled. And I also asked for that list to contain an 
assessment as well of the impact if those items were canceled 
or delayed as a result of the border wall or the border 
situation.
    And I was really glad to receive the list of Pennsylvania 
projects, but I still haven't seen any sort of assessment on 
the impact of those projects if they were not to come to 
fruition in this timeframe, nor have I seen any questions for 
the record from this committee's first meeting back in January 
where I asked for an assessment of the impact on border 
deployment on our service members' readiness, and I serve on 
the Readiness Subcommittee as well.
    And I would certainly have hoped that the Department would 
have conducted an impact assessment and briefed it to the 
President before anyone started talking about moving this money 
around. And I definitely would have hoped that this information 
would be more readily available now coming up on 3 months from 
when we initially asked for it.
    There are four projects in Pennsylvania, as it turns out, 
that are at risk if this plan moves toward. And I wanted to, 
just for the sake of my time, highlight only one. Last year's 
appropriations bill included $71 million for the construction 
of a new facility in Philadelphia where we manufacture the 
propulser systems for the Virginia- and Columbia-class 
submarines.
    The Naval Foundry and Propeller Center is essential for the 
design, manufacturing, and repair of propellers for the U.S. 
Navy. A new facility is needed to accommodate the increase in 
personnel and equipment that comes from the push to manufacture 
these new submarines. And so simply put, even though this is a 
propeller, we can't meet the administration's goals of a new 
submarine fleet without this.
    Last week, the Commandant of the Marine Corps wrote that 
supporting the, quote, unplanned and unbudgeted southern border 
deployment was an exacerbation of an already challenging budget 
year for the Marine Corps.
    So I will move on to my questions soon, but I just wanted 
to say for the record that the ill-advised plan really has 
significant readiness ramifications. And the American people, 
particularly Pennsylvanians, really deserve to know what they 
are, not just the list of the projects that are possible on the 
chopping block.
    And this administration has been very vocal about its 
frustration with Congress and its struggles to provide 
appropriate appropriations on time. And I think that, frankly, 
the criticism is very fair. But now that I am also learning a 
little bit more about the referenced kind of department 
reprogramming, I think it is also fair to say that that burden 
is not just shared by the Congress, but also by the fact that 
we are re-appropriating money and that causes, certainly, 
uncertainty amongst the supply chain.
    I have heard from companies across Pennsylvania that they 
are struggling to hire, to train, and to retain staff, as well 
as to make capital investments. And so now I guess my questions 
to you are, did the Department actually assess the impact on 
the defense supply chain, especially on small businesses, 
before deciding to move ahead with proposing these cuts and 
delays? And if not, why not? And if so, what were those 
assessments?
    Secretary Shanahan. And you are referring to the military--
--
    Ms. Houlahan. The case in study of the four Pennsylvanian 
projects and what their impact would be, you know, on the 
supply chain if we were to pull back on those for small 
businesses and suppliers in my community particularly.
    Secretary Shanahan. Right. I can't speak to the total 
assessment. I will let David Norquist comment. But I believe 
the project that you are referring to on the propeller capacity 
is to be awarded in July, so that would not be one of the 
projects that would be----
    Ms. Houlahan. Sir, it was provided to us as one of the 
possibilities.
    Mr. Norquist. Which, if I could clarify, what was provided 
to the Congress was a list of projects that had not been 
awarded since January of this year. And so that was the full 
vision of what is in the pipeline.
    What the Secretary has directed is to not affect any of 
those projects that were scheduled to be awarded before 1 
October, 30 December. The reason for that is that in the budget 
there was a request for military construction funding in order 
to backfill those, so those projects would be.
    I know that the chairman has views on that, but I 
understand the Department's intent was to make sure there 
wasn't an effect on the industrial base or on those facilities 
by ensuring that, by the time you got to the next year, when 
the scheduled--projects were scheduled to be awarded, there 
would be additional MILCON to keep them going.
    But my understanding is the project you specifically 
mentioned would not be affected under either circumstance.
    Ms. Houlahan. It just seems----
    The Chairman. Thank you. But the gentlelady's time has 
expired.
    Ms. Houlahan. Oh, I am sorry. I didn't notice that. Sorry, 
sir.
    The Chairman. And, Mr. Bacon, you are up.
    Mr. Bacon. Thank you, Mr. Chairman.
    I have to apologize right upfront. I lost my voice last 
week, so I will try my best. But first, I want to thank you all 
for being here and appreciate your leadership. Thanks for 
stepping forward and doing this. Our country needs people to 
step forward and lead.
    My first question revolves around readiness and 
modernization. You know, 26 months ago when President Trump 
came in, our readiness levels were the worst seen since 1977. 
We had 58 combat brigades, 3 could--in the Army, only 3 could 
deploy that were ready to fight tonight. Half the Navy aircraft 
couldn't fly. Air Force pilots are getting about half the 
flying time that they needed in training. I thought it was 
negligent for Congress to let us get to this spot. And we dug a 
modernization hole as well with some of the oldest aircraft, 
ships, and tanks in the history of our country when you look at 
the average age. So since 2010 till 2 years ago, we cut the 
military budget 18 percent. And the last 2 years, we have added 
60 percent of those cuts back in.
    General Dunford, Chairman, could you tell us what has been 
the impact of this increase on our readiness and modernization, 
and what happens if we don't sustain it? Thank you.
    General Dunford. Sure. Congressman, I mean, it really is 
very simple. Number one, we are better able to meet the 
requirements that we have day to day. You know, I manage the 
force for the Secretary to make recommendations for him on 
deployment of the force. And so if you think about the 
inventory of forces that are available for day-to-day 
operations, there are more forces available.
    Perhaps more importantly, we benchmark very carefully our 
ability to respond in the event deterrence fails in places like 
Korea or in Europe and so forth. And our ability to respond to 
a major contingency today is significantly greater than it was 
before.
    So there is a lot below that, right. I mean, the Air Force 
fixing maintainers, numbers of airplanes that are available, 
modernization efforts that are ongoing and so forth. But at the 
end of the day, it is about the deliverable. It is about 
meeting today's requirements and then meeting our overall 
requirements to respond to a contingency if deterrence fails. 
And in both of those areas, the progress is measurable.
    Mr. Bacon. Mr. Shanahan, I want to ask you a question about 
the triad. As you know, there is proposals to take us to a 
dyad. How just important is it to maintain the triad that we 
have had for 60 years? What does it do to nuclear deterrence to 
do away with our ICBMs? Thank you.
    Secretary Shanahan. I think, you know, maybe two comments. 
If something has worked well for 70 years and the environment 
hasn't fundamentally changed, why would we change it? The 
obsolescence is a fundamental issue we have to address. But 
more importantly, I think it comes down to why would we 
unilaterally disarm when our competitors are arming themselves?
    Mr. Bacon. As part of that, could you tell us how important 
nuclear command, control, and communications upgrades or 
modernization is also needed?
    Secretary Shanahan. Yeah. Well, the obsolescence of the 
triad, it is clear that we need to make those investments. And 
this was a little bit of the discussion we were having earlier 
around 5G. The nuclear command and control communication system 
is so fundamentally vital. And when we think about spoofing or 
we think about systems being compromised, and as we invest in a 
new space architecture, new terrestrial architecture, we need 
to have total confidence in that the information that is being 
provided to our commanders and Commanders in Chief is 
completely trusted. And, you know, this is a new world in terms 
of cyber, so that is probably one of the most, you know, 
critical modernization programs that we have before the 
Department.
    Mr. Bacon. I agree.
    Chairman, I have got to follow up on a question on 
electronic warfare. You know, we have five domains. We don't 
consider the electronic magnetic spectrum as a separate domain, 
though it is a physical domain. All of our radio messaging goes 
through that. Radar uses it. But our doctrine doesn't identify 
the electronic magnetic spectrum domain as that, and I think it 
should.
    But I would be curious for your military professional 
opinion. Should we make the electronic magnetic spectrum a 
separate domain? Because we want to own it and prevent the 
enemy from using it.
    General Dunford. Congressman, let me start by agreeing with 
you, we want to own it. And frankly, in the recommendation I 
made to the Secretary for this year's program recommendations, 
the electromagnetic spectrum was among the areas we 
highlighted. And as we do competitive area studies, that area 
comes back.
    There are a lot of critical functions inside of our 
warfighting capabilities that aren't in and of themselves 
domains. And so I right now am comfortable with the 
electromagnetic spectrum being something we look at through the 
lens of a function.
    Mr. Bacon. Mr. Chairman, I yield back. But I thank you for 
your testimony and your time.
    The Chairman. Thank you.
    Mr. Cisneros.
    Mr. Cisneros. Thank you, Mr. Chairman.
    Mr. Secretary, General, Mr. Norquist, I want to thank you 
all for taking your time. It has been a long day for you 
already, and thank you for being here.
    I want to talk to you about a specific issue dealing with 
California. There is a fight--a contract has been awarded for a 
flight simulator for the 146th Airlift Wing of California's Air 
National Guard located at Naval Air Station Point Mugu. In 
November of last year, the installation had to be evacuated due 
to wildfires, and it so happened the 146th Airlift Wing also 
has been critical to combatting the wildfires with its C-130J 
aircraft.
    Now, you had said earlier in your testimony that any 
contract that was going to be awarded after September 30, 2019, 
the funding was going to be pulled. You know, which this 
specific simulator, the contract has been awarded, was going to 
be awarded after the date that you had mentioned. Any delay of 
the critical flight simulator programming for the 146th Airlift 
Wing would undermine readiness and impede training for pilots 
combatting wildfire and conducting search and rescue.
    I know this is a big issue for being a Californian. I know 
it is a big issue for Congresswoman Julia Brownley, who this is 
specifically in her district, and all Members of Congress in 
California. Why would we cut funding for this critical flight 
simulator when it is so strategic to the training that these 
pilots need in order to support this critical mission here in 
California?
    Mr. Norquist. So the intention is not to cut funding for 
any of those projects. I think there is two things. First of 
all, just being in the pool doesn't mean that those projects 
are going to be selected. The Secretary hasn't made a decision 
yet on the use of 2808 or the authorities.
    The others that we have requested money in order to ensure 
those projects continue, and so our hope would be that those 
fundings would be included in any enacted bill and allow us to 
ensure those essential projects go forward.
    Mr. Cisneros. You know, Secretary Shanahan, I also notice 
in your written testimony you wrote, our responsibility is to 
remain responsible stewards of your trust and the American 
taxpayers' hard-earned tax dollars.
    Congress has already funded these programs. Why would we 
fund them again, and how is that being responsible in watching 
the taxpayers' tax dollars?
    Secretary Shanahan. We are going to be responsible managing 
the taxpayers' money, absolutely. I mean, that is my role, and 
you have my assurance that we are going to, in this department, 
take care of our people, maintain readiness, and modernize to 
fight future threats.
    Mr. Cisneros. But would you say making them pay for the 
same thing twice is being responsible with the taxpayers' 
dollars? You wouldn't go and buy a vehicle and then have the 
car dealer take it away and say, you know what, I gave it to 
somebody else, you are going to have to pay for it again. Why 
would we do that to the American taxpayer?
    Secretary Shanahan. Yeah. We haven't paid for it once yet, 
you know. This is the process that we are stepping through. And 
I think that was the place where we started this discussion. It 
is a complicated situation, and it is tied to a new budget. We 
are really buying time so we can backfill these projects.
    Mr. Cisneros. All right. But if you are taking money away 
from a project that has already been funded and then you are 
asking to fund that project again, it is being paid for twice. 
But I am going to change topics here real quick.
    General, the Commandant of the Marine Corps, you know, 
recently made a statement about deployments down to the border 
and having to, you know, fund transfers under the President's 
emergency declaration, among other unexpected demands, have 
posed unacceptable risk to the Marine Corps combat readiness 
and solvency. He said they haven't been able to fund other 
training that had been planned.
    Do you agree with his assessment that sending troops, 
Marines down to the border is hurting Marine Corps readiness?
    General Dunford. Congressman, I would like to put that 
letter in full context. What the Commandant of the Marine Corps 
did--and I read the letter and spoke to this--spoke to him, as 
well as the Secretary of the Navy about it--he listed a number 
of unanticipated bills that the Marine Corps was confronted 
with in this fiscal year, one of which was the southwest 
border. Those bills in the aggregate created difficulties for 
him in funding other priorities, and that really was what it 
was about.
    It wasn't a letter--this particular letter wasn't a letter 
about the southwest border and didn't single out the southwest 
border deployment as being the issue. It identified the 
southwest border as one of the unfunded--one of the 
unanticipated bills.
    The Chairman. Thank you. And the gentleman's time has 
expired.
    Votes are coming up, they are estimating sometime between 
now and the top of the hour. We will go until 10 minutes after 
the votes are called at the most and then we will be done.
    Mr. DesJarlais.
    Dr. DesJarlais. Thank you, Mr. Chairman. And thank you all 
for being here today.
    Secretary Shanahan and Chairman Dunford, many of your 
predecessors have touted our nuclear enterprise as a, if not 
the, top priority within the Department of Defense. Do you 
agree with this?
    Secretary Shanahan. It is our singular most important 
mission.
    General Dunford. I am on record saying the same many times.
    Dr. DesJarlais. Yes, sir. Thank you. Chairman Dunford, do 
you also believe, then, it is important to advance our low-
yield nuclear weapons systems?
    General Dunford. I do, Congressman, and I can explain that 
if you want me to explain the reason why.
    Dr. DesJarlais. Maybe just--yes, please.
    General Dunford. It would probably be hard to do it in----
    Dr. DesJarlais. Oh, okay.
    General Dunford. But I would be happy to answer that 
question when the time--you know, for the record or whatever, 
because I do feel like that low-yield option is critical for 
deterrence.
    Dr. DesJarlais. Okay. What does this budget do to 
accelerate U.S. development of hypersonic weapons?
    Secretary Shanahan. Let me get you the number. We have 
accelerated the hypersonic testing and deployment several years 
with this budget. It is an extra $2.6 billion in this year's 
top line.
    Dr. DesJarlais. Okay. And do you think that it is on an 
appropriate and comfortable pace considering our adversaries' 
advancements?
    Secretary Shanahan. Well, I would like to be a bit further 
along, but this is a much faster pace than we have had in the 
last couple years.
    Dr. DesJarlais. Okay. Chairman Dunford, many of the 
Department of Energy's nuclear weapon support facilities are 
over 40 years old and are in need of refurbishment. How 
important is a modern Department of Energy nuclear weapons 
development capability to your ability to provide a credible 
nuclear deterrence?
    General Dunford. They are inextricably linked, Congressman.
    Dr. DesJarlais. Okay. Secretary Shanahan, what do you 
foresee the National Guard's role being in the Space Force?
    Secretary Shanahan. That is a good one, yeah. We have had a 
lot of debate, and General Lengyel has been at the center of 
that debate. There is some complexities about how those 
resources align and how their training and support is conducted 
today. But as they do in so many other elements of the total 
force, they will play a critical role. The question today more 
is around how do we organize them than it is the importance of 
their role.
    Dr. DesJarlais. Okay. And I am going to give 2 minutes 
back, Mr. Chairman. I yield back. Thank you.
    The Chairman. Ms. Torres Small.
    Ms. Torres Small. Good afternoon, everyone. Thank you for 
taking the time to be here today. Thank you also for your 
service, what you do for the men and women in uniform as well 
as for the entire country. Thank you.
    As we discuss the $750 billion national defense budget, I 
speak for many of my colleagues on both sides of the aisle when 
I express my deep concern regarding the Department of Defense's 
failure to proactively address PFAS contaminants on and around 
military establishments.
    I deeply appreciate Congressman Bergman bringing this up. 
And your comments that, Acting Secretary Shanahan, that the EPA 
[Environmental Protection Agency] is working to address those 
standards, meanwhile you are merely working to eliminate use of 
PFAS, underscores that this response is wholly insufficient.
    I sincerely hope that the Department hears the concerns of 
my colleagues and stops hiding behind bureaucratic and 
regulatory red tape to avoid helping communities clean up PFAS 
contaminants.
    To that end, Acting Secretary Shanahan, 2 weeks ago when 
you testified before SASC [Senate Armed Services Committee], 
Senator Heinrich asked if you read a New York Times article 
titled, ``Pentagon Pushes for Weaker Standards on Chemicals 
Contaminating Drinking Water.'' Have you had the opportunity to 
read that article?
    Secretary Shanahan. Yes, I have.
    Ms. Torres Small. Thank you. Can you please speak on 
Senator Heinrich's second question as well? Is the article 
accurate and is the Pentagon pushing the Trump administration 
to adopt weaker standards for ground water pollution caused by 
PFAS and other chemicals?
    Secretary Shanahan. The article is not accurate, and the 
Department of Defense is not asking for the standard to be 
lowered.
    Ms. Torres Small. Thank you. I hope that your actions will 
also reflect the importance of this issue. Thank you.
    I want to close by reiterating what Senator Heinrich said 
to you: I know there is a right way to do this. It is to follow 
the science. The right way to do this is not to set a standard 
that is based on trying to limit liability.
    I yield the remainder of my time.
    The Chairman. Ms. Hill.
    Ms. Hill. Acting Secretary Shanahan, the President's fiscal 
year 2020 budget request has a $600 million decline in funding 
for the European Defense Initiative, yet in your testimony 
today, you noted that Russia last year conducted its largest 
military exercise in almost 40 years and is escalating 
intimidation efforts.
    What is the rationale for reducing this funding when there 
is an increasingly hostile actor next door and our own National 
Defense Strategy says that Russia is one of our two biggest 
concerns?
    Secretary Shanahan. I will ask the comptroller to walk you 
through the numbers. But fundamentally, what it represents is 
that the standing up of the initiative, so think of it as 
either the setup costs or the nonrecurring costs, are complete, 
and now it is really about sustaining the level of effort and 
conducting more exercises and actually deploying more troops.
    David.
    Mr. Norquist. Correct. So the amount we are investing in 
presence and putting folks is up $170 million. The amount we 
are spending on training is up $300 million. What is down is 
the prepositioning of equipment, because once the equipment has 
been moved into place, you don't need to keep paying for it. So 
while the cost is coming down, the actual level of activity is 
going up.
    Ms. Hill. Okay. Thank you. So do we have--does this have 
anything to do with the fact that European countries are 
filling some of those gaps, or do you have any sense that this 
will affect our position in any way?
    Secretary Shanahan. Well, I think they are filling gaps and 
they will fill more gaps, particularly with the, you know, 
initiative to have, you know, more battalions, you know, more 
battleships to be able to deploy more quickly the 430s 
initiative. We also are conducting, you know, more exercises 
with NATO. So I think what you are seeing is just more of the 
front-end flow of money, especially from NATO, starting to get 
to the front line.
    This is--you know, for NATO, what I think we will see with 
their uptick in investment is more capability and capacity 
coming online. What you are seeing with the European Defense 
Initiative is the United States leading the integration and 
conducting higher level exercises.
    Ms. Hill. Thank you. So can you give some specific examples 
of where the--where NATO is filling those gaps or increasing?
    Secretary Shanahan. I will take that for the record, but, 
you know, I have seen some of those plans. I have seen some of 
the contributions that they are making to increase capability, 
as well as the exercises that we have organized so that--we are 
conducting more sophisticated exercises like Trident Juncture. 
But let me take that for the record and provide you an update.
    [The information referred to was not available at the time 
of printing.]
    Ms. Hill. Thank you. Do you have any concerns about the 
signals this might send to our allies and partners in Europe, 
considering the comments that are coming from this 
administration and our President, the ridicule for NATO and 
the, you know, the proposed cuts that--the signals that might 
send to Putin and to our partners and allies?
    Secretary Shanahan. I have had probably, since I have been 
in this position, maybe 50 conversations with my counterparts 
in NATO, and it has really been the opposite. They are more 
engaged. They have a strong sense of leaning forward into these 
exercises, and I think they are more encouraged by our 
participation and presence in Europe today.
    Ms. Hill. Well, I had different conversations when I was in 
Europe for the Munich Conference, and it seemed like the tone 
was a bit more insecure. But I am curious why you feel like 
that is the case.
    Secretary Shanahan. Well, this is--so I think about the 
defense ministers. I am not--I don't know who you were speaking 
with, but this was the defense ministers as we are doing the 
planning. And it wasn't just in terms of the NATO exercises 
there. This also had to do with our activity in Afghanistan.
    But in particular around NATO, and I think the best 
evidence of support was their unanimous support to our 
withdrawal from the INF. It was writ large in terms of 
supporting our position. But the side conversations to the 
person is thank you for pushing us. We look forward to the 
exercises, because the exercises that we have been conducting 
have been very successful.
    Ms. Hill. General Dunford, do you have any comments on 
this?
    General Dunford. The only thing I would say, Congresswoman, 
is, you know, other nations are contributing more, but no 
nation has increased its commitment to NATO more than the 
United States since 2015. So the European Defense Initiative, 
the addition of the second fleet down at Norfolk to ensure the 
transatlantic link, the increased intelligence people we 
provided to the SOCOM hub and so forth. I would just tell you, 
my peers understand that the United States of America is still 
the most significant contributor to NATO and the most 
significant contributor to the deterrence and the defense that 
NATO provides.
    Ms. Hill. Thank you.
    The Chairman. Thank you, Ms. Hill.
    Ms. Haaland. Ms. Haaland will be last because we have 
votes.
    Ms. Haaland. Thank you, Chairman. Thank you.
    Thank you, gentlemen, for being here today. I appreciate 
your time immensely.
    I would like to just sort of continue the comments of my 
esteemed colleague from New Mexico in a different way, I guess. 
I will ask a few different questions, but it is concerning the 
contamination of military installations.
    The fiscal year 2020 budget request contains $1.1 billion 
for environmental restoration, down from the fiscal year 2019 
enacted amount of $1.24 billion. In my district, the fuel spill 
on Kirtland Air Force Base, which resulted in 24 million 
gallons of jet fuel contaminating our ground soil and 
threatening Albuquerque's clean drinking water, has yet to be 
properly cleaned. At other bases in New Mexico, in many other 
DOD installations throughout the country, dangerous levels of 
PFAS have been found in drinking water, and this contamination 
seeks to ruin people's lives.
    Given the scale of these and other environmental issues at 
DOD installations, please explain how the DOD's environmental 
restoration efforts will address public and environmental 
health and safety and your rationale for the decreased budget 
request.
    And I will add that you testified earlier about the money 
you essentially saved on not having to spend it on military 
personnel, which is, you know--which you--which everybody wants 
to, you know, see go toward the wall. And I am asking, why not 
spend money on cleaning up contamination that the military has 
caused?
    Mr. Norquist. So let me make sure I have the--right here is 
for the environmental restoration we have--I am not able to 
follow that.
    So let me double check the environmental. My understanding 
was that the program was relatively flat, but I will double-
check. There is--sometimes we get congressional adds that raise 
the 2019 enacted, so even when we are the same number from year 
to year, you can see that trend.
    I think when it comes to the contamination concerns you 
raised about--you know, we have three priorities. First is to 
protect and make sure people are drinking safe water; the 
second one is our responsibility to remediate those that are 
related to the defense establishment and our operations; and 
the third is to research alternatives. The Secretary talked 
about this in his comments, which is finding alternatives to be 
able to reduce our use of those contaminants as well at the 
same time we are doing the cleanup.
    Ms. Haaland. And so you feel that by spending less money on 
environmental restoration you can essentially achieve those 
ends? Is that what you are saying?
    Mr. Norquist. I don't think we are looking to reduce our 
investment in this area.
    Ms. Haaland. Okay. Thank you.
    Last, I am going to switch gears over to transgender 
troops. Do you agree with me that the United States is stronger 
and safer when our military reflects our Nation's diversity and 
upholds the constitutional belief that all people are created 
equal? General? Secretary?
    General Dunford. Congresswoman, I couldn't agree more.
    Ms. Haaland. Okay.
    Secretary Shanahan. I agree.
    Ms. Haaland. Okay. Do you agree with me that the 
administration's current policy of obstructing transgender 
individuals' freedom to serve in the United States military 
essentially makes a mockery of this commitment?
    General Dunford. Congresswoman, just to be clear, the 
current policy that is in place that was signed in 2017 allows 
transgenders to serve in the U.S. military.
    Ms. Haaland. So they can serve freely right now?
    General Dunford. Today they can.
    Ms. Haaland. Okay. Very good.
    And I have heard that--I mean, an argument is put forth 
that, you know, spending is a concern, that they--that we don't 
want taxpayer money spent on gender dysphoria issues, such as 
psychotherapy, prescriptions, surgeries, and so forth. And I 
just want you to know that we realize that that portion of the 
budget is minuscule in comparison to other things like, for 
example, erectile dysfunction, which took $84 million out of 
the DOD budget.
    So I just want you to know that I support wholeheartedly 
every single American who wants to serve in our military, that 
they have an opportunity to do so. And that with respect to 
budgets, knowing that it is a minuscule amount that is spent on 
transgender troops, I don't think that is anything that should 
dissuade them or us from their service.
    And I yield my time, Chairman.
    The Chairman. Thank you.
    If I could just follow up on that just briefly. It is a 
bit--the policy that was just announced by the administration 
through the DOD is a bit more complicated. The Secretary and I 
talked about this a little bit yesterday. And I don't think it 
is the correct policy.
    It is not a blanket ban on people who are transgender from 
serving in the military. It does, however, make it very 
difficult for people, depending on where they are at, in terms 
are they in the service, are they trying to join, have they had 
transition surgery, all of those things have really, really 
complicated the ability of transgender people to serve in the 
military.
    And I also feel that the policy, as announced, does not 
accurately reflect the--well, the medical facts, but we will be 
dealing with that later. And I understand you have struggled to 
try and get the right policy there. But it is considerably more 
complicated than even I thought at first glance.
    But I don't think right now the policy meets the standards 
that Ms. Haaland was hoping to have in terms of allowing 
diverse people to serve, assuming that they are qualified, 
assuming that they can meet the qualifications for whatever job 
it is they are supposed to do in the military.
    Mr. Thornberry, do you have anything, quickly?
    Mr. Thornberry. I do, Mr. Chairman.
    In the presence of the Secretary and chairman and the 
comptroller, I just want to note that while we have been 
meeting today, Andy Marshall has passed away. He ran the Office 
of Net Assessment from the Nixon administration to the Obama 
administration. I can think of fewer people who have had a 
bigger impact on focusing our defense efforts, our national 
security in the right direction than Mr. Marshall.
    And we talked about a lot of stuff today, but I think as 
General Dunford started out, it is about people. Some of them 
are not even in uniform. But it is a remarkable life. He has 
been before our committee I don't know how many times over the 
years. So I wanted to note that that passing and--but also to 
honor his memory because he made such a difference.
    The Chairman. And I think that is a very appropriate note 
to end on. We are adjourned. I thank you, gentlemen.
    [Whereupon, at 1:52 p.m., the committee was adjourned.]

     
=======================================================================

                            A P P E N D I X

                             March 26, 2019

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 26, 2019

=======================================================================

      

      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

     
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 26, 2019

=======================================================================

      

                    QUESTIONS SUBMITTED BY MR. SMITH

    Mr. Smith. Directive report language from the Carl Levin and Howard 
P. ``Buck'' McKeon National Defense Authorization Act for Fiscal Year 
2015, Pub. L. 113-291, recommended the Department of Defense, to the 
extent practicable, model their policies and checklists on the policy 
and checklist relating to services contract approval then used by the 
Department of the Army. Section 852 of the National Defense 
Authorization Act for Fiscal Year 2018, P.L. 115-91 encouraged the use 
of ``standard guidelines . . . . for the evaluation of requirements for 
services contracts'' as part of the improved planning and budgeting 
processes for services contracts enacted that year. The Department of 
the Army Checklist was a comprehensive compilation of the statutory 
prohibitions against contracting work performed by Federal Government 
employees.
    How has the Department and each of the Military Departments and 
Defense Components complied with these requirements beyond issuing the 
Handbook for Contract Functions Checklists issued on May 2018?
    What steps has the Department taken to ensure they are meeting the 
expressed ``purpose [of Section 851 and the prior directive report 
language] of standardizing the requirements evaluation required by 
section 2329 of title 10''?
    What steps are being taken to ensure greater consistency in 
understanding and complying with the statutory requirements that had 
been addressed in the Army checklist and currently addressed in your 
Handbook for Contract Functions Checklists?
    Is your Handbook directive in nature or can Defense Components make 
exceptions in how they apply it? Is the Army checklist still in use?
    Secretary Shanahan. The military departments and Defense components 
have collaborated extensively on the revision of the Department of 
Defense Instruction (DODI) 5000.74 Defense Acquisition of Services that 
incorporates 10 United States Code section 2329 provisions and further 
improvements needed to modernize services acquisitions since the DODI 
was published on January 5, 2016. The revised DODI 5000.74 is 
undergoing pre-publication review; however, in the revision the 
Services Requirement Review Boards (SRRBs) the revision does address 
the requirements review process to include consideration of total force 
management and policies and procedures and available resources. Once 
this issuance is published, the evaluation of requirements for services 
contracts will be further detailed in the Defense Acquisition 
Guidebook, Chapter 10, (https://www.dau.mil/tools/dag) and its content 
incorporated in DAU training courses in Services Acquisition. The 
Office of the Under Secretary for Acquisition and Sustainment 
(OUSD(A&S)) has provided for standardized training on the subject of 
SRRBs and requirements evaluation at Department of Defense (DOD)-wide 
Services Acquisition conferences; in December 2015, June 2016, March, 
June and August of 2017, in June 2018, and February 2019. In attendance 
were the military component senior services managers, their senior 
staff, and other requirements and contract managers. Additionally, the 
OUSD(A&S) staff has presented and/or participated in mock SRRB panels 
at component conferences. To also address standardized training, in 
July 2017, the Director of Defense Pricing and Contracting (DPC), 
formerly Defense Procurement and Acquisition Policy, published the DOD 
Handbook for the Training and Development of the Services Acquisition 
Workforce, to address the training and development of the DOD workforce 
engaged in the procurement of services, including personnel not 
designated as members of the defense acquisition workforce. Once 
published, the revised issuance provides for functional services 
managers training in accordance with this memorandum. In May 2018, DPC 
published the DOD Handbook of Contract Function Checklists for Services 
Acquisition which provides recommendations for contract function 
checklist questions. The Handbook is not directive in nature; rather it 
provides recommended contract function checklist questions that may be 
used in conjunction with military departments and Defense component 
workload analyses, contract services documents, training materials, 
data, and inventories. DOD components may issue additional guidance and 
implementing instructions to meet their unique contract function needs 
associated with services acquisitions. The Army is still using their 
checklist today. Components are encouraged to recommend changes/
improvements to the DOD Handbook.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LANGEVIN
    Mr. Langevin. Secretary Shanahan, as we have discussed, I am 
concerned about the security of DOD data on contractor networks, 
particularly ``tier three and four suppliers'' as you've described 
them. Which office within DOD is best situated to issue definitive 
guidance about contractor data security? Which is best situated to 
ensure compliance with any such guidance? What additional resources can 
we provide to subcontractors to secure their networks, and who should 
have the responsibility to do so?
    Secretary Shanahan. This is one of the highest priorities within 
the entire Department of Defense (DOD). The Office of the Under the 
Secretary of Defense for Acquisition and Sustainment (OUSD (A&S)) is 
the best situated to provide guidance and compliance for contractors, 
and they currently have many efforts underway. One of these efforts 
lines right up with security of the DOD data on contractor networks it 
is called the Cybersecurity Maturity Model Certification (CMMC). 
Currently, we are working with Johns Hopkins Applied Physics Lab (APL) 
and Carnegie Mellon Software Engineering Institute (SEI), with our 
industry partners such as the Defense Industrial Base (DIB) Sector 
Coordinating Council (DIB SCC), Aerospace Industries Association (AIA) 
and others to combine various cybersecurity standards (such as NIST 171 
& 53, ISO 27001 & 32, AIA NAS9933) and others into one unified standard 
for cybersecurity known as the CMMC. The CMMC will create requirements 
for security and allow third-party audits and certifications of the 
security of contractor networks and processes.
    Another effort is out of the Office of the Under Secretary of 
Defense for Intelligence (OUSD(I)), which is leading a supply chain 
illumination pilot program to enhance information sharing with cleared 
defense contractors. The pilot program utilizes unclassified, open 
source data available for a variety of Major Defense Acquisition 
Programs (MDAPs). The open source findings will be ingested into a 
classified database to create an all-source product to be shared for 
the purpose of ensuring the security or integrity of supply chain of 
these military programs. DOD is expanding protections over Controlled 
Unclassified Information (CUI) within private industry. The OUSD(I) has 
been actively engaged with the CUI Executive Agent at the Information 
Security Oversight Office (ISOO), the DOD Components, and other 
agencies in the Executive Branch to develop a viable plan and policy to 
implement appropriate safeguards for both Federal and non-Federal 
systems. These initiatives will support primes and the subcontractors 
to better secure their networks and assist the Department in ensuring 
the security of the supply chain. We are giving the industry the tools 
to secure not only DOD data but their own.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. GARAMENDI
    Mr. Garamendi. You've noted that Russia is modernizing nuclear 
capabilities outside of the New START Treaty, yet the vast majority of 
Russia's strategic nuclear arsenal is still deployed on ICBMs, SLBMs, 
and heavy bombers--all types of weapons limited by New START. Is New 
START in the U.S. national security interest?
    General Dunford. The Department supports the pursuit of an arms 
control agenda, which manages the risk of miscalculation and escalation 
among nuclear powers.
    Mr. Garamendi. The 2018 Nuclear Posture Review states that Russia 
has an ``escalate to deescalate'' policy regarding the potential use of 
nuclear weapons if they were losing a conventional conflict. Recently, 
Russian Ambassador to the United States Anatoly Antonov publicly denied 
that the Russians have such a doctrine. To the best of your knowledge, 
have you or any of your counterparts in the Administration ever asked 
their Russian counterpart about whether or not they have an ``escalate 
to de-escalate'' policy? If so, what was the response?
    General Dunford. As the Nuclear Posture Review describes, we assess 
``Moscow threatens and exercises limited nuclear first use, suggesting 
a mistaken expectation that coercive nuclear threats or limited first 
use could paralyze the United States and NATO and thereby end a 
conflict on terms favorable to Russia.'' Additional detail can be made 
available in a classified forum. I have met with my Russian 
counterpart, General Valery Gerasimov, several times--most recently in 
March 2019. During our meetings, we exchanged views on the state of 
U.S.-Russia military relations and discussed effort to improve 
strategic stability between the U.S. and Russia. Conversations over 
doctrine are an important aspect of military dialogue and 
confidentiality is essential to the fidelity of our continued 
communications.
    Mr. Garamendi. In your conversations with General Gerasimov, Chief 
of the Russian General Staff, has the New START Treaty been discussed? 
If so, how many times? Has the Russian military expressed interest in 
extending New START?
    General Dunford. I have met several times with my Russian 
counterpart, General Valery Gerasimov, most recently in March 2019. 
During our meetings we exchanged views on the state of U.S.-Russia 
military relations and discussed a range of potential options all of 
which require the full compliance of both sides to the treaty.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. SPEIER
    Ms. Speier. You noted in your testimony that arms control has value 
``if you can avoid having to develop something you don't need.'' What 
systems were you referring to? What systems might the United States 
avoid developing should we reach agreement with Russia? Is the 
Department currently evaluating options for any reductions in nuclear 
systems through arms control?
    Secretary Shanahan. Arms control can contribute to U.S., allied, 
and partner security by helping to manage strategic competition among 
states. In my testimony, I did not have any specific systems in mind, 
but today we face an evolving and uncertain international security 
environment that includes an unprecedented range and mix of threats, 
including in the conventional, nuclear, space, and cyber domains. The 
United States remains willing to engage in a prudent arms control 
agenda, and we remain open to future negotiations as conditions permit 
and where the potential outcome improves the security of the United 
States, our allies and partners.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. GALLEGO
    Mr. Gallego. Following collisions involving USS Fitzgerald and USS 
John S. McCain, the Navy took comprehensive action including assessing 
problems related to crew fatigue, implementing changes to watch 
rotations and workload, but also firing the 7th Fleet Commander. Why 
should flag officers be punished for the systematic failings that led 
to those collisions but general officers escape punishment for the 
systematic failings that contributed to the Niger ambush disaster?
    Secretary Shanahan. I am committed to ensuring that a fair, 
thorough, and accurate review is conducted to inform the process of 
determining whether any additional administrative accountability 
measures should be imposed. That's why I have initiated a new, narrowly 
scoped review of the accountability measures that have been imposed 
related to the events in Niger on October 4, 2017. The review will be 
led by a four-star officer. The reviewing official will analyze the 
investigation reports on the incident and provide me with a 
recommendation regarding the appropriateness of accountability measures 
taken thus far and whether any additional administrative accountability 
measures should be imposed.
    Mr. Gallego. In your verbal testimony, you indicated that 
discipline and commendation decisions regarding the Niger ambush would 
be made ``soon.'' Do you intend to allow officials or officers who may 
be responsible for failings that led to the disaster to retire rather 
than face reprimand?
    Secretary Shanahan. It would be inappropriate to speculate about 
the nature and timing of any additional administrative accountability 
measures while the review is ongoing.
    Mr. Gallego. I understand that DOD has decided that it will not 
pull money from housing, dorms, or other living facilities, or any 
projects awarded in FY2019. I understand this decision from a public 
relations perspective, but not from an operational perspective. In 
other words, if there really is a national emergency at the border, why 
are we going into a scrap for money while saying ``this dorm is off 
limits, or that account is off limits''? If this were a bona fide 
national emergency, wouldn't everything be on the table?
    Secretary Shanahan. The Department applied the following criteria 
to identify the potential pool of sources of military construction 
funds:
    <bullet>  No military construction projects that already have been 
awarded, and no military construction projects with FY 2019 award dates 
will be impacted.
    <bullet>  No military housing, barracks, or dormitory projects will 
be impacted.
    <bullet>  The pool of potential military construction projects from 
which funding could be reallocated to support the construction of 
border barrier are solely projects with award dates after September 30, 
2019.
    Since housing infrastructure is fundamental to maintaining quality 
of life for service members and is an integral component of readiness, 
no military housing, barracks, or dormitory projects will be 
considered.
    Mr. Gallego. The committee was told last week that you will be 
providing your judgment over which military construction projects at 
the border ``are necessary to support such use of the armed forces.'' 
General O'Shaughnessy told the SASC last month that there is no 
military threat at the southern border. With that lack of a threat and 
with DOD personnel in a supportive role, how would a wall be necessary 
to support the use of the armed forces in any way?
    General Dunford. On February 15, 2019, in accordance with the 
National Emergencies Act, the President issued a Proclamation declaring 
his determination that the crisis at the southern border is a national 
emergency that requires the use of the armed forces. This declaration 
made available the authority in 10 U.S.C. 2808, which authorizes the 
Secretary of Defense to undertake military construction projects to 
support the use of the armed forces in connection with the national 
emergency. My preliminary assessment, which was provided to the Acting 
Secretary of Defense on February 11, 2019, is that military 
construction projects can reasonably be expected to support the use of 
the armed forces, including by enabling the more efficient use of DOD 
personnel, and ultimately reduce the demand for military support over 
time.
                                 ______
                                 
                 QUESTIONS SUBMITTED BY DR. DESJARLAIS
    Dr. DesJarlais. Currently, the Guard has 16 space units operating 
in 8 states with more than 1,200 Guardsmen, fulfilling a vital role in 
the space mission. With that said, can you elaborate on the 
complexities that you're referring to and what they mean for the 
Guard's role in the Space Force? Can you definitively say that the 
Guard will be in the Space Force? If so, what role do you foresee the 
Guard's playing?
    Secretary Shanahan. Today, the National Guard units provide 
strategic depth for U.S. space operations and their role in space will 
continue. The Department is currently conducting the detailed planning 
to determine the best organizational structure for the Space Total 
Force and will provide a legislative proposal for consideration with 
the FY 2021 National Defense Authorization Act.
                                 ______
                                 
                     QUESTIONS SUBMITTED BY MR. KIM
    Mr. Kim. We've heard in numerous hearings about the importance of a 
whole-of-government approach to stabilizing the Middle East region and 
defeating ISIS. Can you share what State and USAID are doing in Syria? 
How many State and USAID personnel are on the ground in northwest Syria 
and Iraq?
    Secretary Shanahan. The State Department and U.S. Agency for 
International Development (USAID) are engaged in diplomatic and 
stabilization activities in northeast Syria to consolidate military 
gains against ISIS and support local, representative governance 
structures. These stabilization activities include helping restore 
essential services (water, power, waste management, health, and 
education), and removing rubble and explosive hazards of war to enable 
the safe and voluntary return of Syrians to their homes. The activities 
are managed by State and USAID's Syria staff, who continue to perform 
their assistance oversight responsibilities from their permanent posts 
in Turkey and Jordan. The Department of Defense is strongly supportive 
of these activities. There were up to 10 State Department and USAID 
personnel forward deployed in northeast Syria until December 2018 when 
they were temporarily relocated. For any further details, I refer you 
to the State Department and USAID. State and USAID have not deployed 
staff to northwest Syria since the start of the conflict.
    Mr. Kim. Fourteen former regional combatant commanders recently 
said ``[d]iplomacy and development are essential to combating threats 
before they reach our shores.'' In your opinion, are State and USAID 
stabilization operations sufficiently manned and resourced to combat 
those threats? How much funding was provided through the State and 
USAID budgets? Has that amount decreased since FY2018? Why?
    Secretary Shanahan. The Department of Defense strongly agrees that 
diplomacy and development are essential to stabilize fragile areas and 
to prevent conflict. The Stabilization Assistance Review, published in 
May 2018 and endorsed by the Secretary of State, the Secretary of 
Defense, and the U.S. Agency for International Development (USAID) 
Administrator, clarified that the Department of State is the lead 
Federal agency for stabilization activities. The Department of Defense 
has been working continuously with the Department of State and USAID to 
ensure that we have planned ahead to have the right mix of the ``three 
D'' community--Diplomacy, Development, and Defense--in place to 
stabilize fragile and conflict-affected areas. I refer you to the State 
Department to comment on the amount of overall funding in the State 
Department and USAID budgets and if those amounts have increased or 
decreased.
    Mr. Kim. How were State and USAID enabled to be forward in the 
field? Was there an MOA with the Department to accomplish this? Can an 
MOA be used elsewhere if necessary?
    What will happen to that State/USAID presence as you execute a 
drawdown of forces?
    If the areas they support are allowed to devolve security-wise, who 
would provide security?
    Secretary Shanahan. State Department and U.S. Agency for 
International Development (USAID) personnel were co-deployed in 
northeast Syria after an exchange of memoranda that specified the 
support the Department of Defense (DOD) would provide to State 
Department and USAID personnel. This support largely included local 
force protection, housing, medical care, life support, and 
transportation. The Stabilization Assistance Review, published in May 
2018 and endorsed by the Secretary of State, Secretary of Defense, and 
the USAID Administrator, recommended that a Global Memorandum of 
Agreement on co-deployment of State and USAID personnel with DOD be 
signed to expedite deployments in future stabilization situations 
globally. The President has directed that DOD leave a reduced U.S. 
force presence in Syria to prevent the resurgence of ISIS. Even as we 
draw down forces in Syria, DOD is postured to support a State 
Department and USAID presence to execute diplomatic, stabilization, and 
humanitarian assistance work. I refer you to the State Department and 
USAID for comment on the status of their future presence. Security for 
areas in northeast Syria is currently provided by Syrian Democratic 
Forces.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. SHERRILL
    Ms. Sherrill. The Improved Turbine Engine Program (ITEP) remains 
the Army's #1 Aviation Modernization priority program that will save a 
combined $1 billion per year in reduced fuel, maintenance and operating 
costs while increasing the capability of today's Black Hawk and Apache 
helicopters and provide engines for the Future Vertical Lift (FVL) 
program. On February 1st, the U.S. Army awarded an Engineering and 
Manufacturing Design (EMD) contract for the ITEP program to the General 
Electric Company. On February 19th the Advanced Turbine Engine Company 
(ATEC) a 50/50 joint venture between Honeywell and Pratt & Whitney, 
filed a protest with the General Accountability Office (GAO) on the 
award.
    I understand DOD cannot comment on the award due to the protest, 
but I request clarification on ITEP specifically: 1) What is the 
purpose of the Improved Turbine Engine Program (ITEP)? 2) To what 
extent does ITEP improve the overall performance of the Army's Apache 
and Black Hawk fleets? 3) How does ITEP factor into the Army's Future 
Vertical Lift? 4) Were engine power, engine growth, specific fuel 
consumption, reliability, and maintenance key elements for ITEP? Were 
there any other key elements? How were these elements prioritized? 5) 
What is the status of the Army's turbine engine-manufacturing 
industrial base and specifically combat helicopters? How does a robust 
industrial base impact innovation and cost? Do we have a sufficiently 
robust industrial base to meet future turbine engine requirements in 
the future? 6) How does the prioritization of price over performance or 
capabilities during our acquisition process affect long-term risk to 
the warfighter?
    Secretary Shanahan. 1) The purpose of the ITEP is to deliver the 
next generation turbo-shaft engine for the Black Hawk (H-60), Apache 
(AH-64E), and in the future the Army's Future Vertical Lift Future 
Attack Reconnaissance Aircraft (FARA). Compared to the current H-60 and 
AH-64 engine, the Improved Turbine Engine will increase operational 
reach and lethality and provides increased power, fuel efficiency and 
reliability while fitting in the current engine bays of the Black Hawk 
and Apache aircraft.
    2) The ITEP will improve the overall performance of the Army's 
Apache and Black Hawk fleets by regaining lost capability due to 
aircraft weight growth and significantly increasing aircraft range, 
payload, and endurance over the current engine.
    3) The requirement is for FARA to include the ITEP Engine when both 
program efforts mature.
    4) Engine power, engine growth, specific fuel consumption, 
reliability, and maintenance were all considered for ITEP. All 
technical requirements/key elements were included in the System 
Requirements Document (SRD) which was attached to the ITEP EMD Request 
for Proposal (RFP) and thoroughly evaluated by the Army. Were there any 
other key elements? All technical requirements/key elements were 
included in the SRD. How were these elements prioritized? The EMD 
contract award is currently under a protest with the Government 
Accountability Office. Until this is resolved, specifics regarding 
evaluation criteria cannot be provided. However, engine power, future 
engine improvements, fuel consumption, reliability, and maintenance 
were all considered for ITEP. All technical requirements/key elements 
were included in the SRD which was attached to the ITEP EMD Request for 
Proposal and thoroughly evaluated by the Army.
    5) The commercial and military rotorcraft turboshaft engine 
industrial bases are healthy with no identified lower tier supply chain 
risks that are of significant substance to program execution risk. All 
identified supply chain risks are being managed and/or mitigated 
through normal Industrial Base surveillance and risk mitigation 
techniques. How does a robust industrial base impact innovation and 
cost? Combat helicopter turboshaft engine innovation and cost are 
driven by DOD requirements (e.g., better fuel efficiency, power, etc.) 
and the industrial base's ability to meet those requirements. The 
commercial sector continuously utilizes advanced manufacturing 
techniques and processes, such as additive manufactured parts, ceramic 
matrix composites, and other advance materials, to achieve key 
performance requirements. While cost is impacted by many factors, the 
key innovation items mentioned above will reduce piece part count, 
streamline manufacturing, and improve performance and reliability, 
which will have direct impacts on production and operations and 
sustainment costs. Do we have a sufficiently robust industrial base to 
meet future turbine engine requirements in the future? The combat 
helicopter turbine engine industrial base was examined in-depth in 
2012, 2016, and twice in 2018 with focus on support of the ITEP program 
and the Future Vertical Lift (FVL). Commercial and military engines are 
usually very similar in configuration, which leads to a stronger 
industrial base since a manufacturer will be supporting both users at 
the same time. These examinations consistently determined that this 
industrial base segment is vital, healthy and prepared to support 
upcoming and emerging Army aircraft programs.
    6) For ITEP, the Army's EMD competition used the best value 
approach to manage long term risk to the Warfighter, and appropriately 
weighted price and non-price evaluation factors.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MRS. LURIA
    Mrs. Luria. The 2018 National Defense Authorization Act required 
your department to submit a report on the vulnerabilities to military 
installations and combatant commander requirements resulting from 
climate change over the next 20 years including a list of the ten most 
vulnerable military installations within each service and to include an 
overview of mitigations that may be necessary and the cost of such 
mitigations. Instead your department submitted a report that only 
provides a list of military bases it characterizes as mission assurance 
priority bases and somehow omits the Marine Corps entirely even though 
the damage caused at Camp Lejeune is expected to cost $3.6B. It also 
doesn't address substantial mitigations or any cost associated with 
these mitigations. Why did your department not comply with the 
direction of Congress?
    Secretary Shanahan. Using the existing list of installations based 
on the importance of their operational roles (i.e., the Mission 
Assurance Priority installation list) ensured that climate 
considerations were connected to continued operational viability and 
resilience requirements. This Mission Assurance focus also allowed the 
report to avoid installations, like coastal recreation facilities, that 
may be proximate to potential flooding but are not mission-critical. 
Marine Corps installations were considered but ultimately not included 
in the Mission Assurance Priority Installation list; we are happy to 
discuss additional details about this list in a secure environment. We 
have since sent over a top ten list (transmitted to HASC on March 22, 
2019) for each Military Department derived from the original list of 79 
Mission Assurance Priority Installations. This list includes scoring 
and weighting of the five climate-related hazards (recurrent flooding, 
wildfire, drought, desertification, and permafrost thaw) based on 
immediacy of the threat. The report did not include the costs of 
climate mitigation because climate resilience is a cross-cutting 
consideration that spans all levels and lines of effort and is not 
framed as a separate program, precluding a discrete identification of 
costs.
    Mrs. Luria. Frequently, coastal flooding causes several of the 
gates entering Naval Station Norfolk to be impassible and one of the 
main access roads to Oceana becomes impassible with even modest 
rainfall. In reviewing the budget submission, I could only find one 
entry for Defense Access Road improvements at Fort Bliss, which is not 
even one of the 79 installations listed in your report. Why did you not 
include additional funding for defense access roads at the 
installations most affected by climate change?
    Secretary Shanahan. The Defense Access Road (DAR) program is 
designed to mitigate sudden or unusual defense impacts, such as a large 
growth in on-base population resulting from a new mission, by allowing 
the Department of Defense (DOD) to pay a share of the cost of public 
highway improvements made necessary by those impacts. This program only 
applies to public roads that have been certified as important to 
national defense per 23 U.S.C. Sec. 210. As such, not every public 
roadway that provides access to a military reservation is classified as 
a defense access road. To date, the military departments have indicated 
that they do not currently have any flood-prone locations creating a 
national security risk to transportation access for military 
installations. In many instances, DOD has several access points to its 
installations, and the impact of flooding that prevents access to one 
part of an installation would be mitigated by rerouting traffic to the 
other access points. State and local highway authorities are 
responsible for developing and maintaining public highways to all 
permanent traffic generators, including defense installations. It is 
the responsibility of Federal, State, and local Department of 
Transportation officials to monitor public roadways and address any 
impacts, including flooding, in the planning of their State and local 
transportation improvement plans. Requiring DOD to fund infrastructure 
improvements that are not deemed critical to national defense in local 
municipalities due to flooding or other climate events would redirect 
much-needed readiness funding to responsibilities that should be 
shouldered by the State and local governments.
    Mrs. Luria. Your own report stated ``The effects of a changing 
climate are a national security issue with potential impacts to 
Department of Defense (DOD or the Department) missions, operational 
plans, and installations,'' yet your department does not appear to be 
taking this national security issue seriously given your lack of 
investment in existing infrastructure and research and development. How 
much funding is allocated in your R&D budget to the study of the effect 
of climate change on DOD installations?
    Secretary Shanahan. The Strategic Environmental Research and 
Development Program includes the Resource Conservation and Resiliency 
Program Area. This program area contains a research and development 
line that develops tools and models for climate change impact and 
vulnerability assessment and adaptation strategies for Department of 
Defense installations. In Fiscal Year 2019, this program is funded at 
$8 million. For Fiscal Year 2020 the Department is planning on 
allocating $5.4 million, as a number of projects were initiated four to 
five years ago and will be completed in the near future. More broadly, 
the Department considers resilience in the installation planning and 
basing processes, to include impacts on built and natural 
infrastructure. The Department is incorporating climate resilience as a 
cross-cutting consideration for planning and decision-making processes, 
and continues to be proactive in developing comprehensive policy, 
guidance, and tools to ensure installations are resilient in the face 
of a variety of threats and conditions--weather, climate, natural 
events, disruptions to energy or water supplies, and direct physical or 
cyber attacks.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. TRAHAN
    Ms. Trahan. If the transgender ban proceeds as planned, I have 
several questions about how it will be implemented: 1. Will the 
Pentagon exempt those who are currently in the enlistment process or in 
a service academy or a commissioning program? 2. The grandfather clause 
applies to current service-members. However, will it continue to apply 
to those who plan to re-enlist? 3. Will their grandfathered status 
carry over or will they be re-evaluated?
    Secretary Shanahan. 1. Current policy does not represent a ban on 
transgender service, but rather accession and retention policies 
concerning the medical condition of ``gender dysphoria.'' The policy 
specifically provides that persons will not be denied accession or 
retention solely on their gender identity, to include prohibiting 
administrative separation based solely on gender identity. Individuals 
who prior to April 12, 2019, were either contracted for enlistment or 
selected for entrance into an officer commissioning program through a 
selection board or similar process and were medically qualified for 
military service in their preferred gender are considered exempt from 
the new policy. Similarly, contracted ROTC and military service academy 
cadets/midshipmen with a diagnosis of gender dysphoria confirmed by a 
military medical provider prior to April 12, 2019, are exempt and may 
transition.
    2. Per the April 12, 2019 policy, a service member who is exempt 
from the new policy may be retained without a waiver. An exempt service 
member is considered from that point forward to be exempt and may not 
have their exempt status revoked.
    3. Under the new policy, a service member's exemption status cannot 
be revoked, and the member cannot be separated, discharged, or denied 
reenlistment or continuation of service solely on the basis of his or 
her gender identity or gender transition.
    Ms. Trahan. The DOD budget request for the Space Force initially 
estimates a $72.4 Million cost in FY2020 ramping up to a full 
operational capability cost in FY24 of $500 Million, or 0.01 percent of 
the DOD budget overall, comprising up to 15,000 personnel. 1. The 
Pentagon's Space Force legislative proposal--Section 1707--states that 
civilian employees may be transferred ``on a voluntary or involuntary 
basis'' in your ``sole and exclusive discretion''? That sounds like a 
blank check. Why does the Pentagon need authority to transfer 
potentially an unlimited number of civilian personnel to stand up the 
Space Force?
    2. Are you concerned by the disruptive impacts on other important 
missions of the Department by transferring potentially thousands of 
personnel from the services to stand up the Space Force?
    Secretary Shanahan. The Department would like to work with Congress 
on the right personnel authorities to meet the needs for personnel. The 
transfer authorities included in the Space Force proposal were modeled 
after the establishment of the Air Force in 1947. The Department 
proposed a phased approach to standing up the Space Force to minimize 
risk: establish the headquarters first to prepare for mission transfer 
and then transfer Air Force, Army, and Navy forces and missions. Our 
goal is to create a lean Space Force with minimal bureaucratic 
overhead. Almost all of the military and civilian personnel who would 
be transferred to the Space Force are performing space missions today 
in the existing military services. Unifying those personnel into a 
single branch of the armed forces dedicated to space would allow the 
limited space personnel we have today to focus on building the space 
doctrine, expertise, and capabilities we need for a warfighting domain.
    Ms. Trahan. I'm interested in the levels of work being delegated 
from CYBERCOM to its Reserve units. To my understanding, the Guard and 
Reserve Components play a central role in DOD cybersecurity.
    1. Do the National Guard and Reserve Components benefit from the 
same training standards and resources as Active Duty teams to fill 
these roles? a. Are these teams meeting CYBERCOM's readiness standards?
    2. A niche job like cybersecurity requires niche recruiting. How is 
the Department revamping recruiting efforts for developing a skilled 
cyber workforce?
    Secretary Shanahan. 1. All Cyber Mission Force (CMF) aligned 
Reserve Component (RC) forces are required to train to, and meet, the 
same joint standard, as active duty teams, as established by U.S. Cyber 
Command (USCYBERCOM). The long Cyber Mission Force training pipeline 
does challenge the ability of RC members to complete all of their 
training. In response, the Navy and Army are utilizing Mobile Training 
Teams for portions of the training pipeline. Additionally, Army Cyber 
Command, USCYBERCOM, and the Army National Guard successfully granted 
constructive credit for the Intermediate Cyber Common Core for over 60 
Soldiers. At present time, the Air National Guard is the only Guard or 
RC organization performing national missions that require additional 
specialized training.
    1a. All RC CMF forces meet Military Service established readiness 
standards. Combatant Commands do not establish readiness standards.
    2. Each Military Service is best positioned to determine how to 
meet its recruiting mission. As the recruiting environment has become 
more challenging, each Military Service has experimented with 
innovative recruiting techniques, including niche recruiting, to 
maximize recruiting production. Furthermore, use of lateral entry and 
constructive credit have enabled the Military Services, including the 
National Guard and Reserves, to recruit individuals with experience or 
strong academic foundations in computer science and other technical 
degrees at a level more competitive with civilian employers. Ongoing 
collaboration with industry leaders to further the skill sets of these 
officers, also provides an incentive for individuals to consider 
military service. For the enlisted force, the Military Services, 
including the National Guard and Reserve, primarily select individuals 
without specific qualifications and train them to meet CMF 
requirements. These individuals normally are required to achieve high 
scores on the Armed Service Vocational Aptitude Battery, and may be 
administered additional testing to identify the best candidates for 
cyber occupations.
    Ms. Trahan. I'm interested in the levels of work being delegated 
from CYBERCOM to its Reserve units. To my understanding, the Guard and 
Reserve Components play a central role in DOD cybersecurity.
    1. Do the National Guard and Reserve Components benefit from the 
same training standards and resources as Active Duty teams to fill 
these roles? a. Are these teams meeting CYBERCOM's readiness standards?
    2. A niche job like cybersecurity requires niche recruiting. How is 
the Department revamping recruiting efforts for developing a skilled 
cyber workforce?
    General Dunford. 1. Yes, training requirements and standards for 
National Guard and Reserve cyber personnel match those required of the 
active duty components. Guard and Reserve members are fully capable of 
meeting DOD global cyber mission requirements due to the uniformity 
with respect to active duty training standards. a. Yes, National Guard 
and Reserve cyber personnel, particularly those with private sector 
expertise, are fully integrated into the Cyber Mission Force and form a 
critical component of the Defense Cyber Workforce. National Guard and 
Reserve cyber personnel are able to meet current readiness standards 
and will mirror the Active Component personnel in making organize, 
train and equip adjustments required to incorporate USCYBERCOM's 
evolving readiness standards, which focus on enhancing capability and 
capacity.
    2. The Department has leveraged direct appointment and constructive 
credit appointments to bring highly qualified, trained, and experienced 
personnel into our workforce. Additionally, we have rolled out the 
cyber expected service personnel system to make our hiring actions more 
competitive with private industry.

                                  [all]
</pre></body></html>
